<html>
<title> - LEGISLATIVE HEARING ON H.R. 3267</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
LEGISLATIVE HEARING ON H.R. 3267--THE ``SONNY BONO MEMORIAL SALTON SEA 
                           RECLAMATION ACT''

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                     MARCH 12, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-77

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 47-727 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE], Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

               Subcommittee on Water and Power Resources

                JOHN T. DOOLITTLE, California, Chairman
KEN CALVERT, California              PETER A. DeFAZIO, Oregon
RICHARD W. POMBO, California         GEORGE MILLER, California
HELEN CHENOWETH, Idaho               OWEN B. PICKETT, Virginia
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     SAM FARR, California
WILLIAM M. (MAC) THORNBERRY, Texas   ADAM SMITH, Washington
JOHN B. SHADEGG, Arizona             RON KIND, Wisconsin
JOHN E. ENSIGN, Nevada               LLOYD DOGGETT, Texas
ROBERT F. SMITH, Oregon              ---------- ----------
CHRIS CANNON, Utah                   ---------- ----------
MICHAEL D. CRAPO, Idaho
                  Robert Faber, Staff Director/Counsel
                    Valerie West, Professional Staff
                Christopher Stearns, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 12, 1998......................................     1

Statement of Members:
    Boxer, Hon. Barbara, a Senator in Congress from the State of 
      California.................................................     7
        Prepared statement of....................................     9
    Brown, Hon. George E., Jr., a Representative in Congress from 
      the State of California....................................    14
        Prepared statement of....................................    15
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California, prepared statement of.................     5
    Hunter, Hon. Duncan, a Representative in Congress from the 
      State of California........................................    11
    Lewis, Hon. Jerry, a Representative in Congress from the 
      State of California, prepared statement of.................    10
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................    17

Statement of Witnesses:
    Bazdarich, Michael J., Ph.D., Director, Inland Empire 
      Economic Databank and Forecasting Center, response to 
      questions from the Subcommittee............................   163
    Bunker, Richard, Chairman, Colorado River Commission of 
      Nevada.....................................................    38
        Prepared statement of....................................    84
    Codekas, Tellis, President, Salton Sea Authority, accompanied 
      by Tom Kirk, Executive Director, Salton Sea Authority and 
      Paul Cunningham, Director of External Affairs, IID.........    35
        Prepared statement of Mr. Codekas........................    83
    Cook, Wayne E., P.E., Executive Director, Upper Colorado 
      River Commission...........................................    69
        Prepared statement of....................................   160
    Hardie, R. Wayne, Group Leader, Energy and Environmental 
      Analysis, Los Alamos National Laboratory...................    58
        Prepared statement of....................................   148
    Harris, Christopher, Water Resources Program Manager, Arizona 
      Department of Water Resources..............................    54
    Hayes, David, Counselor to the Secretary, Department of 
      Interior, accompanied by Robert Johnson, Lower Colorado 
      Regional Director, BOR, and Michael Spear, Pacific Regional 
      Director, F&WS.............................................    32
        Prepared statement of Mr. Hayes..........................   112
    Hirsche, Evan M., Director, National Wildlife Refuge 
      Campaign, National Audubon Society.........................    74
        Prepared statement of....................................    93
    Lesika, Leon, Executive Director, Desert Wildlife Unlimited..    70
    Lopez, Art, Chair, Torres Martinez Desert Cahuilla Indians...    56
        P........................................................   128
    Pearson, Rita P., Director, Arizona Department of Water 
      Resources, prepared statement of...........................    86
    Stewart, Ted, Executive Director, Utah Department of Natural 
      Resources, prepared statement of...........................    92
    Vaux, Henry J., Jr., Ph.D., Associate Vice President, 
      Division of Agricultural and Natural Resources, University 
      of California..............................................    60
        Prepared statement of....................................    89
    Weber, Stephen, President of San Diego State University, 
      Salton Sea University Research Consortia...................    72
        Prepared statement of....................................    91
    Wheeler, Hon. Douglas P., Secretary for Resources, State of 
      California.................................................    34
        Prepared statement of....................................    81

Additional material supplied:
    Babbitt, Hon. Bruce, Secretary, Department of the Interior, 
      prepared statement of......................................   123
    Shaddegg, Hon. John, a Representative in Congress from the 
      State of Arizona, additional material submitted for the 
      record.....................................................   109
    Text of H.R. 3267--The Sonny Bono Memorial Salton Sea 
      Reclamation Act............................................    96


LEGISLATIVE HEARING ON H.R. 3267--THE ``SONNY BONO MEMORIAL SALTON SEA 
                           RECLAMATION ACT''

                              ----------                              


                        THURSDAY, MARCH 12, 1998

        U.S. House of Representatives, Subcommittee on 
            Water and Power, Committee on Resources, 
            Washington, DC.
    The Subcommittee convened at 10:07 a.m. in room 1334 of the 
Longworth House Office Building, the Honorable John T. 
Doolittle, Chairman of the Subcommittee, presiding.
    Mr. Doolittle. The Subcommittee on Water and Power will 
come to order.
    The Subcommittee is meeting today to hear testimony 
concerning H.R. 3267, The Sonny Bono Memorial Salton Sea 
Reclamation Act.
    Our objective today is to consider legislation that has 
been introduced by the Salton Sea Task Force. Members of the 
Task Force, Congressmen Ken Calvert, Duncan Hunter, Jerry Lewis 
and George Brown have introduced a measure which is designed to 
restore effectively the health of the Salton Sea. As many of 
you are aware, restoration of the Salton Sea was a focus and 
primary concern of our late colleague Sonny Bono. This bill, 
H.R. 3267, the Sonny Bono Memorial Salton Sea Reclamation Act, 
is designed to promote Sonny's dream of restoring the Sea 
quickly and effectively.
    Today we will hear some of the issues affecting the water 
quality and lake levels at the Salton Sea. A great deal of work 
has been done to evaluate the causes of poor water quality as 
well the periodic inundation and exposure of land around the 
Sea. More importantly, there have been scores of alternatives 
offered to solve these problems. If we are ever to find and 
implement the solutions, the time for action is upon us. Water 
quality is at an all-time low. The Sea can no longer serve as 
the recreation resource it once was and wildlife populations 
continue to be adversely affected.
    The Salton Sea as it now exists is an artificial phenomenon 
created in 1905 as the result of high water and a break in a 
temporary levee along the Colorado River. For a period of about 
16 months the Colorado River flowed into the Salton Sea. After 
the levee break was fixed with great difficulty and over an 
extended period of time, evaporation quickly reduced the size 
of the Sea. The water level declined until the 1920's when 
increased runoff from imported water used in the basin began to 
increase the Sea's surface.
    The Salton Sea is now about 35 miles long and 15 miles 
wide. The inflow has a high salinity content from the Colorado 
River resulting in over four million tons of salt being 
deposited into the Sea annually. Without a natural outlet, 
water leaves only by evaporation, leaving the salt behind. The 
Sea's salinity has increased to the point where it is now 25 
percent higher than that of our oceans and currently 
jeopardizes local and migratory wildlife populations. The 
Salton Sea currently experiences frequent large fish and 
wildlife die-offs and will be incapable of accommodating any 
wildlife in just a few short years.
    Land, recreational and ecological values associated with 
the Sea have declined over the last two decades due in large 
part to the rising salinity and surface elevation. Without 
efforts to reduce and stabilize the salinity levels they will 
continue to rise and will have severe impacts on surrounding 
landowners, individuals that wish to use the Sea for recreation 
and the existing wildlife species.
    H.R. 3267 establishes the process for determining and 
implementing an engineering solution to save the Sea while also 
continuing the environmental analysis to evaluate and ensure 
the long-term health of the Sea's wildlife populations. 
Additionally, this measure will authorize the Water Reclamation 
and Purification Project along the New River, one of the major 
sources of water flowing into the Sea.
    If we successfully reclaim this inland Sea it will provide 
for recreational and economic potential while also ensuring an 
environmentally safe refuge for fish and the one million 
migratory birds that use the Sea as part of the Pacific Flyway. 
If we fail to act, the wildlife will die and we will have lost 
a significant recreational, ecological and economic resource.
    I commend the Members of the Congressional Task Force who 
have invested their time and energy to advance the cause of 
restoring the Sea. I look forward to hearing from the witnesses 
who have had an opportunity to evaluate the problems associated 
with the Salton Sea and the legislative proposal we are 
considering.
    I do want to take a minute to comment on one issue which a 
number of Members have mentioned concerning this legislation, 
and that is access to Colorado River water. The legislation 
indicates that any water used to reduce salinity will be taken 
pursuant to existing law, including the Law of the River 
governing the Colorado River.
    As all who deal with the Colorado River know, the Colorado 
River is very erratic in its supply of water. When the Colorado 
River water was allocated this variation was recognized. At the 
same time there was an assumption that the average annual 
supply available to the upper and lower basins combined would 
be about 15 million acre feet of water per year. Since that 
time the average has been around 14.2 million acre feet, 
somewhat less than the average expected. The water allocation 
scheme considered periods of high flow, and at those times 
existing secondary priorities or allocations will apply. If any 
water is to come from the Colorado River it must be in the 
context of those allocations.
    I look forward to further discussion on this issue, and 
would like now to recognize Mr. Miller.
    [H.R. 3267--The Sonny Bono Memorial Salton Sea Reclamation 
Act may be found at end of hearing.]
    Mr. Miller. Thank you very much, Mr. Chairman, and I want 
to join you in sharing your concerns and interests with our 
colleagues in devising a long-term solution for the restoration 
of the Salton Sea. We need to stabilize salinity and 
contaminant levels to protect the dwindling fisheries, 
resources and to reduce the threats of migratory birds, and we 
need to revive the economic potential of this area as well.
    I do not, however, believe the Congress should act in haste 
to authorize and construct an expensive project at the Salton 
Sea before we know what we're doing. H.R. 3267 is well 
intentioned, but I believe it could force Congress to spends 
hundreds of millions of dollars of taxpayer money before the 
scientists and engineers have supplied us with the information 
we need to make good decisions.
    This bill will require many changes in our Committee and I 
am certain that we will hear many suggestions from Members at 
today's hearing. I am particularly concerned that we correct 
the requirements for a compressed study and planning period. 
The time period for environmental studies and NEPA compliance 
is entirely too short, and the explicit language overriding 
further NEPA compliance and limiting judicial review is highly 
inappropriate.
    I sincerely appreciate the efforts of those that have been 
made by the Congressional Salton Sea Task Force, the Salton Sea 
Authority, Senator Boxer and others of our colleagues.
    I just want to say this. I guess I've been here long enough 
to see enough of these projects start and stop and start and 
stop. It's my belief that the road to success is paved by doing 
these things right at the outset, and a little more time taken 
at the outset has huge payoffs later on. I know I've struggled 
with George Brown over the last several years looking at a 
multiple of different ideas for the Salton Sea, I've read the 
proposals that are before us brought to us by Congressman 
Hunter, and I've read Senator Boxer's legislation.
    I think the one thing that Sonny Bono gave us is 
Congressional agreement that we've got to do something and 
we've got to do it now. But what we ought to set in place is a 
process that is workable and that achieves a goal. It would be 
a tragic miscarriage of public duty if in Sonny's name we 
created something that didn't work or got bogged down because 
in mid-course we found out that the science of the studies was 
wrong, and another 6 months or a year at the beginning may have 
hugh payoffs in terms of the success of this project going 
forward.
    So I would hope, since we do have agreement here that we 
need to do something, and I'm not saying that it has got to be 
my way, but what I'm saying is I would hope that between now 
and the time this Committee marks it up we sit down and sort 
through some of these problems and realize that maybe the 
shortest point between ``A'' and ``B'' is through some existing 
law with good agreement and good science and positions by 
Members of Congress pushing the agencies to get this done.
    So I look forward to the testimony by our colleagues and 
Senator Boxer, and I look forward to those who will testify on 
the later panels. I assume that I, like many of my colleagues, 
have heard from all of the signatories on the Law of the River 
about their views of this legislation, and I think that's 
simply indicative of whether or not you spend time on working 
these problems out up front or whether you try to jam this and 
you end up with still having nothing been completed in the 
legislative process.
    So I want to thank all of our colleagues in the House that 
have worked so terribly hard to try to get this up before the 
Committee, and I look forward to the testimony. Thank you.
    Mr. Doolittle. Thank you.
    Under our Committee rules the opening statements are 
normally limited to the Chairman and Ranking Member. However, 
in view of the fact that Mr. Calvert is a primary sponsor of 
this bill I wondered if the Committee would entertain unanimous 
consent to allow him to make a statement. I would be happy to 
have everybody make a statement, but there are 16 witnesses at 
this hearing today and it's going to be a very long day if we 
can't expedite it.
    Mr. Shadegg.
    Mr. Shadegg. Reserving my right to object, I would Mr. 
Chairman, like to make a brief opening statement, but I will 
make a commitment to you to keep it very brief, along with Mr. 
Calvert.
    Mr. Doolittle. All right. Well then with that reservation 
is there objection?
    [No response.]
    OK.
    Mr. Doolittle. Mr. Calvert is recognized.
    Mr. Calvert. Thank you, Mr. Chairman, and I promise to keep 
my statement brief also.
    First, Congressman Lewis could not join us this morning, 
and I would ask unanimous consent that his statement be entered 
into the record.
    I want to thank the Chairman and the Ranking Member of this 
Committee for holding the hearing so promptly on the Sonny Bono 
Memorial Salton Sea Reclamation Act, an issue that is not only 
important to me, but to California and I believe to the nation.
    Mr. Chairman, my interest in saving the Salton Sea is 
personal as well as professional, and it has taken even more 
meaning since Sonny's death. Sonny and I became close friends 
representing the same county and working closely on issues 
important to our constituents, and certainly no issue came to 
the forefront more than the Salton Sea. We both shared fond 
memories of waterskiing on the Sea in our youth, and we looked 
forward to future generations enjoying the same type of 
memories.
    When I was a boy I only appreciated the fun that the Sea 
had to offer, but now as a Member of Congress I see a large 
body of water with enormous potential. As the largest inland 
body of water in California it also offers an enhanced 
potential for environmental uses as it already serves as a 
component of the migratory bird Pacific Flyway. This is 
Southern California's largest environmental problem, in my 
opinion, and it needs to be addressed in a manner that provides 
for long-term solutions.
    One point that I would like to make to my friend from 
California is we've been talking about this problem for 30 
years, as I'm sure we'll hear from our other friends who are on 
this Task Force. When I was going down to North Beach 30 years 
ago they were putting up banners with Save the Salton Sea. They 
have been studying it for all of that time, and now it's time 
for action. I don't think anyone wants to see the death of the 
Salton Sea. We all agree that something has to be done, but 
delay, no matter how well intentioned by the folks that are 
trying to do that, unfortunately may lead to some unfortunate 
results. We must act now and work out our differences. I have 
no problem meeting with the other side to accomplish this task 
and to get it done.
    I appreciate your having this hearing, Mr. Chairman and, 
unfortunately, my friend from Arizona wasn't here to hear your 
excellent explanation of the Law of the River.
    [The prepared statement of Congressman Calvert follows:]

 Statement of Hon. Ken Calvert, a Representative in Congress from the 
                          State of California

    Mr. Chairman, thank you for holding this hearing so 
promptly on the Sonny Bono on this panel on an issue that is so 
near and dear to my heart. Mr. Chairman, my interest in saving 
the Salton Sea is personal as well as professional, and has 
taken on even more meaning with Sonny's death. Sonny and I 
became close friends representing neighboring districts and 
working closely on issues important to our constituents, 
especially saving the Salton Sea. We both shared fond memories 
of waterskiing on the Salton Sea in our youths, and wanted to 
ensure that future generations would be able to have similar 
memories.
    When I was a boy, however, I only appreciated the fun the 
sea had to offer. As an adult, and as a Member of Congress, I 
see a large body of water with a staggering potential for the 
community. As the largest inland body of water in California, 
it also offers enormous potential for environmental uses, 
currently serving as a component of the migratory bird Pacific 
Flyway. This is Southern California's largest environmental 
problem, and it needs to be addressed in a manner that provides 
for long-term solutions.
    You will hear from many people today with many laudable 
reasons for saving the Salton Sea. But the most compelling 
reason we are here today, and the reason this bill has such 
bipartisan support, is to honor the life and legacy of our dear 
friend and colleague, Sonny Bono. As we work toward getting 
this bill approved by the House and Senate, if understandable 
differences of opinion threaten to slow the forward movement of 
this legislation, we must keep foremost in our mind that it was 
Sonny's dream to restore the Salton Sea, and in his tragic 
absence, it is up to us to accomplish the task.
    Thank you, Mr. Chairman.

    Mr. Doolittle. Well this is his first opportunity and he'll 
be able to hear it right now perhaps.
    The Chair recognizes Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    I apologize for being a few minutes late and for not being 
able to hear your brilliant and eloquent explanation of the Law 
of the River. It is in fact the Law of the River which gives me 
concern in this particular hearing.
    Let me say at the outset that I have no objection to the 
restoration of the Salton Sea and indeed view that as a worthy 
goal and one that I would be happy to work with in a reasonable 
fashion to ensure that those working toward that task are able 
to do so.
    The caveat that I am compelled to insert is in fact the 
implications for the Law of the River. There are literally 
millions of people in the Western United States, over 13 
million in the six Basin States, excluding California, and tens 
of millions others beyond that in California who are dependent 
upon the Colorado River, which is already completely allocated, 
and which allocation California is not only taking its entire 
current allocation, but as we all know it is taking more than 
its current allocation.
    The point being that the Law of the River has been the 
subject of probably dozens of pieces of legislation in this 
Congress and of numerous U.S. Supreme Court decisions, and of 
at least one seminal case, Arizona versus California. That law 
has been established over decades of compromise of litigation, 
and it important for us in considering this bill that we 
understand the delicate balance struck by the Law of the River.
    Second, it is important to understand that restoration of 
the Salton Sea does not require that we alter the Law of the 
River, that is, California already gets its basic allocation of 
Colorado River water. In addition, California gets the largest 
piece of the surplus or excess waters of the Colorado River 
flow, when and if they occur, and the Secretary of Interior has 
now declared on two separate occasions that they have occurred, 
and from its basic allocation or from its surplus or excess 
allocation California can use that water for any purpose, 
including the Salton Sea, if that's what it sees fit.
    However, I think it is important not just to my State of 
Arizona, but in fact important to the delegations from every 
other State, the six remaining States besides California that 
are in the Colorado River Basin, that we not alter the delicate 
balance struck by the Law of the River that compromises it in 
the litigation which have created it.
    In that regard, as you all know, I circulated a letter 
which has been signed by every Member of each Delegation from 
each of the six remaining Basin States saying what I have just 
said, that is, that we do not oppose restoration of the Salton 
Sea. We simply implore you that this legislation should not 
alter the careful balance struck under the Law of the River, 
that California can take its current allocation, either its 
basic allocation or its surplus allocation, and achieve what 
those who want to restore the Salton Sea want to achieve, and 
that under no circumstances can we, the Representatives of 
those other States, and I would suggest quite frankly that many 
Members I think of the California Delegation representing other 
interests would be concerned about any reallocation of Colorado 
River water which would place them in jeopardy for this 
purpose.
    Since it's not necessary to change the allocation or the 
Law of the River to accomplish the goal that the bill's 
sponsors want to do, I am hopeful they will agree to language 
which makes it clear that that is not intended in this Act, and 
quite frankly they have already represented to me, Mr. Calvert 
has and Mr. Hunter has to Senator Kyle in my State that they do 
not intend to do that.
    And with that I look forward to the testimony.
    [The letter referred to may be found at end of hearing.]
    Mr. Doolittle. Thank you. Let me just draw to the 
gentleman's attention Title I of the bill which does indeed 
state that the bill does not affect any treaty, law or 
agreement governing the use of water from the Colorado River. 
If the gentleman might review that and let us know in a timely 
manner whether you think that------
    Mr. Shadegg. Mr. Chairman, I have reviewed that, and 
actually it says this section does not alter that, and an 
amendment I will seek at some point would be that this Act not 
be that purpose, and then I think we would be comfortable. 
There also will be language offered by the Arizona Department 
of Water Resources and identical language offered by the 
Director of the Upper Basin States representing four Upper 
Basin States which is the clarifying language which we will 
seek which does not alter the intent of what you just read and 
it technically corrects the language of the bill.
    Mr. Doolittle. OK, and maybe some of our principal authors 
would want to comment on that to indicate whether you're 
sympathetic or not.
    We welcome our distinguished panel of Members here today to 
testify, and first on the panel is Senator Barbara Boxer of 
California.
    Senator.

STATEMENT OF HON. BARBARA BOXER, A SENATOR IN CONGRESS FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, and I want to thank my 
colleagues for saying it was fine if I did open. We have a vote 
starting at 10:30, and I'm a little bit hobbled this morning. 
So I will have to leave. I would love to take questions. So if 
you could put them in writing, Mr. Chairman, I will immediately 
get the answers back.
    I am very delighted to be here in the House, the House of 
the people, the place that I served for 10 years with many of 
you. I have many fond memories, and I think it is very 
appropriate that this legislation start here. It was brought to 
us by the late Sonny Bono who we all miss, and I am very proud 
to be playing a role in saving the Salton Sea.
    I want to make a couple of points, Mr. Chairman, and I will 
be brief myself. I want to ask unanimous consent to place my 
entire statement in the record.
    Mr. Doolittle. Without objection, so ordered.
    Senator Boxer. Mr. Chairman, I have had very pleasant 
conversations with Congressman Hunter on this, with Congressman 
Brown and Congressman Miller and several others and wanted to 
make the point that the legislation that I have introduced 
along with Senator Feinstein builds on the House bill. This is 
not a contest and there is no simple answer to this. This is 
going to be a moving, breathing piece of legislation. As 
Congressman Miller points out, I think we all have the same 
goal, and I was very taken with the comments of the Congressman 
from Arizona because I think he is working in a very friendly 
fashion to resolve his concerns.
    What Senator Feinstein and I attempted to do in the 
legislation we have introduced is to listen to those concerns 
that have come in from the Department of Interior, from the 
local community, from environmental groups and from other 
States concerned about water allocation, and we did hear from 
Senator Kyle with a similar comment. So what we have tried to 
do in this legislation having had the benefit of Congressman 
Hunter and Congressman Brown and Congressman Calvert's work, if 
you will, and others is to respond to some of the discussions 
around the bill and try to put something together that 
responded to that.
    In my presentation I go into some detail about the Salton 
Sea, which from the time I was a child learning about the 
Salton Sea has always fascinated me, and in the interest of 
time I won't go into that, except to say we now know that the 
Salton Sea is one of the most important habitats for migratory 
birds along the Pacific Flyway and that the extreme salinity 
along with agricultural and waste water in the Sea are rapidly 
deteriorating the entire ecosystem. The existing Salton Sea 
ecosystem is near collapse or nearing collapse with millions of 
fish and thousands of birds dying off in recent year. Birds and 
fish that once thrived there are now threatened with death and 
disease as the tons of salt and toxic contaminants that are 
constantly dumped into the Sea become more and more 
concentrated and more and more deadly over time, and the local 
economy is being affected by the loss of recreational 
opportunities.
    So we have an issue here that really I think does unite us. 
This is an environmental issue, this is also an economic issue, 
and it's also a tribute to our late colleague. So I think there 
is much going for us to come to a solution. But we do not have 
a solution at hand, and therefore while we must move forward 
swiftly I believe we must not more forward hastily. The 
legislation which I introduced allows the Department of 
Interior to adequately review all options for restoring the Sea 
while complying with all environmental laws. We put a timeframe 
in of 18 months, and I believe it is a tight timeframe, but it 
is realistic.
    I am very pleased with the favorable comments on the Boxer-
Feinstein bill. Secretary Babbitt said ``I have had an 
opportunity to review the legislation. In my judgment the bill 
is a thoughtful and practical approach.'' He says he looks 
forward to refining and implementing this important initiative.
    John Flicker, the President of the National Audubon Society 
said that the Audubon Society strongly endorses the 
legislation, and we have had other comments from local people. 
Tellis Codekas, President of the Salton Sea Authority and 
President of the Coachella Valley District said ``Senator Boxer 
is on the right track. Her legislation builds on a bipartisan 
local and national effort.''
    Mr. Chairman, I am proud of this support, and you will 
certainly have an opportunity to hear from the real experts 
sitting behind me.
    Again without going into the details of the legislation let 
me make this point. If we waive environmental laws, Mr. 
Chairman, I see this project getting delayed and delayed and 
delayed. The people of this country want us to stand by these 
environmental laws, and I think when Congressman Miller says we 
have to push the agencies I think that is absolutely true. When 
I started the legislation I had a conversation with Congressman 
Hunter, and he said, Barbara, 24 months, I mean we've got to 
push it down, and we talked to the Department of Interior and 
they signed off on the 18 months. So I think with all of us 
having good will this can come to a very good ending.
    In closing let me quote Sonny Bono who told USA Today ``If 
we don't move within a year or two, it will be too late,'' and 
I think he's right. The clock is ticking and we must act now to 
find a solution. Scientists have warned that the Salton Sea 
will be dead within 15 years. It is our responsibility.
    I am very proud to be here, and I'm very grateful to you, 
Mr. Chairman, for including me. I want to be a member of the 
team with all of you in a bipartisan fashion to make restoring 
the Salton Sea one of the greatest accomplishments of this 
Congress. Thank you very much.
    Mr. Doolittle. Thank you, Senator.
    [The prepared statement of Senator Boxer follows:]

 Statement of Hon. Barbara Boxer, a Senator in Congress from the State 
                             of California

    Mr. Chairman, I want to thank you for this opportunity to 
discuss an issue which is so important to all of us here 
today--restoration of The Salton Sea.
    I am very pleased to see the impressive panel of experts 
that will be testifying today, and I believe all opinions will 
lead us to a solid legislative effort.
    Last week, I introduced a Senate version of the Salton Sea 
legislation. The Boxer-Feinstein legislation builds from the 
House bill, but there are important distinctions that alleviate 
some of the concerns I have heard from the Department of 
Interior, the local community, and environmental groups.
    Over the years, scientists, communities and politicians 
alike, have been trying to draw national attention to the 
decline of the Salton Sea. Our late friend and colleague, 
Representative Sonny Bono, who died in a tragic accident in 
January, worked tirelessly to make this issue an environmental 
priority for this Congress. I am very pleased to join the 
bipartisan effort to carry on that legacy.
    The Salton Sea is a unique natural resource in Southern 
California. Created in 1905 by a breach in a levee along the 
Colorado River, the Salton Sea is California's largest inland 
body of water. It is one of the most important habitats for 
migratory birds along the Pacific Flyway.
    For 16 months after the breach, the Colorado River flowed 
into a dry lakebed, filling it to a depth of 80 feet. For a 
time following the closure of the levee, the water levels 
declined rapidly as evaporation greatly exceeded inflow. A 
minimum level was reached in the 1920s, after which the sea 
once again began to rise, due largely to the importation of 
water into the basin for agricultural purposes from the New and 
Alamo Rivers.
    Since there is no natural outlet for the sea at its current 
level, evaporation is the only way water leaves the basin. 
Therefore, all of the salts carried with water that flows into 
the sea have remained there. Salinity is currently more than 25 
percent higher than ocean water, and rising.
    This extreme salinity, along with agricultural and 
wastewater in the sea, are rapidly deteriorating the entire 
ecosystem. The existing Salton Sea ecosystem is under severe 
stress and nearing collapse, with millions of fish and 
thousands of bird die-offs in recent years. Birds and fish that 
once thrived here are now threatened with death and disease as 
the tons of salts and toxic contaminants that are constantly 
dumped into the Salton Sea become more and more concentrated 
and deadly over time. The local economy is also being affected 
by the loss of recreational opportunities.
    Despite the urgency of the situation, we do not have the 
solution at hand and, therefore, must move forward swiftly, but 
not hastily. The legislation which I introduced allows the 
Department of Interior to adequately review all options for 
restoring the sea while complying with all environmental laws. 
The time frame of 18 months, I believe, is tight but realistic.
    I am pleased with the favorable comments on the Boxer-
Feinstein legislation. Secretary Bruce Babbitt said, ``I have 
had an opportunity to review the Salton Sea legislation that 
Senators Boxer and Feinstein are introducing this morning. In 
my judgement, the bill as drafted reflects a more thoughtful 
and practical approach for addressing the serious environmental 
challenges that face the Salton Sea. I look forward to working 
with the Senators in refining and, hopefully implementing this 
important initiative.''
    John Flicker, President of the National Audubon Society 
said, ``The National Audubon Society strongly endorses this 
legislation by Senator Boxer. This bill sets in motion a 
process to determine the source of the ecological crisis facing 
the Salton Sea and provide recommendations on how to reverse 
the Salton Sea's rapid deterioration.''
    ``Senator Boxer's bill represents an important step forward 
in the fight to save the Salton Sea,'' said Congressman George 
Brown. ``She has done an outstanding job building a consensus 
bill that can win local and Federal support.''
    And Tellis Codekas, President of the Salton Sea Authority 
and President of the Coachella Valley Water District said, 
``Senator Boxer is on the right track with her bill. Her 
legislation builds on a bipartisan local and national effort to 
save the Salton Sea.''
    I am proud of this support. And today you will have the 
opportunity to hear more from these individuals and their 
organizations.
    Under my legislation, Interior will report to Congress 
within one year on the options for restoring the Salton Sea, 
and will include a recommendation for a preferred option. 
Interior will review ways to reduce and stabilize salinity and 
stabilize surface elevation. They will also explore 
opportunities to restore the health of fish and wildlife 
resources and their habitats, enhance recreational use and 
economic development, and continue the use of the Salton Sea 
for irrigation drainage.
    Interior then has another 6 months within which it must 
complete all environmental compliance and permitting activities 
required to implement the proposal. By the end of this eighteen 
month period, Interior must submit a final report to Congress, 
at which time the authorization for construction is triggered, 
allowing Congress 30 days of session to make changes in the 
plan, or to stop it. This 30-day wait period gives the local 
authorities and Members of Congress an opportunity to review 
the plan before construction begins. If necessary Congress can 
then take action to stop or modify the proposal.
    I totally understand the need to act swiftly, but I am 
concerned about the time frames established in the House bill. 
I firmly believe that if we rush this process and waive or 
modify the National Environmental Policy Act, we will end up in 
court, prolonging this process instead of shortening it.
    As I said, I have worked with local and Federal interested 
parties, most of whom are represented here today--including the 
Salton Sea Authority, the Department of Interior, the Imperial 
and Riverside Counties Boards of Supervisors, the National 
Audubon Society, Members of Congress, and others--to develop, 
what I consider to be, a true consensus bill. I would again 
like to thank them for their assistance and dedication.
    In a December 23, 1998, article in USA Today, Sonny Bono 
said, ``This is our last chance. If we don't move within a year 
or two, it will be too late.'' He was right: the clock is 
ticking and we must act now to find a solution. Scientists have 
warned that the Salton Sea will be a dead sea within fifteen 
years.
    I am hopeful that with the bipartisan effort shown here 
today, we can avert that unnecessary disaster, and save the 
Salton Sea for future generations of farmers, tourists and 
wildlife to enjoy.
    Thank you, Mr. Chairman, for holding this important hearing 
today. I look forward to working with you and other Members of 
the Committee on this critical issue. This is necessary and 
important legislation that will not only benefit Californians 
and our Nation's natural heritage, but will also carry on the 
legacy of Representative Sonny Bono.

    Mr. Doolittle. I believe Mr. Calvert has testimony to be 
entered into the record on behalf of Mr. Lewis; is that right?
    Mr. Calvert. Yes. Mr. Chairman, would you entertain 
Congressman Lewis' statement for the record?
    Mr. Doolittle. Yes. Actually let me indicate to the Members 
and witnesses that the full text of the statements will be 
automatically included as part of the record. I know 
Representative Chenoweth has a statement as well to submit, and 
anyone else up here who has a statement it will be included.
    [The prepared statement of Congressman Jerry Lewis 
follows:]

 Statement of Hon. Jerry Lewis, a Representative in Congress from the 
                          State of California

    I would like to thank the Chairman and the Ranking Member 
for allowing me the opportunity to participate in this 
important hearing and lend my strong support for this measure 
which recognizes the hard work of our former colleague, Sonny 
Bono, and addresses an important environmental issue in 
Southern California.
    The legislation before the Committee today is a result of 
regular meetings of a group known as the Salton Sea Task Force. 
The Task Force is comprised of Congressmen Duncan Hunter, 
George Brown, Ken Calvert and myself. We all owe Sonny Bono a 
debt of gratitude for raising the profile of this critically 
important Western Environmental project. Without his 
leadership, we would not be here today moving forward with this 
legislative initiative.
    Through this legislation, we have the opportunity to get a 
handle on potential solutions relating to the environmental 
restoration of the Salton Sea. However, if we don't act quickly 
and in unison, we may be too late to make a difference. Some 
environmental experts have predicted that at the current rate 
of increasing salinity, the Salton Sea may be dead in five or 
ten years.
    It is important for everyone to understand that the members 
of the Salton Sea Task Force view this legislation as the 
starting point of a long and complicated process. For this 
reason, the legislation does not pick a solution to the 
problem. It lays out a framework that involves all the 
stakeholders--the Federal Government, the State of California, 
water agencies, farmers, local county governments, the Salton 
Sea Authority, local universities, environmental groups and 
others--and allows them to determine the most feasible solution 
to the pressing environmental issues associated with the Salton 
Sea. Members of the Salton Sea Task Force are extremely 
enthusiastic and supportive of the Salton Sea University 
Research Consortium's involvement on a variety of fronts, 
including the University of Redlands' establishment of a Salton 
Sea Bioregional GIS Database, San Diego State University's 
Center for Inland Waters, and the University of California, 
Riverside's expertise in farming and hydrological issues.
    We believe that this hearing is an important first step 
towards recognizing and addressing issues and concerns we may 
not have accounted for in our original draft. In fact, many of 
my colleagues from Colorado River Compact States have raised 
questions regarding this bill's impact upon treaties, laws or 
agreements concerning allocations and uses of Colorado River 
water. I want to be clear--this legislation is not designed to 
upset these fragile water rights agreements. If necessary, the 
Task Force is certainly open to further clarifying this 
important point. It is our intent that this legislation should 
represent a consensus and not be a source of conflict.
    Before I conclude my brief remarks, I want to reiterate 
that this legislation is a beginning point. We all expect the 
Sonny Bono Memorial Salton Sea Reclamation Act to evolve as it 
moves through the legislative process. It is our sincere hope 
that the final bill will represent Sonny's vision of the once 
vibrant Salton Sea--a Sea which can again play host to diverse 
ecosystems as well as recreation and unlimited economic 
opportunities.

    Mr. Doolittle. With that we will recognize Representative 
Duncan Hunter.

 STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Hunter. Thank you, Mr. Chairman. It's a real pleasure 
to be with you, and it was good to listen to Senator Boxer, our 
good friend who is working on this issue in the Senate and 
initiated legislation with Senator Feinstein. I was thinking 
about the common ground that we have as she was going through 
the litany of elements that they have in their bill.
    You know, Mr. Chairman, this body of water, which was 
started in about 1905 with a flooding from the Colorado River, 
has become a recreational resource. We were figuring out today 
this thing is really within driving distance of about 6 percent 
of the population of the United States, and a few years ago it 
had more visitors that Yosemite National Park, for example. A 
lot of working people in this country are able to get in their 
cars, their pick-ups, or their campers and drive from Los 
Angeles or the Inland Empire, my good friend George Brown's 
area and Ken Calvert's great district there or Jerry Lewis' 
area or from the San Diego area. Literally 6 percent of the 
American population could get in their car and drive down the 
freeway, get away from the boss, have a good time, camp and 
enjoy what at one point was the most prolific fishery, the best 
fishing per angler day of any body of water in America, and 
that was the Salton Sea.
    I would ask, Mr. Chairman, that my statement be admitted 
into the record, and I'll just generally summarize that 
statement.
    Mr. Doolittle. That will be fine, and we will certainly 
include the whole statement.
    Mr. Hunter. I thank you, Mr. Chairman, and I know you've 
undertaken a lot of time working on this problem. You attended 
the hearings that Sonny convened for us in Palm Springs and you 
actually visited the Sea and visited the New River area also.
    And, you know, Ken Calvert, who has done so much great work 
on this, and of course Sonny who grew up around the Sea and 
knew it so well, and Jerry Lewis who is just north of there and 
myself and George spent a lot of time working the issue, and 
one thing that we discovered was the issue has been worked for 
a long time.
    This map that you have right here talks about the Salton 
Sea, the salinity level, the fact that it needs to get to 
around 34 parts per million, and that is roughly the salinity 
of ocean water, and the fact that it's above that and we need 
to bring it back down, and you can see the diking proposal that 
is manifest in that particular map. That map is 1974, and that 
was one of the initial proposals. So we have been looking at 
the Salton Sea and have been getting ready to do something 
about it for a long time.
    Just to go to the point that my good friend, George Miller 
made, the reason we put an expedited timeframe in this bill 
very simply is because the Sea is dying, and when it gets to 
60,000 parts per million the Sea is dead and the fish life can 
no longer exist. We're at 45,000 parts per million right now, 
ocean water being 35,000. So you've got this problem. You've 
got this big sump, this big bathtub, so to speak, with no 
outlet to it, and the waters that come in from the New River 
and the Alamo River which carry mainly tail water from the 
massive farming operations in America and in Mexico carries a 
little bit of salt into the Sea, but as the Sea evaporates off 
with no outlet over the years since that 1905 flooding the Sea 
becomes necessarily and by definition increasingly saline.
    So how do you get rid of the salt and how do you arrest the 
increasing salinization of the Sea and hold it at an acceptable 
level? Well there are only a couple of ways you can do it at 
least under modern science and do it economically. One is to 
dilute that water to some degree, and that can be done by 
putting more water in the Sea. Of course, that causes a lot of 
problems if you don't pump some water out because you have 
right now a level of the Salton Sea that actually is higher 
than some of the surrounding farm land. So you can expel water, 
and you're probably going to have to expel some water. You can 
dike off part of the Sea and you can allow part of the Sea to 
die, and that's analogous to taking an arm off so that the 
patient can live, or you can do a combination of that, a 
combination of diking and perhaps some expulsion of water.
    Ken Calvert during our brainstorming sessions with Sonny 
had this great idea that we have a 500,000 acre bombing range 
immediately to the east of the Salton Sea that we could use a 
basin there in the bombing range to host some of the expelled 
saline water and then continue to flush in with the fresher 
water that comes through the New and the Alamo Rivers.
    So there are really three elements, and I'll wind up here 
very quickly because you've got a lot of witnesses. We've got 
to handle the salinity. That's the big question, and it's going 
to cost a lot of money. We know that. Even in the terms we 
speak of today it's going to be a fairly expensive proposition, 
but we have to do it.
    The second leg of this still is we have to solve the toxic 
waste and pollutant problem that comes from Mexico where the 
New River flows through the city of Mexicali picking up 
industrial waste and sewage presently and then flows some 50 
miles past the Mexican border, north of the Mexican border into 
the south end of the Sea. We have a massive project with the 
International Boundary and Water Commission right now with 
Mexico, and we're going to break ground this August I'm told by 
the Commissioner on this project with Mexicali to wean the city 
of Mexicali and its wastes from New River. So that will solve 
part of our problem when that project is completed. That is 
fairly well funded at this point and moving forward.
    We have a second problem, and that of course is the New 
River itself and the Alamo River, but mainly the New River 
which has been polluted for many years and is considered the 
most polluted river in North America.
    Leon Lesika, who is going to testify today, is a great 
leader of Desert Wildlife Unlimited who has solved so many of 
our wildlife problems, and this group, this citizens group that 
you will listen to along with the Bureau of Reclamation, Mr. 
Chairman, are going to build, they are proposing to build, and 
we have money in our bill to do this, basically 50 miles of 
marshes along the New River, from where the New River enters 
Mexico and comes into the south end of the Salton Sea, and 
those marshes will have a natural filtering effect. It's 
scientifically proven and it's used by hundreds of communities 
throughout this country today to cleanse water. We need to 
address some technical problems in our national law to allow us 
to do that, but I think can do that.
    But cleaning up New River along with weaning Mexicali and 
its industrial wastes from New River and, finally, coming up 
with this answer as to how we arrest the salinity of the Sea 
are the three problems we're facing.
    The bill has quite a bit more detail than that, Mr. 
Chairman, but I know you have a lot of witnesses, and I'll 
close with that.
    I just want to thank you and thank all my colleagues for 
picking up this ball. This is going to be tough and we're going 
to have to move it forward and it's going to take some sharp 
engineering and some sharp scientific work. I think we can do 
it.
    To my friend, Mr. Miller, I know that these time lines are 
important, but we're only about 6 months apart. Senator Boxer's 
bill is 18 months, and ours is 12, the Task Force's bill is 12. 
That's not much difference, and today a computing dollar will 
buy about four million times as much computing power as it 
would in 1960 or 1962. We can do a lot of things today I think 
that we couldn't do in the past.
    So, Mr. Chairman, thank you for taking on this challenge, 
and to all the Members of the Subcommittee we appreciate you, 
and I appreciate my colleagues. You know, Sonny used to say 
when he would wrap up these sessions that he would summon us to 
can't we just get this thing done. Let's start on it, Mr. 
Chairman.
    Mr. Doolittle. Thank you very much.
    Our next witness is Representative George Brown.
    Mr. Brown, you are recognized.

  STATEMENT OF HON. GEORGE E. BROWN, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Brown. Thank you, Mr. Chairman, and I ask unanimous 
consent to insert my complete statement in the record and I 
will try and summarize also.
    Mr. Doolittle. Thank you, and it will be included in the 
record.
    Mr. Brown. Mr. Chairman, I want to express my appreciation 
to you for your strong support of taking some action on this 
matter, and I want to categorically state in response to your 
opening statement that none of the Members of our Task Force 
have any intention or desire to avoid respecting the Law of the 
River. That would open a can of worms which we just could not 
cope with, and we assure you of our respect for maintaining 
fully the existing Law of the River and all of its 
ramifications. As you know, this is a very complex body of law, 
but it has been built up over years.
    I should indicate at this point that the original 
Congressman from this region, the first to be elected from what 
we call the Inland Empire was Phil Swing, who in effect began 
the Law of the River when he was able to get through the 
Congress the Bolder Canyon Act and the All American Canal Act 
back in the 1920's, and in honor of the first Congressman from 
the region I think all of the succeeding Congressmen from the 
region would want to respect that.
     I would also like to assure Mr. Miller that we don't want 
to act in haste. However, reiterating what Mr. Hunter said, 
after 25 years of study of this problem and after predictions 
made by the Bureau of Reclamation that the system would 
collapse in the 1980's we don't think it's premature to speed 
up the action a little bit, and that's our only effort. We hope 
that this Committee will suggest reasonable and legitimate ways 
of speeding up this action so that we can save the Sea from 
collapse.
    Now the prediction that it would collapse in the last 
1980's would have come true except for the fact that the Sea is 
now about 10 feet higher than it was when that prediction was 
made, and that additional volume of water has maintained the 
salinity level at a considerably lower level than it normally 
would have been. It has raised the elevation, and in raising 
the elevation it has cost the Imperial Irrigation District 
about $40 million in damages levied by the courts or settled by 
negotiation with the riparian landowners. That is a very large 
sum of money to pay for raising the level and maintaining the 
salinity a little bit lower to prevent that predicted collapse.
    Now why didn't we do something when for 25 years we have 
been looking at studies of various solutions? Because there 
wasn't the political will to act on this, and that's the main 
difference in the situation over the years and today. We now 
have I think the political will, and it was Sonny Bono who was 
the inspiration for a great deal of this along with Mr. Hunter 
who has pursued this just as vigorously in order to create some 
momentum here. I think that we ought to move ahead with a 
prompt, but not overly hasty solution that respects the Law of 
the River, and I think we can do that.
    I think that this whole operation can become a test bed for 
what is going to be the proper solution to our overall water 
problems in the West, and that is using water more efficiently. 
We can do that through recycling, through desalinization, and 
through any number of methods of conservation.
    Since this is the largest available Colorado River 
allocation that can be conserved I think we should use every 
possible scientific method to show that we can use this water 
efficiently, and then we must respect the right of the water 
right holders to use whatever conservation methods that are 
best for them to save water and to export that water at the 
prevailing price that exists to those areas which are willing 
to pay a higher price for it. I'm bringing in here the San 
Diego Imperial Irrigation District Water Transfer, which I 
think, while it's not in this bill and probably shouldn't be, 
it is a key element that needs to be considered here.
    Conserving water in the Imperial Valley can release 
anywhere from 200- to 400-thousand acre feet per year according 
to their own calculations, and in my optimistic calculations it 
could be even more than that. That kind of a willing 
transaction between buyers and sellers is the way that we will 
get the most efficient use of water, and I urge that we make 
every effort to do that.
    Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you very much.
    [The prepared statement of Congressman Brown follows:]

 Statement of Hon. George E. Brown, Jr., a Representative in Congress 
                      from the State of California

    I wish to thank Subcommittee Chairman Doolittle and Ranking 
Member DeFazio for providing me this opportunity to express my 
views on H.R. 3267, the ``Sonny Bono Memorial Salton Sea 
Reclamation Act.'' It was a distinct pleasure for me to work 
with Congressman Sonny Bono in the early stages of formulating 
a legislative plan for saving the Salton Sea. I feel strongly 
that this bill is a fitting commemoration of his dream to 
restore the health of the Sea and the economic value of the Sea 
to the region.
    I believe that this bill is a valuable step in addressing 
the problems at the Salton Sea. I am pleased that we were able 
to bring this bill forward now, though I am saddened that only 
with the passing of a fellow Member were we collectively able 
to muster the political will to tackle this daunting problem. 
But tackle it we must, because the Salton Sea is dying. Over 
two-hundred thousand birds and millions of fish have perished 
over the last five years. The die-offs, originally occurring 
only in the hot-weather months, now take place year-round. The 
death of the Salton Sea could imperil the health of the Pacific 
Flyway, which stretches from Alaska, through Canada, the 
Western United States, and on to Mexico.
    Federal agencies have been studying solutions to the 
mounting problems of the Salton Sea for decades; today's high 
salinity and ecosystem stresses at the Sea are certainly no 
surprise. Until this year, policy-makers have preferred to take 
the easy wait-and-see option. I believe that this option is now 
closed, and it has fallen to the 105th Congress to finally 
decide the fate of the Salton Sea. Should we fail to act now, 
we may be addressing far more expensive and draconian measures 
to come.
    The Salton Sea is more than just a problem to fix. It is a 
missed economic opportunity, capable of providing the region 
with a much needed engine for prosperity. Both visitor-day data 
from the State of California and a recent economic study 
conducted by faculty at the University of California Riverside 
suggest lost economic inputs to the region are in the hundreds 
of millions of dollars per year. Local unemployment runs over 
30 percent in some areas. We must remember that Congressman 
Bono, more than any other Member of Congress, stressed the need 
to seek a solution which would provide for restoration of the 
economic life of the Sea and its surrounding communities. We 
must strive to honor his goal in this legislation.
    I've been pursuing a solution to the problems at the Salton 
Sea for years. Obviously, if cleaning it up were easy, it would 
probably have been done a long time ago. But cleaning it up 
will not be easy. It is going to be a very difficult process 
for both the Congress and the many stakeholders involved. And I 
believe that the difficulties are reflected in H.R. 3267. We 
are still very early in the legislative process. I look forward 
to discussing the issues raised in the bill with fellow 
Members. It raises the level of understanding and 
participation.
    As Ranking Member of the House Committee on Science, I've 
developed a strong interest in understanding complex systems, 
and I'm very interested in the improvement of processes. The 
Congress has worked hard to create many approaches for dealing 
with difficult multi-faceted problems related to natural 
resources and the environment. The restoration of the Salton 
Sea presents the Congress with a valuable opportunity to build 
on these approaches, to improve upon them, to learn from the 
lessons of implementation. Certainly, the bill is not perfect; 
I am relying on the legislative process to perfect it.
    I would be remiss if I did not express to the Subcommittee 
my positions on several of the important elements of the bill. 
I am looking forward to testimony on the provisions in the bill 
which waive certain environmental reviews of the restoration 
process. In attempting to expedite action, the current bill may 
well go too far in denying citizens and local governments their 
legitimate rights of review under environmental and reclamation 
statutes. I strongly support the importance of recognizing and 
valuing local stakeholder interests in the process to save the 
Sea. The Salton Sea Authority and its member agencies have 
worked hard to achieve a solution, and should be recognized for 
their critical role. I support the need to include the Torres 
Martinez Band of Cahuilla Indians in decision-making, and I 
believe that the inclusion of the Salton Sea University 
Research Consortium will expedite and bring greater trust to 
the overall solution-making process.
    I feel most strongly that this bill reflects the authors 
need to act. H.R. 3267 represents a landmark shift in the 
nation's perception of the importance of the Salton Sea. I 
believe this Subcommittee can provide critical input needed to 
perfect this bill, to achieve broad-based bipartisan support 
for its passage.

    Mr. Doolittle. We will now have the opportunity to ask the 
Members of our panel questions.
    Mr. Hunter, if I could ask somebody to put that chart back 
up, and I just wonder if you could tell us on that chart if 
it's displayed where that military range is.
    Mr. Hunter. Mr. Chairman, obviously the top of the chart is 
the north there, and it's to the east basically starting almost 
I would say about oh 20 miles from the top of the Sea coming 
down this way and then 500,000 acres is the bombing range. 
There is one to the west also, Mr. Chairman, but the biggest 
one is to the east. So we basically have ranges, government 
property flanking on each side of the Salton Sea.
    Mr. Doolittle. And the spot where you believe the water 
could be deposited from the Sea, how many miles from the Sea is 
that?
    Mr. Hunter. The one spot that they identified, and George 
help me on this, but the spot they identified I think is about 
10 miles away.
    Is that accurate, George?
    Mr. Brown. If I may comment. Yes, it's very close. 
Unfortunately, it's up about 1,700 feet, and that has been 
explored and investigated and a cost analysis made of pumping 
water up that high, and it comes out at $40 million a year. Now 
if you pump it at sea level it's only $10 million a year. So 
the elevation is critical unless you can find some way to 
generate electricity from letting the water run back down to 
the Sea or something like that.
    Mr. Hunter. And, Mr. Chairman, I would offer that this is 
all on the floor of the California desert. I mean the Sea 
itself is below sea level. I think we ought to explore in this 
study of course the possibility of finding a lower basin. In 
other words, the Sea literally is at sea level, and this basin 
that they identified in the bombing range is up some 1,700 
feet, as George said. There are a lot of spots in the bombing 
range that are much lower and therefore require much less lift. 
The government property and the training area to the west of 
the Salton Sea, none of that to my knowledge is more than 4- or 
5 hundred feet above sea level. So I think we can further 
explore that and see if there aren't some lower ranges. That 
was one idea that Ken Calvert had.
    The complication here, Mr. Chairman, and you've opened this 
question a little bit, is expelling water, and we still are 
looking at arranging some type of an agreement with Mexico that 
would allow us to expel some of that water to the south of the 
Sea into either the Laguna Salada, which is about 40 miles 
away, and that's a backup, if you will, of the tributaries that 
go into the Sea of Cortez, or taking it all the way down into 
the Sea of Cortez, or running a line over to the Colorado River 
desalinization plant that we built for Mexico right at the 
border at Yuma, and that is about, what, George, 60 miles away, 
and taking it down that canal into the Sea of Cortez. Now that 
obviously would require immense cooperation from Mexico.
    So Ken's common sense idea was well if we can't get that 
and we can't bet on that perhaps we can build evaporation ponds 
there on one side of the Sea or the other, and I think that's 
going to be perhaps a really strong consideration.
    Mr. Doolittle. Thank you.
    Let me ask the Members for unanimous consent. I had offered 
to Mr. Pallone, who has now been able to join us, to testify as 
part of the first panel, and I wonder if we could just suspend 
our questioning to allow him to make his statement and then 
resume. Is there any objection to that?
    [No objections.]
    Mr. Doolittle. Seeing none, Mr. Pallone, a Member of our 
Full Resources Committee is recognized for his statement.

   STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, and I apologize. I 
was in the Commerce Committee and we had the Speaker and Mr. 
Gephardt there on the American Disabilities Act. So I just came 
over.
    Let me just say that although I'm not a Member of the 
Subcommittee I have become very interested in the topic of this 
hearing, the Salton Sea. I actually had the opportunity last 
weekend to be out there and have a tour of the Sea and also 
talked to some of the people that are concerned about its 
future. I witnessed, I have to say, both the great potential of 
the Sea as an environmental and recreational resource and also 
the unfortunate problems that the Salton Sea currently endures.
    It was very interesting, Mr. Chairman, because in many ways 
the situation reminded me of what we faced in New Jersey back 
in 1988 when I was first elected. My district is along the 
shore in New Jersey and we had medical waste wash-ups and 
sewage sludge and a number of other things that negatively 
impacted our tourism industry so that we actually lost billions 
of dollars statewide as a result of the environmental 
degradation.
    I truly empathize with my colleagues from California and 
also the Native American tribes and others who are working to 
restore the Salton Sea to a healthy ecosystem because I think 
that if they take certain preventative measures that are 
outlined in this bill or other bills that have been introduced 
in the Senate that they can prevent the kind of problems that 
we in fact witnessed and that created huge economic problems 
for us at the Jersey shore.
    Now I represent a very different area of the country, but 
my constituents and I, I think, have a lot in common because we 
have these similar environmental and economically linked 
hardships. I guess my point, and obviously I think everyone 
here agrees, is that the environment and a good economy, the 
environment and job creation, all that can co-exist, and I 
would very much like to see a solution for the Salton Sea that 
recognizes the environmental and recreational potential and 
what that means in terms of jobs. At the same time, you look at 
the impacts that might affect the agricultural sector and some 
of the other economic sectors in the area.
    If you're willing, I would like to stay for the rest of the 
hearing today and work with my colleagues on this Committee in 
trying to address what I consider to be not only a California 
issue, but a truly national issue. Thank you.
    Mr. Doolittle. Thank you.
    Well resuming the questioning, let me just ask the Members 
that are present on this panel either who have lived there or 
been there to see what it looks like, would any of you be 
inclined to take a swim in the Salton Sea as it presently 
exists?
    Mr. Hunter. Well, you know, when Secretary Babbitt came 
out, and I think it's indicative of the bipartisan support for 
this project because Speaker Gingrich has spent a lot of time 
working on this issue, as you know, Mr. Chairman, but when 
Secretary Babbitt came out and he took his tour George and I 
got to take a tour on an air boat with him. It was a very windy 
day with white caps coming over the tops of these air boats, 
and I asked the gentleman who was handling the boats, and he 
said you and George can go down and get in your boat, and there 
was one with very high seats that was about 20 feet above the 
waves, and we started to walk toward it, and he said, no, 
that's not your boat. We had the boat with the low seats where 
you sit down right at wave level and you catch them right in 
the face. I just will tell you that I asked Leon Lesika, who is 
sitting behind me, the great leader of Desert Wildlife 
Unlimited, if he wanted to do, and he said are you kidding, and 
he didn't go with us.
    Mr. Doolittle. Well that was certainly my impression, and I 
didn't go out on the Sea. I saw enough from the shore. Well 
thank you very much.
    Let me recognize Mr. Miller for his questions.
    Mr. Miller. Thank you. Just a couple of comments because I 
think I outlined some of my concerns. I hope my opening remarks 
were interpreted as a desire that we do work together. It's not 
about delay. Duncan, was it you or George who said that this 
has been around for 25 years because you didn't have the 
political will to do it, and now to take the absence of that 
political will and lay that on the head of the agencies that 
have got to comply with laws and try to compress this so they 
can't do an adequate job I think lands this back into a 
controversy and into court because I don't think you're going 
to get a removal of judicial review, and I don't think the 
Administration can live with that, that's their indication.
    What I was suggesting is that we ought to think, and I 
don't know if you're going to mark this up on the 26th or what 
day it is, but we ought to think about trying to get a 
preconference. You know, I've always thought of sending good 
legislation to the Senate is sort of like putting your child in 
foster care, you may never see it again.
    [Laughter.]
    Mr. Miller. You know, as soon as people know that this is 
what California wants, all the sudden there are multiple holds 
on a bill, and if we don't have the agreement of all of the 
parties your chances, given the limited number of days, your 
chances of getting it out of the Senate are the same chances 
you have of escaping a black hole. I just think that people 
have got to set aside all their ideology, whether they like 
environmental laws or don't, but figure out how we make this 
work so we can walk over to the Senate and say everybody is in 
agreement and this is what we want done, because otherwise it 
just becomes bait and I think we ought to try to avoid that.
    So what I'm saying is I think thinking about this over the 
next week or 10 days could buy us a real shortening of the 
legislative process here because none of this is going to 
happen before this bill becomes law. If we miss this cycle it 
would be a shame, and that's all I'm saying. This isn't about 
delaying, you know, what you and Barbara have tried to do 
because, as you point out, on this you're only 6 months apart. 
That's a tiny, tiny price if you thought you were going to get 
success. So we'll sort it out.
    Mr. Brown. May I comment, Mr. Chairman.
    Mr. Doolittle. Without objection.
    [No objections.]
    Mr. Brown. Mr. Miller is expressing what I think is the 
desire of the sponsors of this bill. If we follow normal 
procedures here in the Congress it will be 6 months before this 
bill is signed. Six months is critical. The Sea could collapse 
by virtue of our failure to cut 6 months off of the normal 
time, and the normal time if we go through all the processes, 
including the Congressional processes, is about two and a half 
to 3 years. I don't think we have that much time. If we can 
cutoff 6 months here and if we can cutoff 6 months of extra 
time in the NEPA process we should do it and we should ask the 
Department how to do it right.
    Mr. Doolittle. Mr. Miller have you concluded?
    Mr. Miller. Yes. Thank you.
    Mr. Doolittle. Mr. Calvert is recognized and then following 
his questions we will recess for the votes, two votes.
    Mr. Calvert. Just a quick question since we have to go down 
for a couple of votes.
    Duncan, you mentioned the problems we're having along the 
New River and the idea of putting those marshes in. As you 
mentioned, this is an idea that is being used throughout the 
United States to clean up various toxins from water, but you 
have an interesting problem with the Clean Water Act. Would you 
like to get into more detail on what that problem is.
    Mr. Hunter. Certainly, and we really need your help. I 
mentioned this to Secretary Babbitt, and at least he indicated 
initially that he would be happy to work on it also. When we 
first put together this idea, the idea of cleaning up a river 
or a body of water with a series of ponds, is that you flow 
some water out and you flow it through a series of ponds and 
the water hyacinths or other shrubbery pull the toxics out of 
the water so the water is a little cleaner as it goes to the 
next pond, and then finally you flow it back into the river, 
and after you've done that for 50 miles, basically 50 miles of 
marshes you've incrementally, by using these incremental 
processes at each pond, you've cleaned up the river 
considerably.
    The problem that was laid on us by the Imperial Irrigation 
District who had their attorneys look at it was they came back 
to us and said the way we read the Clean Water Act is if we 
touch this water in the New River we own it. That means that 
once we pull it out we can only put it back in if it's 
basically pure quality, drinking quality. So that means that 
you've lost the chance to do incremental cleanup which has been 
shown to work very effectively around the country.
    So we need to adapt the law, and we've got a change 
proposed in our bill that would do that, that would allow us to 
pull the water out as we travel this 50 miles of New River from 
Mexico to where it empties into the Salton Sea, filter it 
through the marshes and run it back into the river, and we'll 
have a much cleaner river for the water that finally gets to 
the south end of the Salton Sea. So we do need that change, 
Ken, and it's a very important part of this package, and we 
will need a lot of cooperation.
    So, George, we are all going to have to make compromises. 
We can't have a situation where folks say this Act is inviolate 
and we can't change a comma or a single letter. We do have to 
make some common sense accommodations so we can have a good 
ecosystem and so we can clean up the New River.
    Mr. Calvert. And, last, George, you mentioned the Colorado 
River and the Law of the River and everyone's intention to meet 
that law and not violate it in any way. We couldn't take any 
water from the river today even if we wanted to, as you know, 
because the Sea is at flood stage now and we can't accept any. 
But if somewhere down the line we were able to remove water and 
we were able to take water in, how much capacity is there in 
the All American Canal to deliver water?
    Mr. Brown. Well the canal delivers the full allocation to 
the Imperial Irrigation District, which is three million acre 
feet, plus or minus a couple of hundred thousand. I think that 
it's actually more now, but of course the further down the 
canal you get the less water it's carrying because it's being 
used to irrigate as it goes down. I don't think capacity for 
the amount of water we're talking about is an important 
consideration here, but I could be wrong.
    My own calculations are that under a steady state where you 
have the salinity at the level you want, then all you need to 
do is remove the incoming salt. Pumping out about a hundred 
thousand acre feet per year and making up a hundred thousand 
acre feet in fresh water would do the job and would maintain 
the Sea stable in perpetuity as far as salt level is concerned, 
and an additional hundred thousand acre feet I think could be 
accommodated in the All American Canal. If I'm wrong, why I'll 
suggest some other ways to get the water in.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you.
    We are going to recess now and we'll come back after the 
two votes. It is the Chair's intent to take a lunch break right 
around noon. We should finish up with this panel I think 
quickly after we come back, and then we will resume at 
approximately 1 o'clock once we take the lunch break. So we 
will reconvene in a few minutes.
    [Recess taken for Members to vote.]
    Mr. Doolittle. The Subcommittee will reconvene. We are in 
the midst of querying our first panel, and the Chair recognizes 
Mr. Ensign from Nevada for his questions.
    Mr. Ensign. Thank you, Mr. Chairman.
    Obviously coming from Nevada and being a lower basin State 
ourselves we are very concerned about this project, and I want 
to ask a couple of fundamental questions dealing with the 
formation of the Sea in the first place. Can you maybe just 
discuss the history of how it was formed.
    Mr. Hunter. Sure. The Sea was formed in the several years 
succeeding 1905. It was a flood of the Colorado River in which 
the totality, as I understand it, and George is a better 
historian than I am on this, but the totality of the Colorado 
River flooded into the basin for about 2 years. Of course early 
on it was a fresh water lake. I mean the salinity built up over 
the years.
    And I want to applaud you, Mr. Ensign and Mr. Shadegg. I 
know you are very concerned as participants in the River 
Division of Water, that this doesn't infringe on any of your 
rights, and I think George stated, and I want to state it again 
that we have no intention of upsetting the division of the Law 
of the River or taking any bigger share.
    Mr. Ensign. The reason I brought up how it was formed is 
that, first of all, you've been to Israel and have been to the 
Dead Sea and you've seen the Great Salt Lake and all of that. 
If you have no outflow naturally bodies of water will die. You 
know, in less artificial man-made means of, you know, 
tremendous amounts of money and everything what you're talking 
here of having an unnatural outflow to this body of water it's 
going to die regardless of what kind of stuff from agriculture 
is brought in or any of that kind of stuff. It's going to die 
over time. I mean I thought that part of the environmental 
movement of today, you know, because this thing is called an 
environmental restoration, but it's part of environmentalism 
today about going along with what is natural?
    Mr. Hunter. Well let me give my answer, and then I know 
George has got an answer on this thing, too. That Sea serves, 
regardless of how it was made, and let's say it was a man-made 
lake, it serves 6 percent, or is within driving distance of 6 
percent of the entire population of this nation, and a lot of 
folks who can't afford to book a trip to go fly fishing in New 
Zealand on the weekend can get in their camper and they can get 
away from the boss and they can drive down to Bombay Beach or 
one of those other places where Sonny Bono used to go and enjoy 
the sea, and in the old days they could ski, and they had the 
best fishing literally. It was the best fishing per angler day 
in the entire United States.
    I don't think anybody here is saying that we want to return 
this desert to pristine days. I think what we say is we want to 
have multiple use of a great natural resource, and that 
includes our farming community that the Sea serves, the 
agriculture basin of about a million and a half acres in Mexico 
and in the United States. So we want our agriculture users and 
the great production that comes from that is a beneficiary of 
the Sea. And regardless of what has happened here and how it 
started, a great many fresh water birds, hundreds of thousands 
of them use the Sea. It's a great resource for average people. 
Middle-class Americans can go down and get in a duck blind at 
one of the refuges along the Sea and can have a nice morning 
watching the sun come up. So it's a great resource for us.
    And, incidentally, I want to tell you, you have some folks 
that come over from Arizona also. There are not many that come 
down from Las Vegas to the Sea, but quite a few from Arizona.
    George has an answer.
    Mr. Ensign. Let me just point out a couple of other things 
about the bill that concern us in Nevada.
    One is that you've tried to put in the bill, efforts to not 
change the Law of the River. One of the problems that we have 
in Nevada is we're working on a deal with Arizona right now 
about banking Arizona excess water, underground in Arizona. It 
will help future growth in Southern Nevada. Under your bill 
currently you're talking about surpluses and excesses and 
possibly being able to use that. California right now only has 
allocated to them 4.4 million acre feet, and they are currently 
using about 5.3 million acre feet of the Colorado River. I 
guess the fundamental question here is that we would have no 
problem supporting the bill if California was willing to only 
use its 4.4 million acre feet.
    Mr. Hunter. Well here was the way I envisioned it, John. My 
district goes all the way to Winterhaven. It goes to Arizona 
and includes that part of the river. We have years when our 
farmland along the river is washed away by floods and we have 
to get disaster relief. That water flows down and flows into 
the ocean. So it's not used by Arizona, it's not used by 
California and it's not used by anybody. It just flows into the 
ocean. So I think that you're eminently reasonable and, 
incidentally, our options may not even involve using excess 
storm water or years when you have excess rain water. I think 
it's reasonable that you don't want to have any infringement on 
water that you folks would use in Arizona or in Nevada, but I 
think it's unreasonable if we have a decision that we are going 
to let water flow into the Pacific Ocean rather than use it to 
restore this great resource.
    Mr. Ensign. Just two quick points if I may make about this. 
First of all, Nevada right now is building a new pipeline from 
Lake Mead coming into Las Vegas. It's a $1.7 billion project 
and we're funding it all ourselves. In other words, we didn't 
come to the Federal trough to feed from the Federal trough. 
We're doing it all ourselves.
    The second point is that the surplus in the Colorado River 
when you have surplus years, is allocated and is not your 
excess, but it's the surplus above what normally flows down 
from the river. When a surplus occurs everybody along the 
Colorado River has their allocation increased, and that would 
be one of the things that we would want to definitely have 
protected within this legislation.
    Mr. Hunter. Well I would say this. I think we can all work 
together and make this thing work and come to a solution, and I 
understand the nervousness. If you mention the word Colorado 
River, I was told if the word Colorado River was used all of 
Arizona's and Nevada's ears went up. I think we can do this 
thing without infringing on any of the water that you folks 
need.
    Incidentally, it was good to see you at that meeting that 
we had on the Nevada testing site where your folks there from 
your district were concerned about getting some of that money 
from the Federal trough and we're going to work with them on 
that project, and you made a great speech. But seriously, I'm 
being facetious, I think we can work as partners on this, John.
    You know, water has been historically, it has been the 
issue over which Westerners like us have big fights, but we 
also ultimately come to some pretty darn good agreements to 
serve our people well, and you and Mr. Shadegg are the best 
advocates for your folks, and we appreciate that. But I think 
we'll be able to work this thing out, and I want to work with 
you.
    Mr. Ensign. OK.
    Thank you, Mr. Chairman.
    Mr. Brown. Mr. Chairman, would you be kind enough to allow 
me to respond briefly to the gentleman's question?
    Mr. Doolittle. Sure. Go ahead. We'll use the balance of Mr. 
Calvert's and my time.
    Mr. Brown. There are two points you made and I would like 
to respond to each.
    First, Salton Sea is a natural lake, and at periodic 
intervals it has been both a fresh water lake and a salt water 
lake. If you travel down there you will see the line 
established by the old lake level along the mountains there. 
Sometimes it's several hundred years between inundations, but 
it's formed naturally by the flow of the Colorado River across 
its delta, and on occasion it breaks out of the delta channel 
and the whole thing flows into the Salton Sea and creates a 
fresh water lake.
    Mr. Ensign. So it's sort of an evaporation pond.
    Mr. Brown. Right. It has always been an evaporation pond, 
and there has been a hugh Indian culture around that lake 
during those times when it had water in it.
    Mr. Ensign. Actually the whole State of Nevada used to be 
under water as a lake.
    Mr. Brown. Right, and parts of California, including Death 
Valley. So I'm not urging that we necessarily think in geologic 
terms. The last inundation of that lake was only 400 years ago. 
At the time that Columbus came that was the largest fresh water 
lake in the West.
    Now the other point you made had to do with the utilization 
of surplus flows. California expects to live by its allocation. 
It is working diligently to live by its allocation. It's 
seeking to create new water through conservation and recycling. 
You have every right to insist that we continue, the Secretary 
is insisting that we continue, and we will continue.
    You need to do one other thing. You need to establish 
clearly in either this legislation or other legislation your 
right, all of the Basin States, to bank water and to sell it 
either intrastate or interstate and get the benefits from the 
sale of that water that you're entitled to. At the present time 
if you neither bank it or sell it it either flows to the ocean, 
as Duncan mentioned, or we snap it up in California as surplus 
water, and that cannot continue. You deserve to get the same 
benefit from surplus water as California does.
    Mr. Ensign. Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you.
    Is there any objection to the gentleman, Mr. Pallone, 
sitting with the Subcommittee? Mr. Pallone is a Member of the 
Full Resources Committee.
    [No objections.]
    All right. Seeing no objection, Mr. Pallone will be invited 
to join us up here.
    Mr. Doolittle. The Chair recognizes Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    I just want to followup on some points that have already 
been raised and discussed to some degree.
    First of all, I'm not sure, Mr. Brown, that I don't 
disagree with at least one point you just made. I believe that 
the Law of the River already clearly allocates a hundred 
percent of the water, and that at least in Arizona as a result 
of a combination of the Law of the River and of some very 
forward-thinking laws we have enacted as a State that we have 
the absolute right now to bank water, and we are in fact 
banking water. We are banking water underground and there is 
the issue of whether or not that water may some day be sold 
outside of Arizona. That may be a legal question, but beyond 
that we have the right to take all of our current water and we 
have the right to bank it, and Arizona is already aggressively 
banking water. So I don't think we need to address that in this 
legislation at all.
    Second, I think I have the understanding of everyone that 
is involved in the sponsorship of this bill and the indication 
from the Chairman that he is amenable to the same point, that 
language can be added to the bill which says directly and 
clearly that the bill doesn't change the current allocation and 
doesn't alter the Law of the River in any way. Are we in 
agreement on that?
    Mr. Hunter. Absolutely, we agree with that.
    Mr. Shadegg. Beyond that then California, as I think we are 
also in agreement, has the right to use either some portion of 
its basic allocation or in those years where if in fact it 
turns out there is a surplus, and as a result of El Nino there 
will be this year, because the current Law of the River clearly 
allocates a portion of the excess or surplus flow to 
California, and indeed allocates the largest portion of the 
surplus or excess to California, and California is free to use 
that water as well and to deliver it through the existing canal 
system. We're agreed on that.
    Mr. Brown. May I comment on that?
    Mr. Shadegg. Sure.
    Mr. Brown. The problem with the surplus water of the 
Colorado River, and as you indicate it is fully appropriated at 
the present time based on average flow, and probably overly 
appropriated, but the trouble is that the Colorado flows 
anywhere from one half its average flow to twice its average 
flow. When you have half the average flow there is a shortage 
all over the basin, and when you have twice there is an 
inability to handle that. In Southern California of course 
we're building more surface reservoirs as well as probably some 
underground reservoirs to help capture some of that water, 
shall we say, and to normalize the flow of the river by storing 
it in reservoirs.
    The proper way to do this is of course to utilize very 
possible technique and technology to maximize the usable water 
in the river, and we fully support doing that both through 
storage and through the right to transfer the water by any 
entitlement holder to a willing buyer who is willing to pay for 
it, and that may need some clarification, or any other similar 
device, and we would like to work with you in establishing that 
very clearly.
    Mr. Shadegg. I think we are in agreement with the exception 
that I believe in your remarks you create the implication that 
when the river is at its highest possible flow that water is 
not already allocated, and in point of fact it is already, 
every drop is already allocated. There is some question about 
whether it can be used, but the Law of the River allocates 
every single drop even in those highest flow years because the 
Secretary of Interior has the legal ability in high-flow years, 
and by the way he can also in low-flow years do the opposite, 
but in high-flow years he can declare that there is an excess 
and the law then allocates that excess amongst the Colorado 
River Basin States. So my only point is that since the law 
currently allocates the entire flow of the river in its highest 
conceivable flow we do not need to change that in this 
legislation.
    Mr. Hunter. I would hope, John, that you and John Ensign 
wouldn't argue, you know, understanding the fact that you have 
the allocation on paper under the Law of the River, but we 
still have surge times and flood times when you have a lot of 
water going into the ocean and that you wouldn't insist on 
water that is going into the ocean in practical fact not being 
used, if it could be used, to reduce the level of salinity in 
the Sea to use that.
    Mr. Shadegg. Absolutely not.
    Mr. Hunter. That's what we're talking about.
    Mr. Shadegg. What I would object to would be a change in 
the law which would supposedly deal with that water which is 
now as a practical matter in fact flowing into the ocean in a 
different way that than the law currently deals with it. The 
law gives you, California, the right to take the vast majority 
of that water, and quite frankly right now you can't, we can't 
and nobody can. By the way, Mexico has a legal right as well to 
a portion of that water.
    Mr. Chairman, with your indulgence I would like to ask one 
more question.
    Mr. Doolittle. Without objection.
    [No objection.]
    Mr. Shadegg. Just to clarify one separate point from that 
issue having to do with the Colorado River and the flow of the 
river, two things are my understanding. No. 1, it is my 
understanding that the Imperial Valley Irrigation District, IIP 
or whatever it is, already was planning to spend, and the 
number I heard was something in the neighborhood of $60 million 
to clean up the Salton Sea itself, and I would hope that 
whatever the Congress does does not displace any existing 
commitments for funding toward this task, and I would be 
interested in your assurance on that point because beyond my 
concerns about the Colorado River I have fiscal concerns.
    The second point, and let me just wrap them into one 
question and then you can talk and they won't cut you off, 
whereas they might cut me off. The second point is it is also 
my understanding that the most advanced best management 
practices, particularly ditch lining and laser leveling of crop 
fields, are not fully being utilized in the Imperial Valley at 
this time and that there is currently under consideration the 
fact that they are going to begin to do that and that there 
then will be water savings, and it is my understanding that if 
those water savings occur there were plans in the works to take 
the saved water and actually by pulling it out of the further 
north canal deliver it to San Diego which is in a water 
shortage itself, and I would be interested in your comments on 
that point in terms of the long-term implications for the 
Salton Sea.
    Mr. Hunter. Sure. First, I think you've hit, John, on the 
overall problem with the conservation of water in general in 
the Southwest and the work or the cooperation between rural 
areas and the urban areas. If you're a farmer who is getting 
water for $15 or $20 an acre foot it's not in your economic 
interest nor can you afford, for example, to do tail water 
recycling, lining of all the ditches and other things, although 
we've done a lot of that in the Imperial Valley over the years, 
but it's very difficult when you're buying the water at that 
price. To the urban user, whether you're in Arizona or 
California, if you're paying $500-plus per acre foot at the 
margin it's in your interest to do things that will free up 
that water.
    So working together, the Imperial Irrigation District and 
the people of Imperial Valley who democratically elect that 
institution and the city of San Diego, which is at the tail end 
of the metropolitan water aqueduct, are coming to an 
understanding in which basically folks that live in the city 
are going to pay for water which otherwise would flow off of 
fields that could be reused, the tail water pump back systems, 
and likewise are paying to line canals and do other things that 
otherwise would allow the water to seep into the desert sand. 
So it's really a pretty good working partnership.
    Now the effect on the Sea, and I think this is one reason 
why George has brought out very properly the emergency 
situation that we have, the Sea hasn't died in recent years as 
was predicted because we have more water in the Sea. We've had 
lots of farming operations there and lots of water delivered to 
the Sea and it's higher than it was predicted to have been.
    When we pull down the amount of water that is going to the 
Sea through New River and Alamo River, which is largely the 
result of farming operations because of the new conservation 
practices, you're going to have a lower shoreline there. That 
means you're going to have a concentration of salt, and that 
means that the increased salinity could reach a crisis stage 
earlier than we think. So that's another one of the dynamics. 
So what we have here is we have all the partners on the river 
as one element and we have Mexico as a party which in several 
of options has to cooperate. We need their cooperation or we 
can't exercise those options. You have the complication of the 
Mexicali pollution, the New River pollution, and then the fact 
that your Sea is shrinking in size.
    Now with all those problems, as Sonny Bono said, why can't 
we just do it. I think we can put our heads together and come 
up with a practical solution that is not going to use up all 
the money in the treasury and that is going to maintain this 
enormously important resource and leave our Arizona and Nevada 
friends well satisfied. I think we can do it.
    Mr. Shadegg. The commitment of the Imperial Irrigation 
District that was existing to do cleanup work, are you aware of 
that?
    Mr. Hunter. Well here is what we have in the bill. I mean 
this is a 1974 proposal that showed what we could do, and there 
were several Congressmen over the years who were interested in 
trying to get something going, but obviously you're talking of 
something in terms of the funding sales, and this has to be 
Federal, State and local. What we have is a requirement in the 
legislation that the Secretary enter into a memorandum of 
understanding with the Governor and with the Salton Sea 
Authority that basically divides the cost, and there is going 
to be cost sharing. Obviously the local agriculture area or the 
area that is associated with the sporting uses of the resource 
can't support a project of this magnitude, but we have in place 
a mechanism for cost sharing that will be arrived at with the 
Secretary and with the Governor of California and with the 
Authority.
    And, incidentally, the Torres Martinez Tribe is very much a 
part of this. Art Lopez is here with them and he is going to 
testify today. They're another important player. They have some 
of their lands submerged in the Sea, and Sonny was very, very 
concerned that they be treated equitably in this project.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you.
    Mrs. Chenoweth is recognized.
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    Mr. Hunter and Mr. Brown, I do want to go on record as 
saying that I enthusiastically endorse the concept of this 
project. I very much endorse it. It may sound strange to some 
of my conservative friends, but I believe the Federal 
Government has an obligation to repair the damage that they did 
in 1905 when they destroyed the dike upon the construction of 
the American Canal. That is what caused the formation of the 
Salton Sea and the Federal Government has turned a blind eye to 
their responsibility there.
    But I have some technical questions that I would like for 
you to think about. Even though the Sea was accidentally formed 
it is surface water and therefore it does belong to the State 
of California. So the way the bill is constructed I worry about 
the authority that we're giving to the Federal Government.
    Now I believe that we the Congress should fund the project. 
We should repair the damage. But what we're doing in this bill, 
on page 7 with regards to relationship to other laws, we are 
allowing the Department of Interior to get out from under their 
obligations under the reclamation laws, and it was under the 
reclamation laws that the problem was formed in the first 
place.
    Now what are we creating here? It appears that we're giving 
over the Salton Sea and the operation of the Salton Sea, taking 
that property that belongs to California and giving it to the 
Federal Government. The Federal Government never does as good a 
job as the State does. I would much rather see us just block 
grant to California the money that we owe them and they could 
get this thing done far quicker than the Federal Government 
could.
    Another concern that I have is that there is a training 
range down there, and once that property belongs to the Federal 
Government, and under what authority I don't know. It's not 
under reclamation. I mean this bill takes them out from under 
reclamation. So how are they going to manage water when it's 
outside of reclamation and we haven't identified what it is.
    The second problem is, and Mr. Hunter you have worked with 
me on the training range in Idaho, and I think that I mentioned 
to you that one of the problems, big problems that we've had in 
Idaho is that the Department of Interior wants to control air 
traffic above their properties, and I worry about that here, 
and I worry about the future of the training range.
    I think that if the Congress bellied up to the bar and did 
what they were supposed to do in terms of funding the project, 
and I think that we would like to be able to name it, but I 
think it should be placed in the hands of the State, and I 
think that is consistent with State water law and the Law of 
the River and the California Compact.
    And, furthermore, in the proposed bill we also have the 
Congress stating that the Secretary shall employ agencies of 
the State government. It doesn't state that the Secretary can 
help coordinate studies and so forth. It states here that the 
Secretary shall require certain agencies of the State 
government to do certain things, and it doesn't say the 
Secretary shall provide them with money.
    So I think we're handing something over to the Federal 
Government that may get us in deeper soup than if we just lived 
up to our obligations and funded the project and let the State 
take care of their resources that we damaged.
    Mr. Hunter. Excellent questions, Helen. Let me tell you why 
I think the Federal Government is uniquely the lead player in 
this project. Because of some elements that you don't generally 
have in a project like this, no matter which option we take 
with respect to the salinity problem, Mexico is a key player, 
and one reason is the New River that flows north through 
Mexicali and into the United States, when it enters the United 
States is the most polluted river in North America. We right 
now have this project with Mexico in Mexicali trying to wean 
Mexicali from the New River and stop that sewage and those raw 
pollutants from going in there.
    Also we have in these options that are potential options 
here, and we've addressed the Colorado River a lot, but really 
another source of excess water is Laguna Salada, which is kind 
of a back water of the tributaries of the Sea of Cortez. It 
backs right up to the border, and if you look at our map there 
it's about 40 miles south of the south end of the Sea, and it 
comes almost up to the Mexican border.
    So we're going to have to work with Mexico to make this 
thing work in any event, and if we use one of the options that 
involves expulsion of the salt water into Mexico, or it was 
even suggested at one time you have a line pump in and pump out 
through the Sea of Cortez. We need their cooperation.
    You also potentially have the desalinization plant and the 
canal that serves that plant at Yuma. This is an international 
project, and when you have an international project we have a 
system that is set up that works pretty well, the International 
Boundary and Water Commission, but also the Federal Government 
has with respect to these water projects along the border, has 
a pretty good rapport and a pretty good working relationship 
with Mexico. It's a lot easier for them to handle the ball 
there than it is for the States. So we do have a requirement 
that they enter into an agreement with the State. I mean the 
Governor of the State of California has a lot to say about this 
program, and that's necessarily so, and also the Governor of 
the State and the State of California and the Salton Sea 
Authority are obviously partners in the cost sharing aspect of 
this also. Because it sits rights on the border and we involve 
Mexico I think this is one of those cases.
    Now with respect to the bombing range and whether or not 
the bombing range is going to be infringed on, let me just say 
as a guy who represents that area that that is an enormous 
resource just like your training range is in Idaho. My 
contemplation here is that if we use part of the bombing range 
as a deposit for a salt evaporation area that that will be done 
with an understanding that it is simply an easement into the 
range and that there is absolutely no inhibition of the 
practices of training or fighting of both our Navy aviators and 
our Air Force aviators at that range.
    We have people from all over the country, units now that 
rotate into that range and use it. It's very valuable and you 
can fly 365 days a year there, and we will not inhibit that use 
at all. I mean that would be a very important thing I think to 
all of us and to the National Security Committee. So if we used 
it, as long as we're bombing it we're using it as a bombing 
range. It seems like that would be compatible to have a salt 
evaporation place there, but I know Ken Calvert has strong 
feelings on that, too, and he would join with me in seeing to 
it that we would not inhibit that national security 
utilization.
    Mrs. Chenoweth. Thank you, Mr. Hunter, and I just want to 
let you know that those of you in California have given a lot 
of thought to this project. The precedent that this may set of 
course is of concern to all of us in the West who deal with the 
western water law and the national security issues and the 
international treaty issues that you will have to deal with are 
of concern. I just hope that we're dealing with the right 
agency. Other than that so long as the State's sovereign rights 
to control and govern their surface water remains intact, then 
I'll be very sanguine and supportive of it.
    Mr. Hunter. Thank you, and thank you for your work as a 
real champion for States' rights and for private property 
rights.
    Mr. Doolittle. Mr. Pallone, you are recognized for any 
questions you may address.
    Mr. Pallone. Thank you, Mr. Chairman.
    I as an outsider who just went to look at the Salton Sea 
for the first time this past weekend, I just wanted to ask sort 
of a general question of my two colleagues.
    When I was there, it was somewhat surprising to me to see 
this large body of water surrounded by major recreational 
activities, for example, in Palm Springs, which isn't very far. 
Then when I took the helicopter tour I noticed that I guess 
historically there had been homes built for recreational use. 
In other words, people that built homes around the Sea who were 
obviously, you know, using it as a marina for recreational 
purposes, but that that had seriously declined from what I 
could see because of the pollution problems. There were homes 
that were actually under water and there were many that seemed 
to be abandoned. Of course I was told that the agricultural 
interests essentially use the Salton Sea as a place where the 
runoff, I guess from their agricultural pursuits and the water 
that they use to irrigate the area, it's sort of the basin for 
that.
    What I guess I wanted to ask you just very generally is--
isn't there a real possibility because of the proximity to L.A. 
and because of the fact that you have Palm Springs nearby, 
isn't there a real possibility for this area to develop as a 
major recreational site, I mean to bring new homes in and 
people who would use the area for fishing, sports activities 
and whatever? And is it necessarily so that by doing that that 
you impinge on the agricultural interests? I mean it seems to 
me that you could still have, you know, major agriculture going 
on, but still have this area develop as even more of a 
recreational site. I guess I'm kind of getting the impression, 
or I got the impression from some, that maybe the agricultural 
interests would just as soon have it used as a basin for their 
waste water, but to me it seemed that in the long run that the 
recreational activity was extremely valuable and could co-exist 
with agricultural interests.
    Mr. Hunter. Let me give just a real short answer, but I 
want George Brown to comment on this because he was born in my 
district, and I was born in his district, and we've been real 
partners on this thing as Sonny has.
    First, agricultural interests have saved the Sea because 
the New River basically consists of agricultural runoff. As 
George so eloquently stated, the death of the Sea was projected 
to be in the mid-1980's when we would reach 60,000 parts per 
million and we would totally lose the fishing resource and the 
wildlife that attends that. It didn't happen because of the 
agriculture water that flows into the Sea. If you cutoff New 
River and Alamo River, which is the runoff not only from 
American farming but also farming in Mexico, the Sea would be 
dead now.
    And, second, the folks that I know, and I've spent a lot of 
time there, I mean you could find me out there on, you know, a 
dike on the Salton Sea at 5:30 in the morning with Leon Lesika 
crawling through the mud hunting, and if we get this thing 
cleaned up we're going to be out there catching some of those 
corbina which still exist in the Sea. We have a bird festival 
there that the Valley and the farmers really love that attracts 
thousands of people each year. So I think the community, the 
agriculture community and the Sea really appreciates it, and 
they're common sense guys and ladies and certainly we can co-
exist.
    With respect to development of the Sea, and the Chairman of 
Torres Martinez is going to testify, he is right here with us 
today, but of course that is in the cards and could be done. 
Sonny Bono had great dreams for this. I mean he would summon us 
to his office and he had drawings and plans and lots of things 
that could be done, particularly in conjunction with the Torres 
Martinez Tribe which has thousands of acres submerged under the 
Sea. So I think all those things can be accomplished in a 
multiple use.
    George.
    Mr. Brown. It was Sonny Bono's genius that he perceived the 
value of the kind of recreational, commercial and other 
developments that you've talked about. Much of what already 
existed of this sort has been inundated as the Sea rose. The 
Irrigation District has had to pay out close to $50 million, 
and I will submit the detailed figures on that, to compensate 
for the inundation of the areas surrounding the Salton Sea, and 
they are as much interested in stabilizing the level as anybody 
else because only then can you get the full commercial, 
recreational and other development potential that exists there.
    Mr. Pallone. Thank you.
    Mr. Doolittle. The Subcommittee is going to recess until 
approximately 1 o'clock. In the event there is a vote in 
progress at that time it will reconvene following that vote.
    [The Subcommittee recessed for lunch at 12:10 p.m.]
    [The Subcommittee reconvened at 1:28 p.m, the Hon. John T. 
Doolittle, Chairman of the Subcommittee, presiding.]
    Mr. Doolittle. We will reconvene the Subcommittee and begin 
with Panel 2.
    Let me ask the panelists if they will please stand and 
raise their right hands.
    [Whereupon, David Hayes, Douglas Wheeler, Tellis Codekas 
and Richard Bunker stood, raised their right hands and were 
duly sworn by the Chairman as follows:]
    Do you solemnly swear or affirm under penalty of perjury 
that the responses given and statements made will be the whole 
truth and nothing but the truth.
    Mr. Hayes. I do.
    Mr. Wheeler. I do.
    Mr. Codekas. I do.
    Mr. Bunker. I do.
    Mr. Doolittle. Let the record reflect that each answered in 
the affirmative.
    Gentlemen, we appreciate your being here and indulging the 
Committee in the votes and so forth. We will try and move as 
expeditiously as possible.
    We have as our first witness on this panel Mr. David Hayes 
who is Counselor to the Secretary of the Interior.
    Mr. Hayes, you are recognized for your testimony.
    Let me just jump in and say that the lights are a guide. 
When the red light goes on the 5 minutes is up. That doesn't 
mean you have to cutoff in mid-sentence, but we do have a lot 
of witnesses this afternoon. So we ought to try and be as 
expeditious as possible. And with that please begin.

     STATEMENT OF DAVID HAYES, COUNSELOR TO THE SECRETARY, 
 DEPARTMENT OF INTERIOR, ACCOMPANIED BY ROBERT JOHNSON, LOWER 
  COLORADO REGIONAL DIRECTOR, BOR, AND MICHAEL SPEAR, PACIFIC 
                    REGIONAL DIRECTOR, F&WS

    Mr. Hayes. Thank you, Mr. Chairman.
    As you mentioned, I am David Hayes, Counselor to Secretary 
Babbitt. I appreciate the chance to appear here today on behalf 
of the Administration on this important piece of legislation.
    I am accompanied today by Bob Johnson, Regional Director of 
the Lower Colorado Region of the Bureau of Reclamation, who is 
behind me, and also Mike Spear, who is the Regional Director 
for the Pacific Region of the Fish and Wildlife Service, and 
they're available for questions if you so desire.
    I'm going to be brief this afternoon, Mr. Chairman, and I 
ask that my written statement be submitted for the record.
    As you know, Secretary Babbitt visited the Salton Sea last 
December for technical briefings and for consultations with 
governmental officials. In connection with that visit and those 
discussions, the Secretary publicly announced his concern for 
the environmental condition of the Salton Sea and his interest 
in moving forward with a plan to address the problems facing 
the Sea.
    The Secretary also acknowledged the need to pull together 
the many local, State and Federal players so that their efforts 
could be coordinated to move out on this issue quickly and in 
lock step and in a goal oriented fashion. Based on these 
principles, the Secretary announced two key initiatives.
    First, he suggested that the United States and the Salton 
Sea Authority, in close cooperation with the State of 
California and the Torres Martinez Tribe, initiate a NEPA/CEQA 
review of the Salton Sea in order to evaluate the potential 
alternatives for addressing the Sea and doing so in a 
disciplined timely manner in accordance with the standards set 
forth under the National Environmental Policy Act. The 
Secretary's goal then, as he stated then and has repeated, is 
to take full advantage of the work that already has been done 
in connection with a study of the Sea, but to do it right with 
a thorough NEPA analysis on a fast track.
    Secondly, the Secretary, because he recognized the need for 
more coordination in terms of the research and science 
activities going on at the Sea, suggested that the four key 
governmental authorities involved in the Sea, the Federal 
Government, the State of California, the local Salton Sea 
Authority and the Torres Martinez Tribe, form a Research 
Management Committee to obtain input from scientists and to 
coordinate policy choices on implementing needed research on a 
real-time basis and folding that science into the NEPA/CEQA 
process that needs to get underway in full flower over the 
short term. It is his idea that the science should be front 
loaded so that it will be of utmost utilization in the NEPA/
CEQA process.
    These initiatives are moving forward. The NEPA process has 
begun. Meetings with cooperating agencies have been held, 
arrangements with consultants have been made, a work plan is 
underway, the Bureau of Reclamation is hiring a new manager for 
the project, and there is a close working relationship that has 
been continued between the Bureau of Reclamation and the Salton 
Sea Authority and particularly on this subject with outreach to 
the State of California and others. Also, the Research 
Management Committee has been formed. The Committee has 
appointed a Chair of the Science Subcommittee, Dr. Milt Friend, 
and the Science Subcommittee is beginning its work.
    It is within this framework that the Secretary and the 
Administration considers H.R. 3267. Much of this legislation 
and its goals match the goals that the Secretary and the 
Administration have laid out for the Sea, but it does depart in 
certain important respects that I would like to highlight here 
briefly, more in terms of highlighting issues that we need to 
work together on than to suggest that there are impediments to 
coming together on a bill that can have bipartisan support.
    First with regard to the environmental analysis of remedial 
actions at the Sea. As mentioned in my written testimony, the 
Administration feels strongly that we need to be open minded 
about the potential alternatives and the appropriate 
alternatives for remediating the Sea. We should not be at this 
point limiting ourselves to two or three potential types of 
solutions. We need to get more input on a short-term basis to 
make sure that what we analyze are the potentially available 
options and we do it in a disciplined way.
    We are concerned about the timeframe that is in this bill. 
We do not think that it's practically feasible within a 12-
month timeframe to do a NEPA evaluation on as large and complex 
a project as this, plus do the environmental permitting that is 
contemplated within that 12-month period, and plus do the 
construction specification work that the bill anticipates all 
to be done within 12 months. The Secretary is committed to 
working this EIS on a very fast track basis, but this kind of 
timeframe in our judgment is not feasible.
    On the science side we think that it's important that the 
science effort be funded fully and appreciate the interest of 
the Congress in increasing funding. We think it's important 
that the charge of the Science Committee not be too narrow, and 
we think that it's important that the actual priority 
decisionmaking on the science side be done by governmental 
officials who are accountable for their actions, although we 
encourage the support of the University Committee and their 
availability in actually implementing much of the science work 
that is going to need to be done once those decisions are made.
    Two quick final points. I see the red light is on. As 
mentioned in my----
    Mr. Doolittle. Let's hear your points.
    Mr. Hayes. Thank you, Mr. Chairman. As mentioned in my 
statement, the Emergency Action Title, Title II, is of great 
concern to us. We think that moving forward with beginning to 
pump out saline water before the end of the year without 
knowing the end location for the water and without knowing the 
availability of water coming in and replacing it presents some 
serious practical problems as well as serious potential 
environmental problems, and we would want to do a full review 
before taking any kind of action like that.
    In terms of funding, a couple of points. The Secretary has 
indicated an interest in and a willingness to accelerate the 
level of attention that the Department will give to this 
matter. More money certainly would be helpful in that regard. 
We do not have the kind of money in our current budget or our 
fiscal year 1999 budget request to undertake the type of effort 
that seems to be contemplated here. So we assume that 
supplemental funding authority would be needed in order to 
effectuate this.
    And, finally, as mentioned in my written testimony, we are 
concerned about the potential preauthorization of $300 million 
for the potential project that would spin out of the 
environmental analysis. We think it would be more prudent to 
identify the project and to seek authorization and 
appropriation for whatever amount is appropriate to the 
selected project.
    That concludes my statement, Mr. Chairman. Thank you for 
the opportunity to be before you today.
    Mr. Doolittle. Thank you very much.
    [The prepared statement of David Hayes may be found at end 
of hearing.]
    Mr. Doolittle. Our next witness is the Honorable Douglas P. 
Wheeler, Secretary for Resources with the State of California.
    Secretary Wheeler.

STATEMENT OF HON. DOUGLAS P. WHEELER, SECRETARY FOR RESOURCES, 
                      STATE OF CALIFORNIA

    Mr. Wheeler. Good afternoon, Mr. Chairman. My name is Doug 
Wheeler and I am the California Resources Secretary, and am 
pleased to represent Governor Wilson and the State of 
California in commenting on this bill. I will ask that my full 
written testimony be submitted for the record, and I will 
attempt very briefly to summarize that testimony in the 
interest of time.
    Let me say, first of all, that Governor Wilson thanks you, 
Mr. Chairman, and the Subcommittee for this hearing and for the 
expeditious consideration that you are giving to H.R. 3267. The 
State of California supports strongly the objectives of this 
legislation and believes that the Salton Sea resource is one of 
national and State significance quite obviously whose issues 
and problems have been long standing and which deserve our very 
close and immediate attention.
    There is a history, as you've already said, of efforts to 
deal with these questions. The State has been involved in 
virtually all of those up to and including the effort that Mr. 
Hayes has just described which was initiated by Secretary 
Babbitt last fall in consultation with the State. We were in 
part responsible for the establishment of the Salton Sea 
Authority in the belief that the Authority ought to provide and 
can provide local leadership in addressing the issues of the 
Authority, and you will hear from its very capable President in 
a moment. At least four of our State agencies have continuing 
roles to play, including our Department of Water Resources, our 
Department of Fish and Game, our State Water Resources Control 
Board and our Department of Parks and Recreation.
    Despite these early efforts, and there have been studies, 
as you know, by the Bureau of Reclamation in cooperation with 
the State, and there has been a Congressional Task Force even 
prior to the untimely death of Congressman Bono, there are 
still more questions than answers about what needs to be done 
first to restore the Sea and then to protect it on a 
sustainable basis over time.
    You've heard described the many issues which need to be 
addressed using sound science as the basis for a recovery 
strategy. Those include the problems of evaporation and the 
resulting salinity, they include the water quality impacts of 
urban and agricultural runoff, and those include fluctuations 
in sea level which threaten the economic viability of adjoining 
properties.
    So I think it's fair to say and to summarize the State's 
position as urging that we move expeditiously now to capitalize 
on the momentum which seems to exist in a bipartisan spirit, 
but that we do it methodically making use of the science and 
making use of the processes which are already in place. We have 
some studies, as I've said, that recommended a number of 
options. Those were to have been the focus of the process which 
Secretary Babbitt announced last fall. Similarly we have a 
Research Management Committee which is underway, as you have 
already heard. It, too, has the capability of reaching out to 
those who can provide it and obtaining from them science that 
will inform an appropriate solution.
    I want to underscore something that was said this morning. 
It is our belief that if we pursue here a flawed procedure 
either because we avoid judicial review or the possibility of 
judicial review or environmental review or the possibility of 
environmental review we run the risk of contaminating the 
entire result, which is something that none of us would want to 
have. It is important I think to have both an effective and 
expeditious procedure as we also have a perfect, not an 
imperfect solution.
    In conclusion let me just say that I echo the sentiments of 
millions of Californians, and particularly those who live in 
the Basin of the Salton Sea, that it is a tarnished treasure. 
We believe its luster can and should be restored, and working 
together we believe that this legislation will make that 
possible.
    Mr. Calvert. [presiding.] Thank you for your testimony.
    [The prepared statement of Secretary Wheeler may be found 
at end of hearing.]
    Mr. Calvert. Next is Tellis Codekas.

 STATEMENT OF TELLIS CODEKAS, PRESIDENT, SALTON SEA AUTHORITY, 
    ACCOMPANIED BY TOM KIRK, EXECUTIVE DIRECTOR, SALTON SEA 
 AUTHORITY AND PAUL CUNNINGHAM, DIRECTOR OF EXTERNAL AFFAIRS, 
                              IID

    Mr. Codekas. Thank you, Mr. Chairman.
    On behalf of the Salton Sea Authority, thank you for the 
opportunity to address the Subcommittee and to comment on the 
Sonny Bono Memorial Salton Sea Reclamation Act, H.R. 3267. I am 
Tellis Codekas, President of the Salton Sea Authority.
    The Salton Sea Authority is comprised of the Counties of 
Riverside and Imperial, and the Imperial Irrigation and the 
Coachella Valley Water Districts. The Torres Martinez Desert 
Cahuilla Indians and a host of Federal and State agencies are 
ex-officio members of the Authority. The Authority is at the 
hub of a wheel which includes dozens of national, state, 
regional, tribal and local stakeholders. The Authority 
recognizes the vital importance of the Sea as an agricultural 
drain, an environmental resource, a recreational destination, 
and an economic development engine.
    Introduction of this legislation and the companion 
legislation in the Senate represent important steps forward in 
reclaiming and restoring the Salton Sea. Enacting legislation 
to save the Sea is a fitting tribute to the man who was very 
much responsible for the current drive to save and restore the 
Sea. The Salton Sea Authority and its member agencies strongly 
support the central elements of H.R. 3267 and look forward to 
working with the Committee and the Congressional Salton Sea 
Task Force on this proposed legislation.
    The Authority was established in 1993 and has been working 
closely with Federal partners, particularly the Bureau of 
Reclamation and our State partners, particularly the Resources 
Agency and Cal-EPA on developing a consensus to restore this 
important resource. Until a year or so ago much of our effort 
went unnoticed. The Sea was not viewed as a high national 
priority, but times have changed and we are thankful for the 
change in relation to the Sea. We need the help of our Federal 
Government.
    The Secretary of Interior became personally involved in our 
efforts in December. The Secretary acknowledged the interagency 
and multi-interest effort that we had already developed. He 
confirmed the Department's commitment to this effort and 
established a structure to address biological and other 
studies.
    We are committed to the process that the Secretary and the 
Authority agreed upon. The proposed legislation largely builds 
on the existing process and we support the areas where it does 
so specifically, particularly findings acknowledging the 
Federal interest, project requirements consistent with those 
developed by the Authority, commitment to exploring multiple 
options in the feasibility study, and authorization of 
appropriations which will allow completion of the feasibility, 
environmental analysis and permitting work.
    Unfortunately, there are also provisions in the bill which 
do not reflect our process or local needs.
    First of all, the memorandum of understanding referred to 
on page 6 seems to suggest a new process and a new feasibility 
study. We think it ought to confirm the roles of the Federal 
lead agency, the Department of Interior through the Bureau of 
Reclamation, and the local lead agency, the Salton Sea 
Authority, in completing our current work program.
    Secondly, limitations of administrative and judicial review 
under the National Environmental Policy Act may be 
counterproductive. As the co-lead agency we still must meet the 
requirements of the California Environmental Quality Act. 
Waiving NEPA provisions sends up a red flag to the very 
interest groups that we are working very hard to include in our 
restoration efforts, such as the Audubon Society.
    Thirdly, the Secretary of Interior, the Authority, the 
Torres Martinez and the State currently sit on a Research 
Management Committee. The Committee was so composed to ensure 
limited conflict of interest, management oversight of research 
conducted, and to move expeditiously on research needs. The 
inclusion of a fifth member from the university community is 
disconcerting. The universities may well receive some share of 
research funds and having them make recommendations on fund 
distribution is an apparent conflict of interest. Additionally, 
research imperatives and their pace should not jeopardize plans 
to quickly restore the Sea. We do not support including any 
representative on the Management Committee that may create a 
perception of a conflict of interest.
    There are other provisions in the bill which raise 
questions.
    My red light is on. May I have two more minutes.
    Mr. Calvert. Go ahead.
    Mr. Codekas. The Authority applauds the Members of Congress 
and specifically the Congressional Salton Sea Task Force for 
recognizing that stabilizing and reduce the Sea's salinity is 
the highest priority. However, the Emergency Action specified 
under Title II of the bill may be counterproductive.
    Title II directs the Secretary to expluse water out of the 
Salton Sea by December 1 of 1998 to accommodate diversion of, 
presumably, Colorado River water into the Sea. However, given 
that the mechanics of how the water will be pumped out, where 
the seawater will be pumped to, how the project will be funded, 
designed and constructed have not been worked out, this Title 
and its deadline are unworkable. Such an emergency action is an 
overwhelming technical, financial and political challenge by 
the deadline imposed. Preferably, the bill should direct the 
Secretary to work with the Authority through our current effort 
to identify and design an emergency plan to stabilize the Sea.
    Perhaps the greatest tribute to the late Congressman found 
in this bill is its intent to fix the Sea's problems quickly. 
The Authority thanks Congressmen Hunter, Brown, Calvert and 
Lewis for their commitment to expediting the recovery efforts.
    I am thankful that the Speaker has shown a commitment to 
this effort and that our two California Senators have 
introduced similar legislation to this bill. We hope that the 
President signs restoration legislation within a few months. 
Still, the clock is ticking for the Salton Sea.
    In the interim, the Authority and the Bureau of Reclamation 
can accomplish a great deal under our current $5 million work 
program. Federal funds authorized under Public Law 102-575 are 
being matched with State and local funds to carry out this work 
plan. Commitment by the Administration to proceeding on our 
work plan will help all of us to get a jump-start on whatever 
legislative deadline Congress establishes.
    We are thankful for the opportunity to speak before you 
today. The Authority represents the local interest in 
reclaiming this important resource.
    At this point, while not part of my written testimony, but 
because of all that has gone on today I would like to briefly 
address the issue of using surplus Colorado River water. In 
discussions with Colorado River Basin representatives they have 
expressed concerns about using excess Colorado River water to 
restore the Salton Sea. The Authority, the Coachella Valley 
Water District and the Imperial Irrigation District have never 
assumed the use of so-called excess Colorado River water to 
reclaim and restore the Sea, and we have continuously expressed 
our concern that any such language in the Salton Sea bill could 
jeopardize passage.
    To terminate I would like to say we stand ready to work 
with our partners and to do so quickly. The Authority's 
Executive Director, Tom Kirk is here to address any questions 
that you may have. Additionally, Tom Veysey, one of our board 
members and a Supervisor of Imperial County, and Paul 
Cunningham, Chair of the Authority's Technical Advisory 
Committee and Director of External Affairs for the Imperial 
Irrigation District are here to serve as resources to you. 
Thank you.
    Mr. Calvert. Thank you, Mr. Codekas.
    [The prepared statement of Tellis Codekas may be found at 
end of hearing.]
    Mr. Calvert. Next is Mr. Richard Bunker, Chairman of the 
Colorado River Commission of Nevada.
    You may begin your testimony.

     STATEMENT OF RICHARD BUNKER, CHAIRMAN, COLORADO RIVER 
                      COMMISSION OF NEVADA

    Mr. Bunker. Thank you very much, Mr. Chairman.
    I would like to express our gratitude on behalf of the 
State of Nevada and Governor Bob Miller for the opportunity to 
appear on behalf of H.R. 3267, the reclamation of Salton Sea. 
My name is Richard Bunker, and I'm Chairman of the Colorado 
River Commission of Nevada.
    In the past month or so several of my colleagues from 
Southern Nevada and I had an opportunity to go into the Salton 
Sea area as well as the Imperial Irrigation area and parts of 
Arizona, and at the time were given a very in-depth briefing by 
the people of both Arizona and California regarding the 
reclamation efforts of the Salton Sea. We went on this tour to 
convey basically to our Nevada policymakers one simply reality, 
that when it comes to the Colorado River water Nevada is very 
inextricably connected to the actions and the activities of our 
sister States, both Arizona and California.
    As a member of the Colorado River Commission for the past 
several years I have learned that issues involving the Colorado 
River are really like a never ending soap opera with intricate, 
slow-moving plots and subplots, and unless you follow the 
program faithfully it's very difficult at any given moment to 
know who is romancing who and why. We in Nevada have been 
romanced by almost everyone at one time or another, including 
the interests behind the Salton Sea Authority.
    Let me say we appreciate and are supportive of the 
objectives of the Salton Sea interests and we support that over 
all plan. However, we feel that H.R. 3267 has a lot of work to 
be done on it before it meets that criteria. I would just 
underscore it's primarily because the arithmetic on the 
Colorado River just doesn't work, and I will get into that in a 
minute.
    I also would like to for your record issue a disclaimer, 
that the comments that I am making about this bill should in no 
way be taken by any of the California interests that we are 
siding with one

side or the other in the California water war between the 
agricultural and the urban areas.
    Our problem is that today California is using approximately 
5.2 million acre feet of Colorado River water when its 
entitlement is only 4.4 million. The additional water that has 
been coming from Arizona and Nevada as its unused entitlement 
is part of the overall entitlement of the Lower Basin. Arizona 
and Nevada along with the four Upper Basin States have for 
years been urging California to implement a plan to reduce its 
usage to the 4.4 million acre feet that it has been allocated. 
I am pleased to tell you that in the past couple of years this 
plan has been talked about. As of right now they have not 
reached a resolution, but they have been working on it.
    I wouldn't want you to misunderstand. California has a very 
absolute contract right to the water that they are using. 
However, we think it is very dangerous for them to base any 
type of long-term activity, and particularly Federal 
legislation on temporary water. Within the next several years 
Nevada will be using up its own meager supply of 300,000 acre 
feet, and we also will be attempting to use some of the unused 
apportionment and surplus water.
    Unlike California, however, we have a plan that is in place 
and it is being worked on at the present time for the day when 
all of the Lower Basin water will be put to use. As the 
Department of the Interior moves forward to approve regulations 
which will allow Colorado River water to be banked in Arizona 
we intend in Nevada to avail ourselves of that opportunity to 
the point of hopefully being able to bank somewhere in the area 
of 100,000 acre feet annually for the next several years. I 
would underscore the fact that we are waiting for the 
Department of the Interior to move forward with those banking 
regulations.
    The other thing we would indicate to you is that Nevada, 
unlike California, has no agricultural buffer. We know that 
there is a lot of conversation going on between agricultural 
and urban interests in California and would suggest to you that 
some of the water that is going currently into the Salton Sea, 
if the arrangements are made between the San Diego Water 
Authority and Imperial Irrigation, a lot of the water that is 
going to be transferred because of that negotiation is going to 
be water that ultimately would not be going into the Sea 
because it will be conserved water from that Irrigation 
District.
    I will bring my remarks to a conclusion, but we would 
suggest to you that before any further Federal demands for 
water are created California should first implement a plan as 
to how they are going to live within the 4.4. We believe that, 
Imperial, Palo Verde and the Coachella Irrigation Districts are 
going to have to enter some substantive plans to conserve 
water, and we are opposed to the legislation as it is currently 
written because we believe that it brings about a huge 
dependency over and above what they currently have for the 
State of California on Colorado River water.
    I thank you, Mr. Chairman, for your time.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Richard Bunker may be found at 
end of hearing.]
    Mr. Calvert. We have a vote in process right now. There are 
approximately 7 minutes left, and then there is another vote 
following on passage. So we will stand in recess, and I'm sure 
there will be some questions as soon as we return, which will 
be approximately in 15 minutes.
    We stand in recess.
    [Recess taken for Members to vote.]
    Mr. Calvert. [presiding] The Committee will come to order.
    Mr. Lewis has asked to join us at the roster if there is no 
objection.
    [No objections.]
    Mr. Calvert. It's approved.
    I'm going to ask a quick question. I know Mr. Lewis has 
some time constraints.
    I'm going to first ask Mr. Hayes, in your testimony you 
referred to the restricted time constraints in the bill. Mr. 
Hayes, I understand that in past positions you've been involved 
in CERCLA litigation. As you know, that law was established to 
remediate our nation's worst abandoned hazardous waste sites. 
When that program was established Congress did not want 
cleanups to be hindered by judicial challenges--I'm going to 
move over here and let the Chairman take over.
    Mr. Doolittle. Go ahead.
    Mr. Calvert. [continuing] and wrote Section 113[h] of 
CERCLA so that parties may not challenge Superfund cleanup 
remedies before they are completed. The Supreme Court has 
recently upheld a lower court ruling that in fact Congress did 
not want Superfund cleanups hindered by judicial challenges. 
The members of the Salton Sea Task Force that have introduced 
this measure before us today have those same concerns, that 
because of the deteriorating and dangerous environmental 
conditions at the Salton Sea Congress should provide that the 
cleanup is not hindered by judicial challenges. Also, this 
Administration, as have past Administrations, has enacted 
legislation that limits administrative and judicial review in a 
number of areas and for a variety of reasons. In light of this 
information your statement that ``In the Administration's view, 
it is inappropriate to shortcut the remedies afforded by the 
environmental laws in the name of environmental protection'' 
appears schizophrenic at best. Do you agree with the 
Congressional Task Force Members that reclaiming the Salton Sea 
should proceed without being hampered by dilatory litigation?
    Mr. Hayes. Congressman, it is a very rare circumstance I 
think that the Administration is comfortable with overriding 
the environmental laws. In the context of NEPA I think we've 
got a very good track record on both sides of the aisle of 
doing NEPA reviews and with the courts not interfering with 
actions that are selected as the result of an EIS process.
    As you know, the standard for enjoining a project based on 
NEPA violations is quite high, and only in the case of an 
egregious violation of NEPA would judicial review potentially 
interfere with the administration of a project. And if those 
circumstances in fact took place, it may be appropriate to have 
the courts review the NEPA process. The Administration does 
believe that any departure from the normal course of NEPA 
review, and NEPA in particular, one of the central 
environmental laws, the first and the one with which we have 
had the most history, that departures are not warranted and in 
fact have been quite rare.
    Mr. Calvert. One point, and then I'm going to ask the 
Chairman to take over again and recognize Mr. Lewis, but you 
mentioned that you were not in favor of preauthorization on 
this bill. Well Secretary Babbitt, as I understand it, has 
endorsed the Senate version of the bill which also asks for 
preauthorization. So are you opposite of Mr. Babbitt's 
position?
    Mr. Hayes. No. Mr. Babbitt's statement was that he is 
encouraged by the Senate bill. He finds it to be, and I believe 
the quote was, a more practicable and feasible approach, but it 
needs to be refined, and once refined, implemented. He did not 
endorse all aspects of the bill. The Administration has a 
concern, a budgetary concern about preauthorizing $300 million 
for a project that is not yet identified. But, as the Secretary 
has said, and I hope these comments will be understood in this 
light, the Secretary is extremely interested in working closely 
with the Congressional Task Force, as exhibited by his visit, 
in getting legislation that will work, but the Administration 
is concerned about the preauthorization, and that concern 
extends to the Senate bill.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you, Ken.
    The Chair asks unanimous consent to have our colleagues, 
Duncan Hunter and Jerry Lewis join us up here on the panel.
    Is there any objection?
    [No objections.]
    Mr. Doolittle. Seeing none, you're official.
    Mr. Lewis, we welcome you.
    Mr. Lewis. Thank you very much, Mr. Chairman. It's unusual 
to have these circumstances, but as you know I was scheduled to 
testify earlier and Mr. Calvert was kind enough to submit my 
written testimony. The Appropriations subcommittee hearing is 
still going on that I'm responsible for. So I'm going to have 
to run back shortly.
    The reason I wanted to come back was because it is my 
understanding that there may be some disagreement, a serious 
disagreement between some of the members of the panel who have 
a similar interest in the Salton Sea to my own, but apparently 
the lines of communication that contain a serious gap and I'm 
quite concerned about it. I wanted to come and formalize those 
concerns before the Committee.
    Mr. Codekas, you know that during my last 4 years in the 
State Legislature and my first 4 years in the Congress I had 
the privilege of serving the Coachella Valley. We've had long-
term contact here as well as long-term interest in the Salton 
Sea, but over these years there has been virtually nothing done 
about solving this problem.
    Following the tragic death of Congressman Jerry Pettis he 
was replaced by my predecessor, Shirley Pettis and, as you may 
remember, she raised the question of the Salton Sea as her No. 
1 legislative issue. In those days because of a lack of 
intensive involvement of legislators on both sides of the aisle 
from Southern California, Shirley was the only point person 
really carrying the cudgel. Competition for environmental 
spending in Northern California made this idea difficult. 
Eventually, the whole project, idea and thought pattern were 
set aside. The Salton Sea has continued to deteriorate, and we 
are at the point where it is all but gone in terms of a usable 
and valuable asset.
    In the last couple of years we have been successful at 
raising the issue in a way that would suggest that maybe, just 
maybe the National Government will do more than just pay lip 
service to this problem. As you know, because we have studied 
and restudied and analyzed and reevaluated this problem for 
over 30 years, 2 years ago I had the opportunity to put a 
million dollars in a bill that involves a subcommittee that I 
happen to Chair that suggested that maybe people a little bit 
away from the valley where, we all have special interests in 
this environmental problem should take an independent look at 
the issue.
    I had the audacity to suggest that maybe the University of 
Redlands might be able to look at all the studies that had been 
produced and give us some evaluation. That was in the fiscal 
year 1977 VA HUD bill. Last year we put another million dollars 
in the fiscal year 1998 bill to have that work continue to 
formalize itself. But beyond that we were able to put $5 
million in a pool that could be used by the Authority to assist 
in looking at those alternatives and taking some constructive 
steps toward a solution that would be a comprehensive solution.
    I know that over all these years in frustration the local 
people who have an interest have essentially said, my God, we 
had better do something and let's opt on the cheapest solution, 
which is diking. I don't know if that is the right one or not, 
but I do know that there are many, many alternatives that 
involve recognizing the impact of pollution coming from the New 
River, that recognize that there are problems from the Mexican 
border that are multiple and that a very complex solution that 
be involved if we deal with Mexico. There are suggestions about 
the value of the possibility of pumping out and using 
evaporative ponds. There are a whole array of ideas.
    It seemed to me that there is a need one more time for 
those people who are just outside the region, to help us 
evaluate those alternatives. A coalition of universities has 
come together. Redlands isn't just going to do it by itself, 
but rather some of the finest minds in the country dealing with 
the environment are going to help us take a look at this.
    I'm concerned about two things. It's my understanding that 
at least among members of the Salton Sea Authority there are 
those who think that we should not have the universities 
involved, and that baffles me. If that's the case we'll take 
the $5 million back and my committee can use it some other way.
    The other line that I heard that came from this morning's 
meeting was a suggestion that we shouldn't fund or have money 
in to deal with the New River, and, my goodness, if there is a 
problem that needs to be addressed, the New River is in that 
category. I remember Clare Burgener talking about that when I 
first arrived in Congress. It is the source of one of our major 
difficulties.
    Would you please clear the air for me and tell me if I'm 
wrong. If I'm not wrong, then just let me know and I would be 
glad to see if we can use that funding for public housing or 
some other purpose.
    Mr. Codekas. Well with your permission, Congressman Lewis, 
can I have our Executive Officer answer this for you?
    Mr. Lewis. If he is the guy who is the source of those 
ideas I would love to hear from him.
    Mr. Codekas. Tom Kirk.
    Mr. Doolittle. Before you answer raise your right hand, 
please.
    [Whereupon, Tom Kirk comes forward, raises his right hand 
and is first duly sworn by Chairman Doolittle as follows:]
    Do you solemnly swear or affirm under the penalty of 
perjury that the responses given and the statements made will 
be the whole truth and nothing but the truth?
    Mr. Kirk. I do.
    Mr. Doolittle. Thank you. Why don't you introduce yourself 
and tell us your official position. You can sit down there and 
grab a microphone.
    Mr. Kirk. Tom Kirk, Executive Director of the Salton Sea 
Authority.
    Mr. Lewis, first, thank you for all of the work you have 
done in helping to appropriate significant amounts of funding 
for the effort.
    In terms of Authority's position on the university 
involvement, I can say without any hesitation that the Salton 
Sea Authority absolutely supports the university's involvement 
in the effort, and the question is how should that involvement 
be structured.
    The Salton Sea Authority in fact has a current contract 
with the University of California at Davis and with the 
Department of Water Resources through the Resources Agency. We 
support the efforts of San Diego State University. Dr. Stuart 
Hurlbut has been very active at the Sea and he has been one of 
the few researchers that has been out there for many years. And 
with the University of Redlands we have had continuing 
discussions with them. We see their role as being absolutely 
instrumental with their geographic information system in 
assembling the existing and the new information that we 
develop.
    So, yes, I think the impression that you have that the 
Authority is against university involvement isn't correct. We 
see the university involvement as being absolutely critical. In 
fact, one of our concerns is one provision in the bill that 
would have the universities sit on a panel, the Scientific 
Management Committee, and that in fact that may preclude them 
of further involvement.
    The way the panel was set up by the Department of the 
Interior it was made very clear that that Science Management 
Committee could have no ties or very limited ties to actual 
research. It was to guide the research. We are concerned that 
the universities on that panel may limit their ability to 
accept funds for research. Hopefully that clarifies that issue.
    May I also say on the issue of the $5 million, we again 
thank you for providing that funding. There are a couple of 
points on that. One, we would like to continue to use it. 
Public housing may be a very good use for that funding.
    Mr. Lewis. Maybe the Coachella public housing.
    Mr. Kirk. I know some people who would be very interested 
in that, but we are much more interested in using that funding 
for the Salton Sea recovery effort. When I came on board back 
in November I was told money wouldn't be a problem. We've got 
$5 million through your good efforts and the Congressional Task 
Force efforts. We have $2.5 million through State funding. As 
our President knows, we haven't seen dime one, not just dollar 
one, but dime one of either of those. We are very close on the 
State funding. We are working through the Cal EPA, and I think 
in the next 30 days we will have access to that $2.5 million.
    On the $5 million in funding the Authority assumed 
incorrectly back when I was hired that that money would simply 
come to the Authority and then we could use it for our current 
work program doing the engineering analysis, the environmental 
permitting and the like. We found out a couple of months ago 
that in fact that funding travels the same route that the 
Redlands funding did, and that was through an EPA office that 
the process took on the order of 12 to 14 months to complete.
    I have worked with your contacts at the University of 
Redlands to help us with our proposal, and we have had many 
discussions with them and we are hopeful with the help of the 
Research Management Committee and Milt Friend to put a proposal 
in to EPA in short order.
    Mr. Lewis. Mr. Kirk, let me respond in this way. It is my 
understanding that you, Mr. Kirk, argued internally relative to 
the University Consortium staying in place, but the board has 
taken a different position than that. It's the position of the 
board that concerns me a lot for I do think that there is great 
value to be had here by the kind of evaluation and re-
evaluation that they can provide.
    Your comments about EPA, I'm very sensitive about and 
appreciate. My subcommittee is responsible for funding their 
budget. I can tell you this, that they have a new grant 
administrator in place as of this moment, and it's my 
understanding that the grant administrator is quite anxious to 
work with us to expedite this process. That certainly should be 
a relief to everybody who is so concerned.
    Mr. Kirk. What I can pledge to you, sir, is that the Salton 
Sea Authority will take your concerns and I know concerns 
shared by the rest of the Congressional Task Force and we will 
take a look at our position related to university involvement. 
I can assure you again that we want to see the universities 
very much involved and we want to find a way to structure that 
involvement that makes sense locally and for you.
    Mr. Lewis. I appreciate that.
    Mr. Hunter. Mr. Chairman, could Mr. Lewis yield to me 
briefly on that point just to followup.
    Mr. Lewis. I yield.
    Mr. Doolittle. He is kind of out of time, but I'll try and 
be as generous as I can.
    Mr. Lewis. You are more than generous, Mr. Chairman.
    Mr. Hunter. I'm looking at the provision that we have where 
the University Consortium is a part of the Salton Sea Research 
Management Committee. The membership is made up of the 
Secretary, the Governor of California or appointees of the 
Secretary and the Governor of California, and, No. 3, the 
Salton Sea Authority, No. 4, the Torres Martinez Desert 
Cahuilla Tribal Government and, No. 5, one person appointed 
jointly by the California Water Resources Center, the Los 
Alamos National Laboratory and the Salton Sea Research 
Consortium. Now that means that the universities in terms of 
power or what you call potential conflict of interest have one 
third of one fifth of the influence on this particular 
structure, and if you divide that up further by the 
universities, each university basically simply has a seat at 
the table, but in no way can I see the leverage that would 
amount to a conflict of interest here. The reason for having 
this is that the Committee shall select the topics of study 
under this section and manage these studies.
    I think it's important to have our academic experts and the 
people who have done the research involved in a discussion as 
to what the topics are going to be and how this study is going 
to proceed, and I don't see a problem there. So that was one 
area where I hope that you folks will take another look at this 
thing.
    Mr. Kirk. We will, and thanks for putting it into 
perspective, Mr. Hunter. I would like to add that on the 
existing $5 million in funding we do plan on working with the 
universities even on that. We have already bounced some ideas 
off the University of Redlands and we hope to involve the 
others.
    Mr. Lewis, you did address the issue of the New River 
funding as well.
    Mr. Lewis. Yes.
    Mr. Kirk. I was surprised by your comments because the 
Salton Sea Authority and, as far as I know, all of our member 
agencies have not taken any position opposing the funding for 
the New River.
    Mr. Lewis. I'm pleased to hear that, and I could be in 
error. I do know that that funding, or at least I have heard 
that that funding has been eliminated or is not a part of the 
Senate bill, and that is of some concern to me, but it may be 
just a lack of communication on our part.
    Mr. Kirk. We had nothing to do with that elimination as far 
as I know.
    Mr. Lewis. I appreciate that. Let me speak to the 
university representation in a different way. I have always 
strived in my lifetime to have people think I was an academic. 
Having failed that, I've got a couple of kids who are. They 
don't work for any of these universities, but in the meantime 
it's just the association with them that helps my image. So I'm 
anxious to have them at least be my representative on them one 
way or another. Anyway, we appreciate your response and 
appreciate working with you.
    Mr. Kirk. Thank you.
    Mr. Lewis. Thank you, Mr. Chairman, very much.
    Mr. Doolittle. Thank you.
    Mr. Hunter, did you finish your questions?
    Mr. Hunter. Just one or two here, Mr. Chairman, and thank 
you for letting myself and Mr. Lewis sit on the panel, too.
    First, one reason why we had in our bill this to some 
degree elimination of the judicial review and challenge is 
because, and, Mr. Hayes, I would address this to you, because 
your boss, Mr. Babbitt who really has his heart in the right 
place on this project has seen with his own eyes that this Sea 
is dying. The last thing we want to have, and especially if we 
start seeing less water going into the Sea and salinization 
accelerate, the last thing we want to have is to be part way 
down the line on a project which is basically a function of 
decisionmaking by your boss. I mean the product that we have 
when we pick the option is going to be presumably led by your 
organization, and the last thing we need is to have is some 
off-the-wall organization, not a responsible conservation 
organization, but some third party go forum shopping.
    We know one thing Sonny Bono hated was what he called 
judicial activism and to find a judge who stops the project, 
and as a result of that the 200,000 birds that have died so far 
in the Salton Sea are joined by literally hundreds of thousands 
of other waterfowl, and we get to the point where the Sea will 
not allow fish to survive because of increased salinization. So 
I would hope that you understand the importance for that.
    I think what we tried to track when we put that together 
was the same acceleration and the same limitation on judicial 
review that we've had with things like the Alaskan pipeline, 
and certainly you've seen it, too. I mean it was mentioned by 
Mr. Calvert that that has occurred in other places. But this is 
going to be largely your decision on how we move ahead with 
this in consultation with some other agencies. If we make a 
responsible decision we need to move quickly. I think that's a 
key here.
    Let me just ask since Jerry touched on it briefly, and 
we're going to have a panel on New River. New River is 
something we can do right now. We can start working it and do 
that concurrently with the big project in cleaning up that 
river through a series of 50 miles of filtering marshes. I 
think it's a great concept, and I haven't met an academic or a 
person coming from the conservation community who doesn't like 
it. It's relatively inexpensive compared to other things that 
you can do and the prospect of having to have a plant to pull 
some of the pollutants out of that river.
    So let me just ask, Tellis, since you're before us now, you 
folks do endorse the idea of moving ahead at the same time in 
this project of cleaning up New River with a series of marshes 
and it's a partnership between the Bureau of Reclamation and 
IID and of course Desert Wildlife Unlimited?
    Mr. Codekas. How would you want us to work this?
    Mr. Hunter. Well we have in our bill, and the Senate bill 
doesn't have the $2 million, but we start out with $2 million 
for the initiation of the cleanup of New River, and what that 
would be is a couple of these initial ponds because the idea is 
you build a series of marshes along New River. We've got about 
50 miles of river there, and as you flow the water, you flow 
the water out of the river through the marshes, the aquatic 
plants pull the pollutants, some of the heavy metals out and 
some of the sewage pollutants out of the water, and then flow 
it back in.
    So we've got to basically put our first couple of ponds in 
place, and we can do that right now and do some experimentation 
with them and see what types of water plants work the best, do 
some work in terms of engineering and basically work that 
project of cleaning up New River in concert with the major 
Salton Sea project. So we have $2 million in the House bill to 
do that for New River. The Senate bill doesn't have that, 
although they do mention that we do need to work on all the 
rivers, New River, Whitewater and Alamo. Do you folks favor 
this second track project to clean up New River?
    Mr. Codekas. I can't answer that. I will have to ask Tom 
Kirk. This has to go through our Technical Advisory Committee 
before it comes to the board.
    Mr. Kirk. Mr. Hunter, I will be very brief on this issue. 
We haven't addressed this as the Salton Sea Authority. The 
Authority does applaud your efforts to address all of the 
sources of the Salton Sea's problems, including the New River, 
and obviously that's a big issue. What I can say is that I know 
Supervisor Veysey is in the audience, and Imperial County and 
the Imperial Irrigation District are very interested in the 
cleanup of the New River, and I believe that the County of 
Imperial would like to continue to work with you on how that is 
accomplished.
    Mr. Hunter. All right.
    Mr. Hayes, do you have an answer on that? I know we gave 
Secretary Babbitt a very short briefing on that program.
    Mr. Hayes. Yes, Congressman, and I think the Bureau has 
done some preliminary work with the other partners and we are 
open to it. We have not officially taken a position on the 
level of funding and that kind of thing, but we are open to 
that project and think it may be an innovative way to help deal 
with the New River issues.
    Mr. Hunter. Thank you.
    Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you.
    Secretary Wheeler, what is the status of the California 4.4 
plan?
    Mr. Wheeler. The plan, as Mr. Bunker has already indicated, 
is under development by the Colorado River Board of California. 
The Governor has indicated that it is a very high priority 
because we take seriously the warnings we've had from Secretary 
Babbitt and from our neighboring States on the Colorado Basin 
that we cannot subsist on the margin between our allotment and 
that surplus which has been declared in recent times. We have 
shared with the other States a draft of the plan and we have 
invited their comment. I should use this opportunity to say we 
intend, no matter what outcome of this investigation relative 
to the Salton Sea, to live within California's 4.4 million acre 
feet allotment.
    Mr. Doolittle. Do you mean to begin immediately to live 
within that or will it be phased in over a period of time?
    Mr. Wheeler. Ultimately to live within it as circumstances 
dictate. We have a surplus this year and, as has already been 
said, we may have one next year.
    Mr. Doolittle. As long as we have a surplus we're 
legitimately entitled to have that as well, right?
    Mr. Wheeler. Exactly, a share of it, our share of it.
    Mr. Doolittle. Right.
    Mr. Wheeler. And the point is we have to be ready for that 
time when we don't have a surplus to live within our 4.4, and 
we will be prepared to do that.
    Mr. Doolittle. Thank you.
    Mr. Bunker, I'm sorry I was out of the room when you gave 
your testimony and maybe you will be repeating yourself, but 
could you explain the concept of surplus water as it applies to 
the Colorado River. Could you use maybe the scenario from last 
year as an example and with what frequency would you expect 
that scenario to occur?
    Mr. Bunker. Well, Mr. Chairman, I am not a technician, but 
to the limits of my ability I will try to assist that. My 
understanding is that it is a declaration that is possible by 
the Secretary of the Interior each year, and that there is a 
process and there are criteria that have to be met before that 
is done.
    I think one of the problems that comes back to the surplus 
issue is the fact that there are priorities on the river and, 
unfortunately, in a shortage there are some States that have a 
lower priority than do some of the California agencies, and I 
think that is what their concern is, and I think it's a 
legitimate concern. I think it is very difficult for any type 
of, whether it be Federal legislation or Irrigation District 
programs to be based on temporary water, and that's all you 
could say that surplus water is. You know, it might be great 
for several years, but if a drought comes, then of course it's 
going to be a very difficult situation.
    Mr. Doolittle. It is possible that someone with an existing 
Colorado River allocation could contribute that to the cleanup 
effort?
    Mr. Bunker. I think the answer to that is yes. I think it's 
the position of the six other Basin States that as long as 
California is operating within its 4.4 we really don't care 
where it goes or how they use it. That's an internal discussion 
that you folks must have. So my answer to that would probably 
be yes, as long as it's within the 4.4.
    Mr. Doolittle. Let me ask Mr. Wheeler. How many years have 
we been over the 4.4?
    Mr. Wheeler. I don't have an exact answer for you, but 
continuously, and that's in part, Mr. Chairman, for the obvious 
reason that in addition to surplus determinations, which are 
made as a consequence of the hydrology of the river annually, 
there have been excesses beyond the allotments made to the 
other States and not utilized by the other States, and that, 
too, has been available to California. But as you have heard 
this morning from Mr. Bunker and from the other States, as 
their needs being to grow that excess over their allotments 
will no longer be available as well. So it's not as if 
California has relied unreasonably or inappropriately on that 
water. It's just that that water is not any longer as readily 
available as it once was.
    Mr. Doolittle. How many years into the future is it before 
these other States can actually take their full allotment and 
do something with it?
    Mr. Wheeler. You would have to ask them. Arizona has taken 
the very strategic decision to store its water even in advance 
of its need and has offered to sell some of it to Mr. Bunker 
we're told.
    Mr. Bunker. Mr. Chairman, if I might respond to that.
    Mr. Doolittle. Yes.
    Mr. Bunker. The Arizona Banking Authority has set up a 
program, if the Federal regulations are approved by the 
Department of the Interior, that would allow Nevada to start 
banking 100,000 acre feet, approximately 100,000 acre feet each 
year. Now Arizona is already using that additional allotment 
that they have entitlement to to recharge their groundwater 
system. They are currently doing that from their allotment.
    And in response to your question of how soon are we going 
to be using those allotments or those entitlements in the two 
States, Arizona is very close, and certainly with banking 
Nevada will become very close because we're going to try to 
bank the rest of our unused entitlement.
    Mr. Doolittle. Would one of you gentlemen care to volunteer 
an opinion as to whether it's possible under this Law of the 
River for one State to sell it to another State?
    Mr. Wheeler. That is a determination about which we await 
the decision of the Secretary of the Interior, and those are 
the regulations that Mr. Bunker has made reference to. We might 
address that question perhaps unfairly to Mr. Hayes.
    Mr. Doolittle. OK. Mr. Hayes.
    [Laughter.]
    Mr. Hayes. Fair or unfair, here it goes. Mr. Chairman, the 
Secretary has issued proposed regulations under which he 
believes he has the authority under certain circumstances where 
there is an authorized State banking program for interstate 
transfers of banked water that it would be subject to 
Secretarial approval. Those proposed regulations were published 
in the Federal Register I believe just on December 31st, and 
the public comment period is continuing until April 3rd, and we 
hope to go forward with final regulations that will facilitate 
these transfers.
    Mr. Doolittle. Mr. Wheeler, is the State of California 
inclined to accede to the proposed regulations?
    Mr. Wheeler. California has been an advocate both of 
banking and of interstate transfers, yes.
    Mr. Doolittle. So there would be no opposition to this 
moving forward?
    Mr. Wheeler. Not to the concept generally. I have not seen 
the regulations themselves.
    Mr. Doolittle. All right. Well in the interest of time, I 
have more questions, but I think since we've got so many 
witnesses perhaps we will try and move along here.
    Let me just ask a question of you, Mr. Hayes. This 
afternoon the idea was raised to block grant to the State of 
California the funds to perform the entire project as the lead 
agency. Would the Administration prefer this option or the 
current proposal outlined in the bill, and tell us why or why 
not.
    Mr. Hayes. Mr. Chairman, I don't think this project is a 
good candidate for a block grant. I think rather the kind of 
joint approach the Secretary talked about is more appropriate. 
The reason I think why a block grant approach may be 
particularly inappropriate here is the fact that there are 
several Federal interests here that would be difficult to 
delegate through a block grant.
    There is obviously a very strong interest in tribal 
communities in the Sea, and we as trustee of the tribes have a 
special responsibility toward the tribes, and that's one of the 
reasons why the Torres Martinez Tribe in particular with their 
major land holdings is playing a major role, and appropriately 
so in the activities we're talking about.
    Also, we have one of the major fish and wildlife resources 
in the entire Pacific region with the Salton Sea. The national 
wildlife refuge in the southern part of the Sea is a very 
important aspect of the whole national Federal western flyway, 
as Congressman Hunter and others have discussed.
    And, finally, the Secretary is Water Master of the Colorado 
River and has special responsibilities in that role as Water 
Master and, as exhibited in this hearing, the Colorado River 
issues are quite sensitive and need to be handled with great 
care. Having a block grant concept of pushing those issues off 
to the State, certainly Mr. Wheeler and his colleagues are very 
well qualified to work in this arena, but we think the Federal 
presence is necessary.
    Mr. Doolittle. Mr. Wheeler, could I pose the same question 
to you?
    Mr. Wheeler. You may, and I haven't had a chance to discuss 
it with the Governor of course, but I could imagine what his 
response might be, and therefore I will venture to guess that 
California would welcome this challenge, Mr. Chairman. I would 
say that the Chenoweth formula will soon gain credence in 
Sacramento. But I do want to say more seriously that we have a 
good record of collaboration with the Federal Government in 
California, and increasingly so, in which there is a 
recognition both of our interests and our ability to work 
cooperatively.
    Mr. Lewis has been a major sponsor of our habitat 
conservation work in Southern California, and you have been 
supportive of our efforts in the CalFed Bay Delta solution. I 
think there is a role for each, and I think we can find a way 
appropriately to reflect those responsibilities and to share in 
the costs, to say nothing of the important role of local 
government in this new Regional Authority.
    Mr. Doolittle. Here is a tough one, Mr. Wheeler. As between 
this and CalFed which has the higher priority?
    Mr. Wheeler. Which of my children do you want me to dispose 
of?
    [Laughter.]
    Mr. Wheeler. We have an answer for that, Mr. Chairman. We 
believe that the sequencing of timing and funding will allow 
you to do both. Happily, the Federal commitment to CalFed will 
expire with the fiscal year budget 2000 according to present 
plan, and according to the timetable envisioned by the bill 
before you today the authority will and the appropriation for 
this project will begin in the year 2001. So we see a 
continuous stream not having to choose between one or the other 
of these very important projects.
    Mr. Doolittle. Well thank you. Now are you telling us you 
won't be asking for CalFed money then after that time?
    Mr. Wheeler. I won't be asking, Mr. Chairman.
    [Laughter.]
    Mr. Doolittle. Let me just briefly ask you to answer this 
question, Mr. Hayes and then Mr. Wheeler. What percentage of 
the cost of all of this for the Salton Sea do you believe 
should be borne by the State of California and other non-
Federal entities?
    Mr. Hayes. Mr. Chairman, as you know, currently there is 
authorization for the Bureau of Reclamation to spend up to $10 
million on Salton Sea activities. That is the vehicle under 
which we currently are funding the ongoing efforts, and that 
legislation anticipates a 50 percent cost share by the State 
and local interests. Our position I guess going in is that 
seems about right, and that it's appropriate to have a cost 
share and the 50/50 makes sense. We have not had significant 
discussions on that point, but my testimony does suggest that 
we could continue on that basis.
    Mr. Doolittle. Thank you.
    Mr. Wheeler, does that figure make sense to you?
    Mr. Wheeler. It sure doesn't. I'm more inclined to the 75/
25 formula, Mr. Chairman, but I would note that your 
legislation, or this bill provides that nothing can occur until 
we reach agreement among the various parties about cost share, 
and that's probably the place in which to leave this decision 
at the moment. We don't know yet how much the project is going 
to cost, how much of the benefit could be ascribed to local 
interests or to State interests or to national interests, and 
as we get additional research and we get the feasibility study 
which is authorized by this bill I guess we will be able to 
make a better judgment about a fair apportionment of costs. But 
it is clear from your bill that there will be no cost sharing 
unless all parties agree to it, and that would be satisfactory 
to California.
    Mr. Doolittle. Thank you.
    Mr. Codekas, could you discuss how the Colorado River water 
could play a role in solving the inflow needs of the Salton Sea 
while protecting existing rights and obligations.
    Mr. Codekas. How the existing Colorado River could aid the 
flow into the Salton Sea?
    Mr. Doolittle. Yes, without violating any of the existing 
rights that people have.
    Mr. Codekas. Well what is difficult about this is we are 
already looking at a transfer from IID to San Diego. If that 
goes ahead that is going to reduce the inflow to the Salton Sea 
more instead of expanding it. If someone could feasibly treat 
the water well enough to reuse it in irrigation, I could see 
that happening, reuse of the water if that's possible, but it 
really looks tough with the diversions that we're looking at 
today. So I can't see that you can take any of the Colorado 
River water and put it directly into the Salton Sea. It's all 
appropriated and I just don't think that can happen.
    Mr. Doolittle. So you and Mr. Bunker on that point would 
tend to be in agreement then?
    Mr. Codekas. I am.
    Mr. Doolittle. Do you know of any water right holders that 
have expressed interest in making Colorado River water 
available through means of banking or permit or interim sale 
exchanges or other creative measures?
    Mr. Codekas. I think U.S. Filter, Mr. Hickman has made 
overtures in the Coachella Valley about trading agriculture 
runoff to reuse or trade, but any additional water, I don't 
know if there is any available at this time.
    Mr. Doolittle. Of those that presently have water rights 
you know of no one then that is interested in doing it?
    Mr. Codekas. For the Salton Sea?
    Mr. Doolittle. Right.
    Mr. Codekas. At the prices water goes for now I couldn't 
imagine that.
    Mr. Doolittle. Tell us what the prices are that it goes 
for.
    Mr. Codekas. Well it's going for about $240 an acre foot to 
San Diego.
    Mr. Doolittle. Mr. Hunter, you represent San Diego, don't 
you?
    [Laughter.]
    Mr. Hunter. Mr. Chairman, could I followup on that?
    Mr. Doolittle. Yes, please.
    Mr. Hunter. I think we went over this idea initially when 
we were discussing this thing, the idea of using a flood stage 
river where you have water literally, as we did a couple of 
years ago in my district, flooding out the banks and the farms 
across the river from Yuma, and doing it on the Yuma side, too, 
that using that water in maybe a one-time effort to knock the 
salinity down from 45,000 parts per million to say 40--or to 
say 38,000 parts per million, that would dramatically buy us 
time, No. 1, and put the Sea back into a healthy state at least 
in terms of salinity for a period of years.
    So I guess my question is you stated that you don't mind us 
doing that as long as we would use it within our 4.4 million 
acre foot allotment. So a question to Mr. Bunker.
    If we're using more than 4.4, which we are, as Mr. Wheeler 
said, and have for a while, but we have a big rain year and 
even with your banking and your storage and other things you 
have flood stage Colorado River flowing past Yuma and 
ultimately to the Sea of Cortez, is your position that you 
would rather see it go into the ocean than to see us use it to 
flush to some degree the Salton Sea?
    Mr. Bunker. No. There are flood control criteria that are 
set up by the Department of the Interior and by the Corps of 
Engineers, and when the reservoirs reach a certain level, then 
by dictum from the Secretary and, if not, then by the Corps of 
Engineers they can release water. Now again I am not an expert 
in that area, and there are experts coming after us------
    Mr. Hunter. No, I'm talking about in terms of policy. You 
said that your policy feeling was that it was OK with you if 
California used Colorado River water as long as it was within 
their 4.4 million acre foot allotment. I'm saying assuming we 
obviously are using 4.4 and more already for our irrigation and 
our other uses, but in reality we have a flood year in which 
you have water physically washing away the banks of the 
Colorado River bed at Yuma and water flushing out into the Sea 
of Cortez, would it be OK if California used it at that point?
    Mr. Bunker. Of course the obvious answer is yes. I do not 
know if there are criteria that are set up whereby California 
would have the majority of that water anyway. That well could 
be the case.
    Mr. Hunter. Thank you.
    Mr. Doolittle. Mr. Calvert is recognized for an additional 
question.
    Mr. Calvert. I have one additional question, and I thank my 
friend from San Diego for asking that question because I was 
going to ask the same thing.
    Mr. Wheeler, we have been talking about the time problem we 
have here at the Sea. Time allocated for the Federal agencies 
to complete NEPA work, as you know, is specified in H.R. 3267. 
But since their work needs to be done in cooperation with the 
State of California, could you assure you us that the State 
would comply with the allotted timeframes that we have outlined 
in the bill?
    Mr. Wheeler. Yes, we believe we could. And it's an 
important point because although there is talk of relieving the 
Federal agencies of responsibility under NEPA, of course the 
Congress cannot affect the applicability of CEQA, the State 
law, to the Salton Sea Authority, which is a State agency. So 
in any event we would have to comply with CEQA.
    Let me make one further suggestion though, that we might 
expedite this process, as the Governor would want to do, by 
integrating NEPA and CEQA and by allowing CEQA to become a 
functional equivalent to NEPA so that we don't have to run two 
separate and redundant parallel processes. It may be a way to 
save some time.
    Mr. Calvert. That's a very good suggestion and we'll take 
that under advisement.
    One other question. The State is talking about some 
additional bond measures on the November ballot. Are you going 
to include dollars within the pending statewide bond issue for 
the Salton Sea in November?
    Mr. Wheeler. The Governor has asked for $2.1 billion in 
water and parks bonds for which this project would be eligible. 
We have the problem as yet of getting approval from the 
Legislature, as you know. We failed to make the deadline for 
the June ballot, and we're hopeful of making it for the 
November ballot, but that's a matter to be determined by the 
Legislature.
    Mr. Kirk. Mr. Chairman, could I be recognized on that 
question?
    Mr. Doolittle. Certainly.
    Mr. Kirk. We have, the Salton Sea Authority has put in a 
request for $50 million through our State Senator and State 
Assemblyman to that proposed bond measure. So it is something 
that we are actively working on.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Doolittle. Did I hear the figure was $50 million?
    Mr. Kirk. Correct.
    Mr. Doolittle. If this is a $300 million project that's 
about, what is it, one sixth. That's 17 or 18 percent. So we'll 
have another bond issue to make up whatever the difference is.
    Mr. Wheeler. That would be the State's share of course, Mr. 
Chairman.
    Mr. Kirk. We assume that $50 million is way beyond what our 
local share would be.
    Mr. Doolittle. Well this has been very illuminating, and 
I'm glad that we've taken some additional time with this panel. 
I hope we're not going to keep all of you too late. We may have 
some additional questions to address via written form and we 
would ask you to please respond expeditiously to those so we 
can close out the record.
    With that we will excuse the panel. Thank you very much.
    [Additional questions to be submitted and responded to for 
the record may be found at end of hearing.]
    Mr. Doolittle. We will invite the members of Panel No. 3 to 
come up and take their seats, or remain standing if you like 
because we are going to do the oath here first.
    Let me ask you gentlemen please if you would raise your 
right hands.
    [Whereupon, Christopher Harris, Art Lopez, R. Wayne Hardie 
and Henry J. Vaux, Jr. having raised their right hands were 
first duly sworn by Chairman Doolittle as follows:]
    Do you solemnly swear or affirm under the penalty of 
perjury that the responses given and the statements made will 
be the whole truth and nothing but the truth.
    Mr. Harris. I do.
    Mr. Lopez. I do.
    Mr. Hardie. I do.
    Mr. Vaux. I do.
    Mr. Doolittle. Let the record reflect that each answered in 
the affirmative.
    We welcome you here gentlemen, and we will begin the 
testimony with Mr. Christopher Harris, Water Resources Program 
Manager for the Arizona Department of Water Resources.
    Mr. Harris.

   STATEMENT OF CHRISTOPHER HARRIS, WATER RESOURCES PROGRAM 
         MANAGER, ARIZONA DEPARTMENT OF WATER RESOURCES

    Mr. Harris. Thank you, Mr. Chairman and Members.
    My name is Chris Harris. I am here today representing Rita 
Pearson, the Director of the Arizona Department of Water 
Resources to provide the State of Arizona's perspective on H.R. 
3267, the Sonny Bono Memorial Salton Sea Reclamation Act.
    I would also like to request that a copy of my oral 
testimony be placed in the record, Mr. Chairman.
    Arizona is not objecting to the State of California's 
desire to develop a plan to address the long-term needs of the 
Salton Sea ecosystem, but it is Arizona's position that a well-
thought-out and scientifically valid plan which will not harm 
the water supplies or water quality of the other Colorado River 
Basin States or Mexico has the greatest opportunity for 
providing a lasting legacy of the late Congressman Bono's 
efforts to stabilize and restore the Salton Sea.
    I would like to discuss two major points regarding H.R. 
3267 for the Committee's consideration. These include the 
identification of potential sources of water for Salton Sea 
reclamation, and the difficulty of using Colorado River water 
for Salton Sea reclamation within California's Colorado River 
allocation.
    The passage of the Boulder Canyon Project Act in 1928 and 
the completion of Hoover Dam in 1935, led to the construction 
of numerous large dams and reservoirs on the Colorado River and 
its tributaries. These storage reservoirs allowed the Basin 
States and the Bureau of Reclamation to control flood flows, 
regulate the river, generate hydroelectric power and deliver 
water for downstream uses in agricultural, municipal and 
industrial sectors.
    Creation of this infrastructure has resulted in a permanent 
dependency on the water supplies of the Colorado River. Because 
of this dependency, a complex use and accounting system had 
evolved that has permitted the complete allocation of the Lower 
Basin's Colorado River Compact apportionment of 7.5 million 
acre feet. Based upon this accounting system, Arizona made the 
commitment necessary to ensure its long-term economic 
development through full utilization of its Colorado River 
allocation.
    Current demand on the Colorado River by the Lower Basin 
States is at an all-time high. Arizona is approaching full use 
of its 2.8 million acre foot apportionment, along with Nevada 
which is close to fully using their annual 300,000 acre foot 
entitlement. California's present consumptive use of Colorado 
River water is approximately 5.2 million acre feet per year, 
exceeding its basic apportionment of 4.4 annually by 800,000 
acre feet. Finally, the United States is also obligated, 
through international treaty, to annually provide Mexico with 
1.5 million acre feet.
    Consequently, there is currently 9.8 million acre feet of 
demand in the Lower Basin. Under the Law of the River, the 
Secretary is not authorized to deliver more than 9 million acre 
feet of water to the Lower Basin States and Mexico unless 
surplus conditions are declared. In 1998, the Secretary did 
declare surplus conditions, but this was an extraordinary event 
and is not sustainable over the long-term.
    Arizona's concern is that any additional demand in the 
Lower Colorado River Basin will increase the likelihood of 
shortage to Arizona's Colorado River water supply. This concern 
reflects the high-risk position assumed by a significant 
portion of Arizona's Colorado River allocation. In order to 
gain California's support for the construction of the Central 
Arizona Project in the 1968 Colorado River Basin Project Act, 
Arizona was required to accept the low-priority position for 
about 1.5 million acre feet of our Colorado River allocation.
    In that legislation, Arizona was required to subordinate 
CAP uses to California's basic apportionment of 4.4 million 
acre feet. During a shortage in the Lower Basin, cities and 
towns, Native American tribes and thousands of acres of 
croplands in central- and southern Arizona all supplied by the 
CAP, face a very real threat of having their water supplies 
seriously curtailed or halted.
    Title I and Title II of H.R. 3267 propose to reduce and 
stabilize the salinity and the surface elevation of the Salton 
Sea. We interpret this as pumping a substantial quantity out of 
the Sea and then attempting to dilute the remaining solution 
through the introduction of new water supplies. Arizona is 
concerned that the source of this water is not identified in 
the draft legislation.
    Currently, the Secretary of the Interior is not planning to 
make flood control releases during the referenced timeframes in 
Water Year 1998, nor are they anticipated in early 1999. It is 
Arizona's position that Congress should carefully consider the 
source of the water that is expected to be used and the 
timeframe to accomplish these goals.
    Perhaps Arizona's greatest concern is the preservation of 
the historic rights and obligations with respect to the 
Colorado River. The State of Arizona has suggested language 
that could strengthen H.R. 3267 in our written testimony on 
page 3.
    With the increased demand--Mr. Chairman, if you could give 
me about two more minutes I can wrap this up.
    Mr. Doolittle. That's fine.
    Mr. Harris. Thank you very much. With the increased demand 
upon the Colorado River system and the potential risks of 
shortage to the Colorado River Basin States the Secretary of 
the Interior requested that California initiate the development 
of a negotiated plan among its Colorado River water using 
agencies to reduce their annual use from 5.2 million acre feet 
to the basic apportionment of 4.4.
    The California ``4.4 plan'' proposes to reduce California's 
annual use of Colorado River water in two phases through the 
implementation of the following components: transfers of water 
from agricultural districts to municipal water providers in the 
South Coast region; transfer of seepage recovered from the All 
American and Coachella Canals; intensive management of surface 
and groundwater supplies; and Colorado River reservoir 
operating criteria which continue to make surplus water 
available.
    In order to effectuate these transfers, intensive water 
conservation programs will be required in the agricultural 
districts which will ultimately lead to reduced drainage flows 
into the Salton Sea and thereby increasing the Sea's salinity.
    Successful development and implementation of the 4.4 plan 
will require California Colorado River water users to make 
difficult decisions regarding reallocation or acquisition of 
supplies in order to meet the long-term demand in the State. 
Arizona supports this goal, but is concerned that the addition 
of Salton Sea reclamation through the programs proposed in H.R. 
3267, could result in an inability to reach consensus on the 
more immediate goal of completing the 4.4 plan. Not achieving 
this goal risks the long-term reliable supplies of Colorado 
River water for the other Basin States, particularly Arizona.
    To conclude, Arizona urges the Congress to amend H.R. 3267 
to accomplish the following:

          1. Identify all potential sources of water for the 
        Salton Sea Reclamation Project and consider the impacts 
        of using that water;
          2. Require explicit adherence to the current Law of 
        the River; and
          3. Require that any Colorado River water utilized for 
        the Salton Sea Reclamation Project must come from 
        within California's mainstream allocation of Colorado 
        River water.
    Thank you very much for the opportunity to address the 
Committee.
    Mr. Doolittle. Thank you.
    [The prepared statement of Christopher Harris may be found 
at end of hearing.]
    Mr. Doolittle. Our next witness will be Mr. Art Lopez, 
Chair of the Torres Martinez Desert Cahuilla Indians.

STATEMENT OF ART LOPEZ, CHAIR, TORRES MARTINEZ DESERT CAHUILLA 
                            INDIANS

    Mr. Lopez. Thank you, Mr. Chairman.
    It's a privilege to be a representative here of the Torres 
Martinez and to have the opportunity to testify before you here 
today.
    We are honored to address an issue that is of utmost 
importance to the Torres Martinez Cahuilla Tribe. H.R. 3267, 
the Sonny Bono Memorial Salton Sea Reclamation Act is a 
critically important acknowledgement of the dedicated efforts 
of the late Sonny Bono.
    The Cahuilla Indians support in principal the Sonny Bono 
Memorial Salton Sea Reclamation Act. My people believe this Act 
will focus the necessary public attention and direct the 
necessary financial resources to restore, preserve and 
ultimately protect the Salton Sea.
    In the process of focusing attention on the Salton Sea it 
is important that Congress include in any legislation its clear 
intent that all the key stakeholders be involved and have the 
opportunity to fulfill a meaningful role in the future of the 
Salton Sea. The Torres Martinez are a major stakeholder. Twelve 
thousand acres of our tribal land lies underneath the Salton 
Sea, and similar amounts lie adjacent to the Salton Sea. It is 
important that any Commission, Authority or decisionmaking 
bodies established under H.R. 3267 recognize the need for equal 
and active participation by the Torres Martinez.
    In restoring and reclaiming the Salton Sea the unique 
government-to-government relationship that exists serves to 
enhance our cooperative efforts. The Memorandum of 
Understanding referred to under Section 101, paragraph 5, item 
[A] should include the Torres Martinez Cahuilla Indians. Any 
solution implemented as a result to this bill will affect the 
Torres Martinez and our tribal lands for many years. The Torres 
Martinez have paid their dues.
    Finding a solution to the problem of the Salton Sea will 
require monumental scientific and engineering efforts. The 
Torres Martinez have waited for this kind of Congressional 
attention for many years, and we have always known that the 
Salton Sea is important. All we ask of you is to fully include 
the Torres Martinez in a leadership and a decisionmaking role, 
to fund our need for professional and scientific 
representation, to fund necessary scientific and engineering 
studies and activities so that the solutions are comprehensive 
and long-term and that you continue to show the leadership that 
you have thus far.
    Mr. Chairman, at this point I would like to comment that 
the 12,000 acres that we have underneath the Salton Sea, we 
would request that consideration be given in the future toward 
our 12,000 acres that have been inundated for 93 years.
    I thank you, Mr. Chairman, for the privilege and honor to 
testify today.
    Mr. Doolittle. Thank you very much.
    [The prepared statement of Art Lopez may be found at end of 
hearing.]
    Mr. Doolittle. Our next witness will be Mr. R. Wayne 
Hardie, Group Leader of Energy and Environmental Analysis at 
the Los Alamos National Laboratory.
    Mr. Hardie.

    STATEMENT OF R. WAYNE HARDIE, GROUP LEADER, ENERGY AND 
     ENVIRONMENTAL ANALYSIS, LOS ALAMOS NATIONAL LABORATORY

    Mr. Hardie. Thank you, Mr. Chairman.
    As you said, my name is Wayne Hardie, and I'm the Leader of 
the Energy and Environmental Analysis Group at Los Alamos 
National Laboratory which is operated by the University of 
California for the Department of Energy. Although Los Alamos is 
best known for its work in nuclear weapons, we have significant 
expertise and experience in environmental issues.
    The Laboratory was asked last May by the Congressional 
Salton Sea Task Force to provide technical support for the 
remediation of the ecological problems in the Salton Sea. Today 
I am going to report on how the results of our work in 
evaluation various concepts for addressing high salinity and 
variable water levels of the Sea relate to H.R. 3267.
    Los Alamos has examined the costs, salinity and sea level 
changes resulting from three remediation concepts, 
desalinization, pump in, pump out and diked impoundment and 
compared these results with no action. We have concentrated on 
performance and economic issues and have not evaluated 
ecological or institutional factors in this analysis.
    Due to anticipated water conservation for our analysis we 
assumed the inflow into the Salton Sea will literally decrease 
from the present flow of about 1.3 million acre feet per year 
to 1.0 million acre feet per year over a 20-year period. It is 
very important to note that the results are strongly influenced 
by this assumed inflow reduction. Similarly, using supposed 
excess Colorado River water could also have a major impact on 
the results.
    If no action is taken the Salton Sea will of course 
continue to increase in salinity from today's level of 44 parts 
per thousand. The Sea would reach a salinity level of about 60 
parts per thousand in about 15 years. Remember this is assuming 
water conservation. This is important because some believe that 
most fish can no longer live in water at this salinity level.
    If there were an expensive filtering or distillation method 
to remove salt from high salinity water desalinization would be 
an obvious solution to the problems of the Salton Sea. The 
process could be used to reduce the salinity of the water 
already in the Salton Sea or to desalinate ocean water being 
pumped from the Gulf of California as part of a pump in, pump 
out scheme. While desalinization can be used to produce fresh 
water for urban household use, in our opinion desalinization 
approaches to reduce the salinity of the Salton Sea would be 
prohibitively expensive.
    Another concept that has received attention consists of 
pumping water from an external source to the Salton Sea and 
pumping water from the Sea to an external location. The 
advantage of such a concept is that it has the potential to 
allow simultaneous control of salinity, elevation and surface 
area. The obvious source for pumping water is the Gulf of 
California which of course is at ocean water salinity. However, 
for this concept to be practical for salinity control without a 
reduction in the level of the Sea the salinity of the pump-in 
water needs to be considerably less than that of ocean water. 
If the pump-in water is at ocean water salinity very large 
quantities of water must be pumped, both in and out.
    Pump out achieves nearly the same result as pump in, pump 
out and at a much lower cost. Providing that a smaller Salton 
Sea by approximately 35 percent is acceptable, pump out should 
be considered as a viable option for the Salton Sea.
    One important issue that needs to be resolved with this is 
the destination of the pumped water. One frequently mentioned 
area is the Laguna Salada in Mexico. Technically this is 
feasible, but would entail reaching an agreement with Mexico. 
Another important issue with pump out is that the salinity 
level would increase for about 25 years, hitting a peak of 
almost 65 parts per thousand before decreasing.
    Another concept that has a potential for controlling 
salinity and elevation is the creation of in-Sea impoundment 
areas by diking. The primary disadvantage of diked impoundment 
is that part of the surface area in the Sea would be in an 
impoundment area which would contain very saline water. Fish 
would not be able to survive in the impoundment and in time 
this brine would precipitate salt.
    Using our assumptions on inflow volumes, an impoundment 
area of about 10 percent of the area of the Salton Sea would 
allow the Salton Sea to reach ocean salinity. An estimate of 
the cost of an earthen dike is about $300 million. However, 
such a dike would only provide salinity control and the Sea 
could ultimately be reduced in area by about 20 percent. A 
larger reinforced dike, which would really be a dam, with an 
impoundment area of almost 30 percent of the present Sea would 
be required to maintain the existing shoreline. A reinforced 
dike providing both salinity and elevation control would 
probably raise the capital cost by more than a factor of two.
    Based on our analysis we conclude that:

          First, desalinization is not a viable concept for 
        salinity and elevation control;
          Two, pump out is a feasible method for salinity 
        control, but the size of the Salton Sea could decrease 
        by approximately 35 percent, and further more the Sea 
        would continue to increase in salinity for about 25 
        years; and
          Three, diked impoundment could control salinity and 
        elevation if the dike is reinforced to serve as a dam. 
        If the dike is earthen the size of the Sea could 
        decrease by about 20 percent. In either case the 
        impoundment area would have high salinity water.
    The ecological and institutional consequences of various 
concepts need to be better analyzed before a final selection is 
made. Furthermore, the impact of anticipated water diversion 
from the Salton Sea and the possible use of supposed excess 
Colorado River water need to be factored into the decision.
    In summary, the options identified for consideration in 
H.R. 3267 appear to be the most feasible for reclaiming the 
Salton Sea. However, the elevation requirements in the proposed 
legislation could restrict the options. This is because the 
existing shoreline is the result of an equilibrium condition 
between historical inflows of about 1.3 million acre feet per 
year and evaporation, and meeting the elevation requirements 
with a substantially reduced inflow could be a considerable 
challenge to say the least.
    Thank you.
    Mr. Doolittle. Thank you.
    [The prepared statement of R. Wayne Hardie may be found at 
end of hearing.]
    Mr. Doolittle. Our next witness is Dr. Henry J. Vaux, Jr., 
Associate Vice President of the Division of Agriculture and 
Natural Resources at the University of California.
    Dr. Vaux.

    STATEMENT OF HENRY J. VAUX, JR., Ph.D., ASSOCIATE VICE 
  PRESIDENT, DIVISION OF AGRICULTURAL AND NATURAL RESOURCES, 
                    UNIVERSITY OF CALIFORNIA

    Mr. Vaux. Thank you, Mr. Chairman.
    As you say, my name is Henry Vaux, and I serve as Associate 
Vice President of the University of California System for 
Agriculture and Natural Resource Programs. I appear here today 
on behalf of California's Federal Water Resources Research 
Institute of which I formerly served as Director.
    At the outset I want to thank you, Mr. Chairman, for the 
opportunity to appear here this afternoon and ask that my 
written testimony be included in the record.
    The Federal Water Resources Research Institutes were first 
authorized by the Water Resources Research Act of 1964 and, as 
you are aware, that program has been reauthorized approximately 
every 5 years since. The program maintains Federal Water 
Resources Research Institutes at the Land-Grant Universities in 
each of the 50 States, in the District of Columbia and in the 
several Trust Territories. The broad purpose of the Institutes 
is to focus the collective research expertise of scholars in 
the nation's institutions of higher education on water problems 
at the local, regional and national levels. And to this end the 
authorizing legislation requires that the Institutes make their 
funds available to scholars at all institutions of higher 
education in their respective States and not just to those 
domiciled in the Land-Grant Universities.
    In my written testimony I make three points, and I want to 
briefly identify those points and elaborate on them here this 
afternoon.
    First, faculty researchers with interests in water 
resources at all of California's colleges and universities are 
eligible to compete for the Federal funds which the California 
Water Resources Research Institute awards.
    The Institute's role is to facilitate, coordinate and 
support research on water resources undertaken by all faculty 
in California irrespective of institutional affiliation. Over 
the last 10 years nearly all of the Federal dollars available 
to the California Institute have been awarded to faculty 
researchers on campuses other than the University of California 
campuses. Thus, for example, over the last 10 years funds have 
been awarded to faculty researchers at San Diego State 
University, at Humboldt State University, at California State 
University at Fresno, at the California Institute of 
Technology, and at Stanford University.
    The Institute is unique in that it maintains relationships 
with virtually all faculty with interests in water resources at 
all of California's colleges and universities, and the most 
recent edition of our directory of water resources expertise, 
which provides the number of those relationships, lists some 
986 faculty at 33 colleges and institutions all within 
California.
    My second point is that the role of the California Water 
Resources Research Institute is to identify the high-priority 
research topics; to ensure through peer review that the 
research is directed at those high-priority topics and is of 
the highest quality; and to engage in programs of research 
dissemination to inform other researchers, water managers and 
members of the public of the results of that research.
    The California Water Resources Research Institute does not 
itself conduct research. Rather, its role is to facilitate the 
conduct of research by faculty experts located at the State's 
colleges and universities. By performing its facilitation role 
the Institute helps to ensure that research on water resources 
in California is well coordinated, focuses on the most pressing 
topics and is of the highest quality. In addition, the 
Institute's activities help to avoid duplication of research 
efforts both within California and nationally.
    My third point is that the California Water Resources 
Research Institute is prepared to facilitate the development 
and conduct of any research or programs of research that the 
Salton Sea Research Management Committee may identify as 
necessary pursuant to the provisions of H.R. 3267.
    I want to emphasize as clearly as I can that our presence 
here today and our interest in the Sonny Bono Memorial Salton 
Sea Reclamation Act lies with ensuring that whatever research 
may emerge as a consequence of this Act is accomplished by the 
most qualified investigators and is of the highest possible 
quality.
    We believe that many important questions will emerge, and 
we stand prepared to assist local, State and Federal officials 
in identifying and framing those questions, should that be 
appropriate. We also prepared to make our offices available to 
ensure that only the highest quality research projects are 
funded and that all of our college and university researchers 
with interests related to the reclamation of the Salton Sea are 
afforded an opportunity to compete for whatever funds may be 
available.
    In closing let me thank you again, Mr. Chairman, for the 
opportunity to appear here today. Thank you.
    Mr. Doolittle. Thank you.
    [The prepared statement of Henry J. Vaux, Jr., Ph.D. may be 
found at end of hearing.]
    Mr. Doolittle. Let me ask one of you to comment on when we 
anticipate this, and I know it's just an estimate, when do we 
think this 200,000 acre feet per year water is going to be 
transferred over to San Diego? When is that expected to happen?
    Mr. Harris. Mr. Chairman, as I think I'm the only water 
buffalo up here let me take a shot at that. There is a 1988 
agreement between the Imperial Irrigation District and the 
Metropolitan Water District which I believe accounts for 
106,000 acre feet. The San Diego Imperial County Irrigation 
District proposed transfer is simply that. It is a proposed 
component of the California 4.4 plan. I believe that they have 
signed, if you will, a memorandum of agreement that they would 
like to advance the process. They are not yet actually moving 
water. I believe the State of California as part of the 4.4 
plan is attempting to put together a wheeling agreement with 
the Metropolitan Water District in order to facilitate moving 
that water through the Colorado River aqueduct to the South 
Coast region.
    Mr. Doolittle. Well in your testimony this would clearly 
negatively impact the Salton Sea, would it not?
    Mr. Harris. I believe it would, Mr. Chairman. I think it's 
clearly in the best management practices within the district to 
be more efficient in their use of Colorado River water, and we 
believe that this is a critically important component of the 
4.4 plan to make this transfer from a agricultural sector to 
the municipal sector, but I believe that the end result will be 
that there will be some diminishment of the current inflows 
into the Salton Sea.
    Mr. Doolittle. Which are already inadequate, and then we're 
going to add to that I gather the diminishment of the New River 
water flowing in as a result of Mexico's getting the 
reclamation plant we're building for them and then keeping and 
using the water.
    Mr. Harris. I think that's another concern that is 
obviously worth bearing in mind. My colleague just informed me 
that the proposed date I believe to start moving some of that 
water would be about 2008. They would start stepping it up, and 
I think the full transfer could be complete by then.
    Mr. Doolittle. When they go through that are they going to 
have to do their NEPA compliance and all of that?
    Mr. Harris. Yes, sir, they will.
    Mr. Doolittle. And is there no doubt that this negative 
impact on the Salton Sea will be brought out as they do those 
environmental studies?
    Mr. Harris. I would assume that in the scoping of issues 
that NEPA and CEQA both would be evaluating that.
    Mr. Doolittle. Isn't there a requirement for mitigation 
when there is an action to be taken that negatively impacts 
some other resource?
    Mr. Harris. I believe so, Mr. Chairman.
    Mr. Doolittle. Do you want to comment on that, Mr. Hardie.
    Mr. Hardie. Mr. Chairman, I testified that our calculations 
show that the Salton Sea would reach a salinity of 60 parts per 
thousand in 15 years under the assumptions of diversion. It 
would be more like 30 years without diversion.
    Mr. Doolittle. The first figure was, what, 15 years?
    Mr. Hardie. Fifteen years to hit 60 parts per thousand, and 
30 years to hit 60 parts per thousand without diversion.
    Mr. Doolittle. So I would gather this would be the basis 
for the local entities participating in some solution for the 
Salton Sea given the impact they're having on this.
    Mr. Vaux, you were telling us a little bit about the 
California Water Center. That Center receives no funding under 
this legislation, right?
    Mr. Vaux. That is correct.
    Mr. Doolittle. Could you tell us what function the Center 
has played regarding the use and coordination of the education 
institutions in California.
    Mr. Vaux. Well, as I have indicated, the Center has served 
as a coordinating body for all water resources research 
undertaken at the universities and colleges within California. 
It has done that primarily through the Federal program for 
which it has received appropriations since 1965, and in that 
connection it involves scholars on not only the UC campuses but 
other campuses in helping to establish with state and national 
officials a research agenda. Then we coordinate the research 
through a unified call for proposals, and the awards are the 
made on the basis of a fairly elaborate, but very concise peer 
review process which provides us with assurances of quality 
control, but on a very timely basis.
    Mr. Doolittle. What role has the Center had concerning 
Salton Sea research in recent years?
    Mr. Vaux. The Center has had various roles related to the 
Salton Sea research. I can't give you the exact number of 
projects, but out of a research portfolio of about 30 projects 
annually I would judge that between one and two of those 
projects in each of the last 10 years have been focused on 
problems, either generic problems or very specific problems, 
related to the Salton Sea.
    Mr. Tom Kirk mentioned earlier the work of Professor Stuart 
Hurlbut at San Diego State University on the Salton Sea, and if 
my recollection serves me correctly that was work on 
microorganisms in the Sea. That work was funded through the 
California Federal Water Resources Research Institute program.
    Mr. Doolittle. Thank you.
    Mr. Calvert is recognized.
    Mr. Calvert. Mr. Hardie, during your investigations of 
potential solutions to the problems of the Sea did you look 
into the concept of evaporation ponds?
    Mr. Hardie. Yes. As part of the diked impoundment?
    Mr. Calvert. To take evaporation ponds outside of the Sea 
and move them into either the eastern or western side of the 
Salton Sea.
    Mr. Hardie. That would basically be the same as a pump out.
    Mr. Calvert. If we were able to find a location to put 
evaporation ponds within several miles of the Sea, and we were 
able to pump out water, because right now how many thousand 
acre feet determines the flood stage now in the Sea? How much 
water should be pumped out to bring it to a stable elevation?
    Mr. Hardie. I can give you a few statistics here. There are 
7.5 million acre feet of water in the Salton Sea currently. In 
a normal year or an average year about 1.3 million acre feet of 
water enters the Sea. Now if you are asking how much has 
entered say in the past year--nobody is really measuring the 
water going into the Sea.
    Mr. Calvert. I guess the question is this. At the present 
time there is too much water in the Salton Sea and we're 
flooding out several farms in the area and some riparian 
habitat. How many hundreds of thousands of acre feet would have 
to be removed to bring it back to a reasonable level?
    Mr. Hardie. I don't have that number. I mean I could easily 
get it.
    Mr. Calvert. Just take a guess here today would you say it 
was over 250,000 acre feet?
    Mr. Hardie. He said a foot per 250,000 acre feet.
    Mr. Calvert. I'm just asking the question that if we were 
able to pump out water right now somewhere, say to evaporation 
ponds at the rate of 100,000 acre feet, and the inflow of water 
from the various locales, either from the New River, the Alamo, 
the Whitewater or whatever, remains the about a million three 
for the next several years, what happens to the salinity in the 
Salton Sea?
    Mr. Hardie. The salinity will go up. That would be 
basically my pump-out option, and the salinity will continue to 
increase for about 25 years.
    Mr. Calvert. So we would be pumping out water at 47,000 
parts per million into evaporation ponds as the water comes in 
at a million three hundred thousand acre per year.
    Mr. Hardie. Well I was assuming that it would decrease, 
that the amount of water coming in would decrease.
    Mr. Calvert. Even if the water remains the same for the 
next several years, and let's say the Imperial Irrigation 
District did not come to an agreement within the next 3 years, 
what would happen at that point? Would the salt remain the same 
or would it increase or decrease?
    Mr. Hardie. We did that calculation and I actually have it 
in my pile here. But if I remember right it would remain 
roughly the same, it would not increase very much, and then it 
would decrease.
    Mr. Calvert. Over time it would decrease?
    Mr. Hardie. Over time it would decrease and it would not go 
up nearly as fast or nearly as far as it would under diversion.
    Mr. Calvert. This is in the short run. And if during this 
period, and I want to get back because I think Mr. Hunter may 
want to ask this question, if we were able to get to flood 
stage water, flood stage meaning there is water going into the 
Sea of Cortez and you were able to bring in water from other 
sources into the Sea the salinity would go down, wouldn't it?
    Mr. Hardie. Right. In fact, there is a little rule of thumb 
here I can give you which is that for every hundred thousand 
acre feet that you replace with Colorado River water the 
salinity will decrease by about .6 parts per thousand. So if 
you had say 500,000 acre feet that you could magically take out 
of the Salton Sea and replace it with 500,000 feet of this 
excess Colorado River water that we've been hearing a lot of 
about, then that would be three parts per thousand. So it would 
go from 44 or 45 down to 42 or 43.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you.
    Mr. Hunter, do you wish to ask questions?
    Mr. Hunter. Thank you, Mr. Chairman.
    Just a short one I wanted to ask Mr. Harris. I presume you 
heard the representative from Nevada say that even if 
California was using its 4.4 million acre foot allotment, that 
if we had such a flood year that you had water physically 
overflowing the banks of the Colorado and going into the Sea of 
Cortez that nobody was using that it would OK if California 
used that to flush out the Salton Sea. Do you folks agree with 
that also?
    Mr. Harris. Congressman Hunter, we would be delighted if 
you used that water. It might help us in the Yuma region.
    Mr. Hunter. That's the only question I've got, Mr. 
Chairman. I know we've got another panel, and you've been 
really great at giving us plenty of time here today. So thank 
you.
    Oh, I wanted to thank Art Lopez, too, especially for being 
here as well. Sonny Bono really wanted you folks to play an 
integral part of what we do with the Sea, Art, and thank you 
for coming back and being with us.
    Mr. Lopez. Thank you.
    Mr. Hunter. And, Mr. Hardie, thanks for everything you guys 
are giving us. I think you're going to be with us for a while 
because we're going to have more technical questions for you.
    Mr. Hardie. I'm happy to help.
    Mr. Doolittle. Mr. Shadegg is recognized for his questions.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Gentlemen, I appreciate the information. I am a little bit 
confused about how damming off a portion of the Sea to make 
more saline that area in order to reduce the salinity of the 
other is a tremendous benefit, and perhaps somebody can explain 
that to me.
    However, while the technical members of the panel are 
thinking about that aspect of the question let me simply ask 
Mr. Harris, you said you have language in your prepared 
testimony. I would like you to draw the Committee's direct 
attention to that language and perhaps read it and explain why 
you think that needs to be added, in addition to which I think 
you were here this morning when the Chairman pointed out that 
at least he read it to say the Act does not alter the Law of 
the River, but in point of fact the way it's drafted it says 
the Section does not alter the Law of the River, and that 
change of wording from Section to Act would be a significant 
improvement, is that correct?
    Mr. Harris. That is correct, Congressman Shadegg. In effect 
the State of Arizona would be much more comfortable if this 
could be more explicit in the Act that the Act does comply with 
the historic rights and obligations of the Colorado River, and 
in fact we do offer language on page 3 of our written testimony 
which enumerates much, if not all, of that body of law that we 
call the Law of the River.
    Mr. Shadegg. And on that point I understand the four Upper 
Basin States have joined in the same language that we are 
requesting, is that correct?
    Mr. Harris. To my knowledge, that is correct, Congressman 
Shadegg. In fact, the Upper Colorado River Commission Executive 
Director, Mr. Wayne Cook will follow in the next panel and I 
believe he will make a similar suggestion.
    Mr. Shadegg. A similar or------
    Mr. Harris. In my understanding it is an identical request.
    Mr. Shadegg. Not the other point on Section versus Act.
    Mr. Harris. That would be appropriate in our mind that this 
Act should comply with the Law of the River.
    Mr. Shadegg. And the current language refers to just the 
Section rather than the Act.
    Mr. Harris. That is correct, Congressman.
    Mr. Shadegg. Thank you very much.
    Gentlemen, does anybody want to try to further elucidate me 
as to how that will work and why we aren't creating two eye 
sores instead of one or one eye sore to fix another one?
    Mr. Hardie. It seems a little weird, doesn't it.
    Mr. Shadegg. It does, yes.
    Mr. Hardie. But it works, and the reason it works is that 
first off I think we all agree that if you have water going 
into a body and only leaving by evaporation what is left is 
salt and it gets saltier and saltier. So if you had some way of 
removing the salt, then the salinity would decrease.
    Mr. Shadegg. Well the clearest thought there is a 
desalinization plant which, as I understand from your 
testimony, is impractical.
    Mr. Hardie. In my opinion it's very expensive. For example, 
nuclear reactors could provide electricity, but I think it's 
pretty impractical.
    Think of this impounded area as the ultimate repository for 
the water and the salt. Now it could be inside, it could be an 
internal impoundment area, or it could be some place else. What 
you have is water flowing from the outside into this 
impoundment area. So now you have salt leaving the area that 
you would like to be fresh. So it's really no difference. It 
could be internal impoundment or it could be external, but it's 
a way of getting water and therefore salt out of the area that 
you want to have at a lower salinity level, and it's being 
replenished by low salt water.
    Mr. Calvert. Would the gentleman from Arizona yield?
    Mr. Shadegg. Sure, but let me just summarize what I think 
you said, and then I would be happy to yield.
    What I think I understand you're saying is by creating a 
flow of water out of the one body you are reducing its salinity 
and you will thus raise the salinity in the other body of 
water, but you're not worried about that.
    Mr. Hardie. Well I'm not saying I'm not worried about it, 
but I'm just saying that is what will happen, and I think it's 
for other people to study whether that is a problem or not. 
Ultimately it will become so saline that the water will have to 
be pumped out. Now that could be 50 years or it could be 200 
years, depending on the configuration, but ultimately it will 
reach saturation.
    Mr. Shadegg. In the main body of the Salton Sea that you're 
removing water from and creating the flowing you will be able 
to reduce the salinity, but not make it fresh water.
    Mr. Hardie. Right. You could make it reasonably low, but 
not fresh water.
    Mr. Shadegg. If it were reasonably low would it be 
significantly more attractive either from an environmental 
standpoint or, more importantly, or as importantly for me a 
recreational standpoint?
    Mr. Hardie. Oh, I definitely think so because you could 
certainly get it at least to seawater salinity fairly easily.
    Mr. Shadegg. Mr. Calvert.
    Mr. Calvert. Thank you.
    What the gentleman was pointing out, Mr. Hardie, and 
something the Task Force has been talking about is not 
particularly having the impoundment within the Sea itself, but 
potentially have evaporation ponds several miles away from the 
Sea which would evaporate water at a faster rate and then would 
serve as the same basic concept as having an interior 
impoundment area hopefully for less money and would not have 
some of the negative connotations potentially as an interior 
impoundment.
    Mr. Shadegg. My time has run out, but with the Chairman's 
indulgence let me ask on quick followup question on that. If 
the second body of water which had flow into it but not flow 
out of it, in that body is it contemplated that you might make 
that a large land area with a very shallow body of water and 
thereby increasing the rate of evaporation?
    Mr. Hardie. I'm sorry, in the second body of water?
    Mr. Shadegg. Yes, so you wouldn't have to ultimately pump 
that water out.
    Mr. Hardie. Well from point of view of the Salton Sea it's 
just gone. Now there is a negative impact of that, however, in 
that the level of the Salton Sea will be reduced significantly 
under pump out. So it's not a simple solution. I mean all of 
these options have advantages and disadvantages.
    Mr. Shadegg. And it will be a tough problem and therefore 
costly.
    I thank the members of the panel, and I thank the Chair for 
his indulgence.
    Mr. Doolittle. Could I just ask, if you do pump this water 
out some place somewhere else, either Laguna Salada or in the 
gunnery range or in an internal impoundment, what's going to 
keep them out of those areas so will we not continue to have 
waterfowl problems?
    Mr. Vaux. Yes. I'm not an expert in this area, but I know 
enough about it to know that short of putting a net over the 
water body it's simply impossible to keep migratory birds off 
the water.
    Mr. Doolittle. Yes, Mr. Hardie.
    Mr. Hardie. I'm not a waterfowl expert, but I think the 
problems you have with the waterfowl is the waterfowl eating 
the sick fish because I mean I don't hear any problems with 
waterfowl in the Great Salt Lake, for example.
    Mr. Doolittle. OK. So we presume there wouldn't be fish in 
this place the water flows into.
    Mr. Hardie. There won't be fish there very long. So that 
doesn't strike me as a big problem.
    Mr. Doolittle. Mr. Lopez, I understand there are other 
tribes interested in this legislation. Could you shed any light 
on that as to what their views might be or who the tribes are?
    Mr. Lopez. Well the only interest the other tribes might be 
considering is help fund some of our activities. We are going 
to present this to some other tribes. The only tribe down in 
that area that has ancestral rights are the Torres Martinez 
Indians.
    Mr. Doolittle. Is there a Kavizon Tribe down there and do 
they believe they have interests in this?
    Mr. Lopez. I haven't heard from them personally, but that 
sphere of tribal occupancy is Torres Martinez. The Kavizon 
Tribe is north of us, and as far as I know I've never heard of 
their having any right down in that area.
    Mr. Doolittle. And you don't know of any interest they have 
expressed in the legislation?
    Mr. Lopez. No, not at this time.
    Mr. Doolittle. Is your tribe looking to connect this 
legislation to your water rights settlement?
    Mr. Lopez. I would like to see consideration toward our 
settlement, and I don't want to have any hindrances to this 
bill with our settlement.
    Mr. Doolittle. How much money are you seeking in the 
settlement?
    Mr. Lopez. Well we are asking for 93 years of unused land, 
the money that could have been generated off of that. A study 
on that was I think $1.3 billion of loss of revenue. You know, 
we used agriculture numbers in that area. Well, we're not 
asking that amount of money. We are asking for $100 million for 
a recovery fund that would be put into the government's banks 
and we would draw interest off of that, by putting so much a 
year away for us that we could draw interest and that would be 
sufficient for us to do some kind of economic development that 
would help us participate in that area of development.
    Mr. Doolittle. But you are then seeking $100 million in the 
water rights settlement?
    Mr. Lopez. Right, plus I believe there is $14 million 
already on the table that has been there for a number of years. 
The Chairman prior to me had a bill go through and that $14 
million--the bill didn't go through, but the $14 million was 
delegated I believe.
    Mr. Doolittle. Mr. Harris, it was mentioned in your 
testimony that programs costing millions of dollars will 
compete with other programs, and I just wondered how you 
believe that this program along with all the others, is going 
to compete for a limited amount of money?
    Mr. Harris. Well I think that's the point I tried to make 
in my written testimony. I believe that this is an issue within 
the State of California alone, and I'm not totally one hundred 
percent up on all of the programs you have, but clearly you've 
got some big ones. You've got the big CalFed process underway, 
I believe there are more salmon stocks that are in the process 
of being evaluated for listing right now, which undoubtedly 
will lead to additional programs, you have the NCCP process in 
the South Coast region, several large HCPs and now Salton Sea 
Reclamation all kind of competing, not only within the State of 
California, for both water and fiscal resources and staffing 
resources, but now you're also competing with similar programs 
in the Colorado River Basin and the rest of the Western United 
States. There is a very large recovery program for native fish 
in the Upper Colorado River Basin, and I believe there is 
legislation that is being put forth or developed right now to 
fund that program for another 10 years. In the lower Colorado 
region, there is a tri-State effort between California, Arizona 
and Nevada on the Lower Colorado River Multi-Species 
Conservation Program, and I believe that's going to be 
significantly costly over the long haul as well.
    So my sort of note of caution was that I think we've got a 
big picture here that we've really got to look at. We've got 
limited resources and fiscal austerity within our States as 
well as at the National Government, and I think that we've got 
to be very careful that we get the most bang for our buck.
    Mr. Doolittle. Thank you.
    Does any other Member up here want to ask further 
questions?
    [No response.]
    Mr. Doolittle. Gentlemen, thank you very much for your time 
and contribution. We perhaps will have other questions which 
will be submitted in writing, but for now we will excuse this 
panel and call up the fourth and final panel.
    [Questions to be submitted to be responded to for the 
record may be found at end of hearing.]
    Mr. Doolittle. If you gentlemen will raise your right 
hands.
    [Whereupon, Wayne E. Cook, Leon Lesika, Stephen Weber and 
Evan M. Hirsche raised their right hands and were first duly 
sworn by Chairman Doolittle as follows:]
    Do you solemnly swear or affirm under a penalty of perjury 
that the statements made or testimony given will be the whole 
truth and nothing but the truth.
    Mr. Cook. I do.
    Mr. Lesika. I do.
    Mr. Weber. I do.
    Mr. Hirsche. I do.
    Mr. Doolittle. Let the record reflect that each answered in 
the affirmative.
    Thank you very much. We appreciate your patience and 
waiting until this time.
    We will have testify first Mr. Wayne E. Cook, Professional 
Engineer and Executive Director of the Upper Colorado River 
Commission.
    Mr. Cook.

  STATEMENT OF WAYNE E. COOK, P.E., EXECUTIVE DIRECTOR, UPPER 
                   COLORADO RIVER COMMISSION

    Mr. Cook. Thank you, Mr. Chairman, and Members of the 
Committee. My name is Wayne Cook and I am the Executive 
Director of the Upper Colorado River Commission.
    On behalf of the Upper Basin States of the Colorado River 
Basin we thank you for the opportunity to provide written 
testimony for your March 12, 1998 hearing on H.R. 3267, the 
Sonny Bono Memorial Salton Sea Restoration Act.
    The Upper Colorado River Commission is an interstate 
administrative agency created by the Upper Colorado River 
Compact in 1948. The member States of the Commission are 
Colorado, New Mexico, Utah and Wyoming. Among other things, 
this Commission represents the Upper Basin States in 
consultations with the Secretary of the Interior on matters 
pertaining to the operations of the Colorado River.
    The Upper Basin States do not object to the goal of 
stabilizing the Salton Sea, either its salinity level or the 
content. We are concerned, however, that H.R. 3267 as it is 
presently introduced is unclear on what role the Colorado River 
may play in such stabilizing activities.
    For instance, Section 101[b] paragraphs 1 and 2 suggest 
stabilizing the salinity level between 35 and 40 parts per 
thousand and the surface elevation at 240 to 230 feet below sea 
level. Such goals could perhaps jeopardize implementation of 
the California 4.4 plan currently being negotiated by the 
Southern California water agencies. California must restrict 
its current Colorado River uses to stay within its normal water 
limitation of 4.4 million acre feet of Colorado River water.
    The proposed 4.4 plan envisions conservation of water in 
the Imperial Irrigation District and other agricultural areas 
for transfer to the Metropolitan Water District for use in 
keeping aqueduct full. Such conservation measures may 
significantly reduce inflow to the Salton Sea perhaps by 
several hundred thousand acre feet. Any successful Salton Sea 
legislation must not jeopardize that goal.
    Section 101[c] paragraph 2[A] suggests augmented flows into 
the Salton Sea. Such flows could be imported sea water or 
Mexicali Valley return flows, but the direct use of Colorado 
River water for this purpose would be generally precluded by 
the Law of the River.
    Section 101[f] paragraph 1 regarding reclamation laws to 
the Upper Basin States is somewhat disquieting. We are not sure 
that we know what this section is intended to accomplish. We 
only ask the question why do we preclude this project from 
planning criteria, benefit-cost analysis, discharge permitting, 
ESA and other things. Doing so seems to set a dangerous 
precedent.
    Section 101[f] paragraph 2, as Chris Harris pointed out in 
his testimony on the last panel, needs to be strengthened and 
we have some suggested language, which in the interest of time 
I will not read, but it's in our written testimony. We believe 
that this language better describes and fully lays out the 
compilation of Acts that make up the Law of the River, and we 
would ask for that language to be inserted in any further 
drafts.
    We are also concerned about the language in Title II under 
the Emergency Actions to Stabilize the Salton Sea. Section 
201[b] paragraph 2 suggests water will be available in late 
1998 and/or early 1999. Again as Mr. Harris testified 
previously, the source of this water is not identified, but 
under the present plans approved for operations of the Colorado 
River for water year 1998 and projected 1999 there is no water 
available from the Colorado River for such purposes in the 
Salton Sea. If this section contemplated use of the Colorado 
River for emergency purposes in 1998 or 1999 it must be 
rewritten to exclude use of Colorado River water.
    We thank you for the opportunity to appear this day and 
would be ready to answer any questions that you might have. 
Thank you.
    Mr. Doolittle. Thank you very much.
    [The prepared statement of Wayne E. Cook may be found at 
end of hearing.]
    Mr. Doolittle. Our next witness will be Mr. Leon Lesika, 
Executive Director of Desert Wildlife Unlimited.
    Mr. Lesika, it's nice to see you here in Washington. We 
enjoyed having the field hearing and having the opportunity to 
examine some of your important work out there at the Salton 
Sea.

 STATEMENT OF LEON LESIKA, EXECUTIVE DIRECTOR, DESERT WILDLIFE 
                           UNLIMITED

    Mr. Lesika. Thank you, Mr. Chairman.
    It is a pleasure to be here today and testify regarding the 
water cleanup for the Alamo and New Rivers. We propose using 
existing technologies and proven designs to improve the quality 
of water flowing into the Salton Sea. Imperial County is 
located adjacent to Mexico in the extreme southeast corner of 
California. The New River starts in Mexico and runs through the 
city of Mexicali whose population is in excess of one million 
people.
    Based on polluted water samples collected from the New 
River at the border the river has earned the title of the most 
polluted river in the United States. The New River travels 
about 50 miles north from the international border and empties 
into the Salton Sea. From Mexico the rivers carries untreated 
and undertreated human and industrial waste. The New River also 
receives agricultural drain water containing pesticides and 
chemical fertilizers from farms in the United States and 
Mexico.
    The Alamo River does not have the same level of human and 
industrial wastes as the New River, but does receive 
agricultural waste on both sides of the border. Mexico with the 
assistance of the United States is in the process of building a 
waste water treatment plant.
    In June 1997 Congressman Duncan Hunter formed the Citizens 
Congressional Task Force on the New River to begin a grassroots 
effort to address the problems of drain water on the New and 
Alamo Rivers. He asked me to head this Task Force and in a weak 
moment I agreed. We formed a group which includes 
representatives from the U.S. Fish and Wildlife Service, the 
U.S. Geological Survey, the U.S. Bureau of Reclamation, the 
California Department of Fish and Game, the California Regional 
Water Quality Control Board, the University of California at 
Riverside, the University of California Polytechnic at Pomona 
and the University of Baha, California. Local representation 
includes the County Board of Supervisors, the Administration 
Office, the Agricultural Commission, the Fish and Game 
Commission, Imperial Irrigation and Imperial Valley College. We 
have also received support from many volunteer groups, such as 
Desert Wildlife Unlimited, Boy Scouts of America, local school 
districts and others too numerous to mention.
    Since June the Task Force members have developed a pilot 
plan to address these serious water quality issues on the 
American side of the border. We are using proven technologies 
known as bioremediation to improve water quality. This plan 
includes a series of ponds for sedimentation and wetland 
vegetation that will remove contaminants before the river 
empties into the Salton Sea some 50 miles away.
    To my left over here is a prototype on a 68-acre parcel 
that the Bureau of Reclamation is doing the engineering on at 
the present time. This is actually four-pond system. The water 
comes out of a drain ditch and goes into a sediment pond, comes 
back into a ditch and then goes into another vegetative pond, 
back into a ditch, then into another vegetative pond and so 
forth, through all four. This particular system if we have a 
problem in any one given pond we can bypass it by cutting off 
the pond and circumventing it with the ditch. So that is one of 
the prototypes for our first two series.
    The Task Force has formed a subcommittee that is working on 
a design that will monitor their project to evaluate the 
efficiency and success of the cleanup process. We are all very 
confident that this proposed project will be effective in 
improving the water quality of the Salton Sea ecosystem. Other 
benefits include improved habitat for endangered species such 
as the Yuma clapper rail, the Southwestern willow flycatcher as 
well as recreational opportunities, such as hiking, bird 
watching, camping, fishing and hunting.
    Efforts to save the Salton Sea cannot be effective if we do 
not clean up the water that contaminates it first.
    Thank you for the opportunity to speak to you today.
    Mr. Doolittle. Thank you very much.
    [The prepared statement of Leon Lesika may be found at end 
of hearing.]
    Mr. Doolittle. Our next witness will be Mr. Stephen Weber, 
President of San Diego State University, Salton Sea University 
Research Consortia.
    Mr. Weber.

   STATEMENT OF STEPHEN WEBER, PRESIDENT OF SAN DIEGO STATE 
      UNIVERSITY, SALTON SEA UNIVERSITY RESEARCH CONSORTIA

    Mr. Weber. Mr. Chairman and Members of the Subcommittee, 
thank you for the invitation to appear today on behalf of the 
Salton Sea University Research Consortium.
    I am proud to represent my fellow colleagues, California 
University, Riverside Chancellor Raymond Orbach and President 
James Appleton of the University of Redlands. Our Consortium 
strongly supports the Sonny Bono Memorial Salton Sea 
Restoration Act.
    The University of Redlands, the University of California, 
Riverside and San Diego State University have joined forces to 
form the Salton Sea University Research Consortium in order to 
address the environmental problems at the Salton Sea in an 
integrated, timely and efficacious manner.
    The complexity of issues surrounding the Salton Sea 
requires research approaches that consider the biological and 
ecological systems of the Sea, the regional hydrology, the 
chemistry of soil and toxic substances as well as potential 
bio-remediation and engineering solutions. We must also take 
into account the economic issues, the agricultural interests 
and the human cultural and social concerns of the Salton Sea 
region and the Lower Colorado River Basin. The role of the 
Salton Sea University Research Consortium will be to help 
provide policymakers with informed research grounded in years 
of onsite scientific investigation of the Salton Sea and its 
ecosystems.
    Our Consortium offers the full spectrum of expertise 
necessary to grapple with the difficult questions and the 
difficult decisions which must be made in real time.
    Approximately 25 faculty members at the University of 
California, Riverside have expertise addressing issues facing 
the Salton Sea. San Diego State University's Center for Inland 
Waters includes more than 20 faculty and researchers who have 
conducted, as you heard earlier today, long-term studies at the 
Salton Sea and its surrounding basin. The University of 
Redlands has just received the first half of a $2 million 
appropriation to establish a Salton Sea Bioregional GIS data 
base which will consolidate existing data. Our combined 
universities have extensive expertise in this area. We believe 
that timely access to this knowledge is vital to the Salton Sea 
restoration efforts.
    The University Research Consortium is made up of three 
universities in close proximity to the Salton Sea. Our faculty 
have been working in teaching courses at the Sea and in the 
surrounding basin for more than 20 years. Recent research 
results include an analysis of the dynamics of several kinds of 
toxic algae we have discovered there. We also have gathered the 
first comprehensive data on nutrient levels in the Salton Sea 
since the 1960's and have discovered several new fish parasites 
which are implicated in the massive fish die-offs. We are 
collaborating with the Bureau of Reclamation on a 
bioremediation project on the New River.
    Members of the Consortium have considerable experience 
managing large-scale research projects and coordinating with 
other State and Federal agencies as well as with other 
universities. The salinity/drainage program of the University 
of California manages extensive research activities at the 
Kesterson Reservoir, a situation very comparable to the Salton 
Sea. San Diego State University's extensive work on arid-lands 
agriculture and salinity problems in the Middle East has direct 
applications to the problems faced at Salton Sea.
    Through the Southwest Center for Environmental Research and 
Policy a federally funded consortium of five U.S. universities 
and four Mexican universities we have conducted applied peer-
reviewed research to find solutions to many of the 
environmental problems that affect the border region. We 
propose to bring a California solution to a California problem.
    We are pleased to learn that Section 102 of the proposed 
bill calls for the establishment of the Salton Sea Research 
Management Committee. The Consortium strong endorses this 
initiative because it will bring together the diverse areas of 
expertise that are needed to address, and to solve in real 
time, the complex issues facing the Salton Sea.
    Given the previous discussion about peer review, we 
strongly support the statement on page 10, line 17 of the bill 
which requires, and I quote ``studies under this section are 
subjected to peer review.'' Give our research expertise coupled 
with our geographical proximity to the Salton Sea the 
University Research Consortium is in a unique position to in 
the language of the bill, and I quote again, ``help select the 
topics of study and manage those studies.''
    The University Research Consortium has identified a number 
of ways that it can be assistance.
        <bullet> Coordinating research efforts;
        <bullet> Collecting, maintaining and updating 
        information;
        <bullet> Developing and conducting peer-reviewed 
        research;
        <bullet> Advising and reporting to Congress on the 
        progress of the cleanup;
        <bullet> Constructing and managing research stations on 
        and near the Salton Sea; and
        <bullet> Providing long-term monitoring.
    In short, our universities have substantial expertise in 
scientific endeavors related to the Salton Sea, in managing 
large regional, national and international programs, in forming 
and implementing consortia, and in providing an objective peer-
reviewed, science-based perspective on complex issues.
    I have additional information about our faculty research 
capabilities and publications which I will submit for the 
record.
    We look forward to working with the Federal Government, the 
Salton Sea Authority, the State of California and all 
stakeholders in addressing the critical environmental problems 
of the Salton Sea.
    Our Consortium is dedicated to bringing the best expertise 
available to preserve this unique resource.
    Thank you.
    Mr. Doolittle. Thank you.
    [The prepared statement of Stephen Weber may be found at 
end of hearing.]
    [The additional information to be supplied may be found at 
end of hearing.]
    Mr. Doolittle. Our next witness is Mr. Evan Hirsche, 
Director of the National Wildlife Refuge Campaign, National 
Audubon Society of California.
    Mr. Hirsche.

   STATEMENT OF EVAN M. HIRSCHE, DIRECTOR, NATIONAL WILDLIFE 
           REFUGE CAMPAIGN, NATIONAL AUDUBON SOCIETY

    Mr. Hirsche. Mr. Chairman and Members of the Subcommittee, 
my name is Evan Hirsche, Director of the National Audubon 
Society's Wildlife Refuge Campaign.
    I want to thank you for the opportunity to provide you with 
our views on H.R. 3267, the Sonny Bono Memorial Salton Sea 
Reclamation Act. We appreciate the Committee's interest in 
honoring the late Representative Bono by promoting a solution 
to the ecological crisis occurring at the Salton Sea.
    The mission of the National Audubon Society representing 
more than 67,000 Californians and more than 550,000 Americans 
nationwide is to conserve and restore natural ecosystems 
focusing on birds, other wildlife and their habitats for the 
benefit of humanity and the earth's biological diversity.
    Mr. Chairman, what is happening at the Salton Sea is 
nothing short of an environmental Chernobyl. Indeed, what is 
widely considered one of the most important areas for birds in 
the Pacific Flyway is fast becoming an avian graveyard. How we 
respond to this crisis will have broad ramifications for people 
and ecosystems far beyond the scope of our immediate interests.
    The Salton Sea Refuge was established in 1930 for the 
purpose of providing wintering and spring migration habitat for 
birds. The refuge today provides vital wintering habitat for 
some of the largest concentrations of migratory waterfowl, 
shorebirds and passerines in the Nation and provides important 
habitat for the endangered Yuma clapper rail. More than 380 
species call this unlikely alcove in the Southern California 
desert their home as they travel between points as far south as 
Antarctica and as far north as the Arctic.
    In spite of the area's tremendous ecological value, massive 
die-offs of birds and fish have occurred in recent years. In 
the past 5 years alone more than 250,000 birds have died from 
outbreaks of botulism, Newcastle disease and other undiagnosed 
causes. As we speak, an outbreak of fowl cholera is 10 weeks 
running and has already killed an estimated 8,000 to 23,000 
birds representing 54 species. What is happening at the Salton 
Sea is nothing short of an ecological disaster.
    The importance of enacting legislation to address the 
problems of the Salton Sea cannot be overstated. H.R. 3267 is a 
bold, innovative initiative that makes a good-faith effort to 
reach a solution to the crisis. We are concerned, however, that 
this legislation seeks to accomplish a great deal without a 
full and accurate accounting of all expected outcomes.
    We have four main concerns with H.R. 3267:

          First, we believe the timetable for identification 
        and review of alternatives is too short;
          Second, we believe that the scope of options under 
        consideration should be expanded;
          Third, we object to any exemption of administrative 
        and judicial review; and
          Finally, we are concerned about pumping water from 
        the Sea without a full accounting of disposal impacts.
    Concerning the timetable for review, H.R. 3267 proposes a 
12-month timeline to complete feasibility studies for a series 
of complex options described as cost effective by the Bureau of 
Reclamation. Even under the most optimistic circumstances this 
timeline is unrealistic and may result in costly mistakes or 
missed opportunities. While we certainly agree that it's 
possible to study an issue almost without conclusion, we have 
equal concerns about hastily adopting an alternative or series 
of alternatives without having a better sense of the likely 
outcomes.
    Concerning the scope of options, we must all recognize 
there is no silver bullet solution to the problems facing the 
Salton Sea. H.R. 3267, however, limits the feasibility study to 
just four options, excluding a variety of others. The four 
options identified in this legislation were adopted from the 
1997 Bureau of Reclamation's volume entitled Alternative 
Evaluation which reviewed 54 alternatives. Rather than 
selecting alternatives with the best likelihood for success, 
the BOR selected their alternatives based on four criteria, one 
of which was $10 million or less in annual operating costs. The 
obvious inadequacy here is that, and I quote from the report, 
``The alternatives did not address what would be done with the 
salts or how much the disposal cost would be if disposal were 
necessary.'' Without knowing the cost for salt or brine 
disposal the $10 million ceiling may be unrealistic even for 
the five retained alternatives.
    Concerning exemption from administrative and judicial 
review, the National Audubon Society is strongly opposed to 
provisions in the H.R. 3267 that seek to limit environmental 
oversight and public participation. Specifically Section 
101[f][3][A] would exempt activities associated with 
implementation of a selected alternative from meeting the full 
requirements under NEPA. While we appreciate the authors' 
interest in expediting actions to rectify the crisis in the 
Salton Sea, we firmly believe that the full NEPA compliance 
should be applied to the selection and implementation of 
alternatives.
    Likewise, we have concerns about Section 104[c] which 
exempts river reclamation activities from having to meet 
Section 402 requirements under the Federal Water Pollution 
Control Act. I would just add here that based on what I've 
heard today much of what was explained earlier in testimony is 
reaching us for the first time and we are withholding our 
judgment on how we feel about that particular program pending 
further edification.
    We also have concerns about Section 101[f][e][B] which 
limits judicial review of the chosen alternative. Despite the 
urgency of implementing a remedy, we should not sacrifice the 
legal rights of U.S. citizens to accomplish our goals.
    Finally, we have concerns about pumping brine from the 
Salton Sea. Title II of H.R. 3267 requires that the Secretary 
of the Interior begin pumping water from Salton Sea prior to 
December 1, 1998 to accommodate water diversions from 
unidentified sources. We object to this provision for several 
reasons.
    First, Title II appears to bypass necessary environmental 
oversight mandated under NEPA. The ecological impacts of brine 
disposal, particularly on the scale addressed by the bill, are 
expected to be enormous. A full review of the disposal plan and 
an opportunity for the public to comment will be critical.
    Second, if it is desired to import surplus water from the 
Colorado River to the Sea, the legal mechanism by which this 
can be accomplished needs to be identified. Again, we 
appreciate the need to expedite remediation, but we strongly 
believe that any such efforts must comply with Federal and 
State environmental regulations.
    In concluding, the National Aubudon Society appreciates the 
efforts of the Committee and the sponsors of H.R. 3267 to 
quickly address the crisis at the Salton Sea. Although there 
are a number of provisions in the bill that we object to, we 
are supportive of the overall intent to find and implement a 
solution in the least amount of time possible. We hope the bill 
can be amended to address our concerns, and we look forward to 
working with the Committee as we move forward with this 
important legislation.
    That concludes our testimony.
    Mr. Doolittle. Thank you.
    [The prepared statement of Evan Hirsche may be found at end 
of hearing.]
    Mr. Doolittle. Mr. Weber, does your Consortium have a 
financial interest in this project?
    Mr. Weber. The universities we represent may very well 
submit proposals, but they would be through independent peer 
review.
    Mr. Doolittle. But does it concern you that, under at least 
the wording of the bill, while they have an interest in getting 
the research they are also part of the selection process for 
determining the board that will determine these studies and 
manage these studies? Does that seem to you as a conflict of 
interest?
    Mr. Weber. If I understand the language of the bill it says 
that the Salton Sea Research Management Committee shall select 
the topics of study. We believe that an informed presence by 
universities that have been researching in this area for many 
years will be helpful in determining the most relevant topics 
of studies under the section and then managing them, but they 
will not directly award those contracts. That is, Mr. Chairman, 
on page 9, line 20 I believe.
    Mr. Doolittle. Right. The committee shall select the topics 
of studies under this section and manage those studies. I mean 
that Consortium is likely to get some of that research in any 
event, and doesn't it put you in a situation where you could be 
accused of self-dealing if you're on the committee that manages 
these studies and selects the topics of the studies?
    Mr. Weber. I think there are two possibilities here. Either 
contrary to the language of the law you would imagine the 
Management Committee actually letting the contracts and not 
using peer review, in which case there would clearly be a 
conflict of interest and, frankly, I think you would all 
rightly be suspect of the quality of science that might be a 
consequence of that. But under this bill there are clear 
provisions for peer review so there is no conflict there. We 
are constantly working with Federal agencies in this 
relationship.
    Mr. Doolittle. Can you describe how that peer review would 
work. Take the language of the bill and tell me how it is that 
peer review works and how this would all operate.
    Mr. Weber. It could work in several different ways. It 
could work through the Department of the Interior, or it could 
work through Water Resources that testified on the panel before 
us. There are many ways in which panels of independent experts 
and academics from other universities around the country are 
impaneled together, provide a call for proposals, and various 
universities that believe they have expertise to contribute 
then bring forward proposals, and that independent jury selects 
the ones that they think will be most efficacious.
    Mr. Doolittle. As opposed to the Management Committee 
itself you mean.
    Mr. Weber. I read that as the clear intent of the bill.
    Mr. Doolittle. Mr. Lesika, I have a question for you, and 
if people here don't know, I'm going to ask this to some of the 
other people who testified before. When the sewage treatment 
plant is built in Mexicali, and they're going to take a large 
portion of the water to reuse, and then San Diego takes its 
200,000 acre feet of water out of Imperial, of the total annual 
inflow into the Salton Sea, do you know how much of that water 
will be reduced by those two events?
    Mr. Lesika. Well there are apparently two positions on 
this, whether Mexico will pump back this water south and use it 
or they will not. But apparently about a third of the water 
that comes across the border is what goes into the Salton Sea. 
So if they did pump back the water to the south and used it for 
agriculture you would lose a third of the water immediately. 
The amount pumped to San Diego, I don't know exactly what 
percentage that would be. But, yes, that would reduce the 
inflow considerably right there, and particularly if 
conservation by the agricultural community was also tightened 
up considerably you could possibly lose another percentage 
there.
    Mr. Doolittle. So the very bad situation we have now 
relative to the salinity and so forth could be made 
substantially worse by those two events, is that your 
understanding?
    Mr. Lesika. Yes. Of course I grew up in Imperial County and 
I actually lived where the Salton Sea is about eight foot deep 
now. So I kind of could see what would happen if this inflow 
was reduced say by 40, 50 or 60 percent. It would probably go 
back to the 1930 or the 1940 level. It would probably kill most 
everything there because of the salinity, but then there would 
be a possibility at that time that it could be reborn by 
reducing the salt by evaporative ponds.
    Mr. Doolittle. So, even if it should become a total dead 
sea, it doesn't preclude a solution from reviving it then is 
what you're saying.
    Mr. Lesika. Well that's my own personal opinion, and I 
probably shouldn't comment on it.
    Mr. Doolittle. I know you're seeking to prevent that from 
happening in the first place and let's hope it doesn't happen.
    This is a question for Mr. Hirsche. You seem to acknowledge 
that there is a grave crisis here, and I just wonder, you're in 
support of the general objective of the bill, but are opposed 
to the specifics. I'm just interested, is there ever in your 
mind or in the mind of the organization you represent an 
emergency sufficiently acute to justify acting in a short 
amount of time and circumventing protocol based on the 
emergency the lengthy requirements of the environmental laws?
    Mr. Hirsche. Off the top of my head I can't think of one. I 
would say with respect to this particular situation the 
proposals that have been thrown out and the timelines that have 
been thrown out as feasible to conduct the full engineering and 
environmental studies, I think we're talking about a 6-month 
difference between this bill and what Interior is willing to 
accept and what the National Aubudon Society is willing to 
accept. If we are talking about a timeline of 15 years before 
the Sea is dead, I think 6 months is adequate time to allot to 
a proper NEPA process and the conducting of engineering 
studies.
    Mr. Doolittle. You know, if it's only 6 months that's one 
thing, but having been involved extensively in oversight over 
the implementation of the CVPIA, you know, they've taken two 
and three times as long as what the representation was, and in 
some cases we still don't have the answer even to this day.
    So I'm a little concerned, and if I had more time I would 
have addressed that question to the witness for the Department 
of the Interior, but it's entirely foreseeable, and indeed I 
would venture to guess it's almost likely that they won't get 
it done in the 18 months. So we're really talking about 2 years 
or 3 years. I don't know how long we're talking about. I think 
that's the concern of the authors of the bill and why they want 
a shorter time period. I think if we all felt comfortable that 
it really was going to happen in 18 months I suspect that would 
be an easy compromise to make.
    Mr. Hirsche. Mr. Chairman, my understanding from 
discussions with some of the folks over in Interior is that 
they are already moving on some of these things in advance of 
the enactment of legislation which adds to obviously the amount 
of time to conduct the appropriate studies. The National 
Aubudon Society wants to represent its position in good faith. 
If it can be done in 18 months, we hope it can be done in 18 
months. This really comes down to the agencies though to give 
us a fair and reasonable accounting of the timeline.
    Mr. Doolittle. Thank you.
    Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    First, Mr. Cook, I appreciate your testimony. Obviously 
it's somewhat redundant to what we've been talking about here 
today and on the other panels because obviously the Law of the 
River has been probably the biggest part of our conversation 
here today. You've probably heard these comments before, and it 
is not the intent of the three of us here from California to 
alter the Law of the River.
    In fact what our intent is, and Mr. Hunter asked a question 
earlier to the gentleman from Arizona and the gentleman from 
Nevada, that if the situation occurred where we had flooding 
down the Colorado River and what happened, I guess it was last 
year or a couple of years ago down in Yuma where water was just 
surging, doing damage and going into the Pacific Ocean. Would 
you rather see the water go into the Pacific Ocean or would you 
say that we could use that water at that kind of level to help 
the Salton Sea?
    Mr. Cook. Those waters are released because of flood 
control criteria that mandate them to be released, and the 
Upper Basin States would not object to those being used.
    Mr. Calvert. So if that kind of a situation occurred, you 
wouldn't object to those flood waters being used?
    Mr. Cook. They occur periodically, and they're occurring 
today, and we would not object.
    Mr. Calvert. Thank you, Mr. Cook.
    Mr. Weber, I appreciate your being here. I'm an alumni of 
San Diego State, as you know, and I always enjoy seeing you 
folks from San Diego. There was a question about a conflict, 
and I just wanted to point out, if you agree, that on the 
Management Committee itself there would be potentially five 
folks, and the Consortium would elect one of the three 
universities to serve on that management team. So you would 
have to be very convincing to get a majority to go along, plus 
get peer review and everything else, and wouldn't you believe 
that a conflict of interest would be a very hard case to make 
on the part of the Consortium?
    Mr. Weber. The voice of reason is always very suasive.
    Mr. Calvert. Thank you.
    And, finally, Mr. Hirsche, I listened to your testimony and 
I liked the first part of it. You were wanting to find a 
solution and wanting to fix the problems with the Salton Sea, 
and then I was trying to find the part of the bill that you 
agreed with. I thought I heard that you had a problem taking 
salt out of the Sea, and if Sonny Bono were here today, and I 
knew Sonny quite well, and he had a way of putting things very 
simply, you know. It doesn't take a rocket scientist, although 
we do have a rocket scientist that is helping us on this 
problem, to figure out what the problem is. The problem is we 
have too much salt and too much toxicity in the Sea and that's 
what is killing the fish and killing the birds. So we need to 
get the salt out and get rid of the toxics in the Sea, and part 
of that is getting rid of that salt brine. I thought I heard 
you say you had a problem with getting rid of the salt.
    Mr. Hirsche. Congressman, actually in the testimony we are 
concerned about the lack of accountability for where the salt 
is going to go at this point, and there is nothing in the 
legislation that provides for where it is going to go.
    Mr. Calvert. It's going to go somewhere. It's going to 
either go to an impoundment area or evaporation ponds or to 
potentially across the border back into the Sea of Cortez. It's 
going to go somewhere, and you don't object to that salt going 
some place?
    Mr. Hirsche. No, as long as we follow the appropriate NEPA 
guidelines.
    Mr. Calvert. You mentioned the NEPA guidelines, and I have 
to share with my friend and Chairman, Mr. Doolittle, that if in 
fact we were able to rely on the Department of the Interior to 
say that it's going to 18 months, no problem, we're going to 
make that timeline, and we'll just all happily go along with 
that deal I'm sure, but I have yet to find a timeline the folks 
over there have met.
    Now this instance, as you readily admit, is a potential 
catastrophe, and would you pick between that type of 
catastrophe or meeting the NEPA and other environmental 
requirements?
    Mr. Hirsche. Well I think at this point our inclination 
would be to follow the process and see where we are.
    Mr. Calvert. So if you had to choose between a catastrophe 
and the environmental laws you're going to pick the 
environmental laws.
    Mr. Hirsche. Well the catastrophe is already well underway. 
As I mentioned, it's 250,000 birds so far in 5 years.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Doolittle. I thank the members of the panel for 
appearing. We will have perhaps further questions, and I will 
ask you to respond expeditiously.
    [Questions to be submitted and responded to for the record 
may be found at end of hearing.]
    Mr. Doolittle. With that we will excuse this panel, and 
this hearing is adjourned.
    [The Subcommittee adjourned at 4:50 p.m., subject to the 
call of the Chair.]
    [Additional material submitted for the record follows.]
    Statement of Douglas Wheeler, Secretary for Resources, State of 
                               California

    Mr. Chairman and members of the Subcommittee, my name is 
Douglas P. Wheeler, Secretary for Resources in the 
Administration of California Governor Pete Wilson. Thank you 
for the opportunity to address the Subcommittee on the Sonny 
Bono Memorial Salton Sea Reclamation Act. The Governor of 
California applauds the introduction of this bill and 
appreciates the efforts of the members of the Salton Sea 
Congressional Task Force who have taken this important step, as 
well as their past actions to bring to national attention the 
existence of this remarkable resource. In particular, the 
Governor supports the goal of this legislation as a fitting 
tribute to the exemplary efforts of the late Congressman Sonny 
Bono, who did so much to foster efforts to restore the Salton 
Sea.

Background

    Since its accidental creation in 1905 following the 
flooding of the Colorado River, the Salton Sea has served as a 
tremendous resource for the citizens of California. As 
California grew during the early decades of this century, the 
Sea became a popular recreational haven for anglers, boaters, 
and wildlife viewers, reaching its zenith from the late 1950's 
through the mid-1970's. The Sea provided a unique sportfishery, 
found nowhere else in California, where anglers caught marine 
fish in a lake setting at catch rates that were considered to 
be phenomenal. In addition, as other wetland areas of southern 
California were lost to development, the Sea assumed increasing 
importance as a refuge for migratory waterfowl.
    Unfortunately, however, the health of the Sea has 
deteriorated over the past several decades, primarily due to 
high salinity levels and the inflow of contaminants. The 
salinity of the Sea has increased gradually to the current 
level of approximately 44 parts per thousand. By comparison, 
ocean salinity levels are in the range of 35 parts per 
thousand. The gradual increase in salinity is not difficult to 
understand; the only ``outlet'' for the Sea is through 
evaporation, which removes water while leaving the salts 
carried into the Sea from the New, Alamo, and Whitewater 
Rivers, as well as from agricultural runoff. In addition to 
salt, the inflow to the Sea carries contaminants such as 
selenium.
    The problems of the Salton Sea have long been recognized 
and efforts have previously been initiated to address these 
problems. Without the threat of crisis, none of these proposals 
came to fruition. In 1987, however, the results of inaction 
began to impact the ecological health of the Sea. In that year, 
the combination of high salinity levels and contaminants led to 
the initial avian ``die-offs.'' In 1992, the avian mortality 
escalated, as over 150,000 eared grebes and ruddy ducks died 
from an undetermined cause. Additional avian mortality episodes 
occurred in 1994, 1996, and 1997, and continue to the present. 
The increasing salinity has also greatly impacted the 4 fish 
species comprising the entire fishery of the Salton Sea. Lower 
reproductive success and an increased susceptibility to disease 
are two known stresses on Salton Sea sportfish that are caused 
by elevated salinity levels. Today, largely as a result of the 
avian mortality and the decline in fisheries, the need to 
restore the health of the Salton Sea is recognized as a 
priority in California and nationwide.
    The restoration of the Salton Sea has long been a priority 
of the State of California. In 1988, the Salton Sea Task Force 
was formed with the encouragement and sponsorship of the 
California Department of Fish and Game. The Task Force included 
local stakeholder representatives and was successful in 
focusing attention on the problems of the Sea. By the early 
1990's, it was clear that strong regional leadership was needed 
to identify and implement a plan with local support. To this 
end, the Salton Sea Authority (``Authority'') was established 
with State support in 1993 by Riverside and Imperial Counties, 
the Coachella Valley Water District, and the Imperial 
Irrigation District.
    The Authority has made substantial progress toward 
developing a workable plan for the restoration of the Sea. 
Beginning in 1994, the Authority, in cooperation with the 
Bureau of Reclamation and the State of California, began to 
study the environmental and economic impacts of salinity on the 
Salton Sea. The Authority also addressed the question of 
flooding, which resulted from fluctuations in Sea level and 
threatened adjacent properties. The efforts of the Authority 
resulted in a report on alternatives to fixing the Sea, 
released in final draft form in September 1997. The report 
analyzed 54 alternative approaches to restoring the health of 
the Salton Sea and recommended four ``diking'' alternatives 
which met specified criteria. The Authority also co-sponsored 
with the U.S. Fish and Wildlife Service a workshop on Saving 
the Salton Sea. The findings of the workshop were published in 
October 1997 and outlined 31 study proposals.
    With these efforts as a foundation and following 
consultation with the State, Interior Secretary Bruce Babbitt 
visited the Salton Sea in December 1997. Secretary Babbitt met 
with local stakeholders, State of California representatives, 
and Federal agencies and recommended a two-fold approach to 
restoring the Salton Sea. First, the Secretary proposed that an 
environmental review process pursuant to the Federal National 
Environmental Policy Act and the California Environmental 
Quality Act be initiated immediately under the direction of the 
Salton Sea Authority and the Bureau of Reclamation. Secretary 
Babbitt recommended that the environmental review process 
analyze the four diking proposals, which emerged from the 
alternatives study released in September 1997, as well as 
``pump-in'' and ``pump-out'' options. Second, the Secretary 
proposed additional scientific research, drawing upon the 
findings of the Saving the Salton Sea workshop. To guide 
research efforts, the Secretary proposed a Research Management 
Committee to consist of representatives from the Federal 
Government, the State of California, the Salton Sea Authority, 
and the Torres Martinez Tribe. The State of California 
supported Secretary Babbitt's proposal and agreed to 
participate in the preparation of environmental documentation 
and as a representative on the Research Management Committee. 
The Research Management Committee has since been established 
and promises to be a workable, effective means by which to 
develop a scientifically sound solution.

Sonny Bono Memorial Salton Sea Reclamation Act

    The State of California strongly supports the goals and 
objectives of H.R. 3267. Congressional action on the Sonny Bono 
Memorial Salton Sea Reclamation Act is a critical next step 
toward restoring the Salton Sea. We agree that there is need 
for appropriate levels of funding support for further 
scientific and engineering studies, and ultimately, the 
implementation of an agreed solution. The funding for 
feasibility studies will allow a thorough evaluation of the 
alternative approaches to fixing the Sea, which has already 
been initiated using State and Federal funds. The bill also 
authorizes construction funding for the preferred alternative 
solution. Finally, funding is provided to support scientific 
research on many of the as yet unresolved resource management 
issues of the Sea.
    California also supports the reliance of the Act on the 
existing analytical process and management structure. The 
Salton Sea Authority and the Bureau of Reclamation have made 
significant progress over the past several years and it is 
appropriate that H.R. 3267 build upon this progress toward the 
goal of restoring the Sea. The Memorandum of Understanding 
required by the Act will appropriately provide a framework for 
the Federal, State, and local partners to select an alternative 
which meets our shared objectives and to establish the 
financial responsibilities of each. California also endorses 
the recognition of the Research Management Committee as an 
effective structure for managing the critical process of 
scientific study and research.
    With respect to the scope of the environmental assessment 
process, California favors a comprehensive approach. The 
problems of the Salton Sea are complex and, in order to achieve 
our objectives, we must gain a better understanding of the 
relationships between contaminants and avian mortality and 
disease, fisheries and salinity, and the health of fisheries 
and migratory birds. A successful solution must address all of 
these issues and offer a means to effectively restore a 
healthy, sustainable equilibrium to the Sea.
    Sustainability in this context includes disposal of the 
brine or highly saline waters which will most likely be a 
byproduct of any engineering solution. It would be unacceptable 
to solve the salinity problems of the Sea only to exchange them 
for a brine disposal problem. We support, therefore, the 
inclusion in the legislation of subsection 101(e) calling for 
``determination of a method for disposing of pumped-out 
water.'' Sustainability also necessitates that the ultimate 
solution address the root causes of ecological degradation to 
the Sea, not simply the apparent causes of increasing salinity. 
The avian mortality and declining fisheries stem from a complex 
set of factors, including contaminants from agriculture and 
urban runoff. The solution must identify and correct those 
factors throughout the watershed which contribute to the 
deteriorating water quality and fluctuating sea levels. In 
addition, as we develop a solution, we must be sure to comply 
with the Law of the River and take into account ongoing 
activities which might affect the quantity and quality of water 
flowing into the Sea, such as proposed water transfers.
    The environmental review required by the bill will be 
significant in helping to determine the best possible solution 
to the Sea's problems. For this reason, we should be sure to 
take advantage of the information generated through this 
process. We share the sense of urgency for a credible solution 
that motivates the sponsors of the bill. We suggest that there 
are ways to accelerate the environmental review process without 
hindering its value as a decisionmaking tool. For instance, the 
state and Federal environmental processes can be run 
concurrently, or, if the Federal Government agrees, the 
intricate and thorough state environmental review process could 
be certified as satisfying the needs of Federal law. This 
option is built into the Federal transportation bill pending in 
the House. However, we would observe that the imposition of a 
statutory deadline for completing environmental studies may 
prove self-defeating.
    Additionally, we believe that aggrieved parties should not 
be denied their right to judicial remedies as is currently 
precluded by subparagraph 101(f)(3)(B). California and many 
other states have fought hard over many years to ensure that 
Federal agencies abide by state environmental laws, and we 
believe it would be a bad precedent to excuse them from that 
responsibility, even in this narrow case.
    Clearly, we must not delay progress toward a prompt 
solution. The Salton Sea is deteriorating rapidly and time is 
of the essence. The ambitious timelines set out in the 
legislation present a challenge to those of us charged with 
developing and implementing a solution, but, I am confident 
that with the commitment of all levels of government to save 
the Sea, we will meet this challenge.
    In closing, I would like to reiterate the support of the 
State of California for the objectives of this legislation. The 
Salton Sea is a nationally significant resource and deserves 
our full attention. We appreciate the efforts of the 
Congressional Task Force and look forward to working with the 
Task Force and this Subcommittee to help perfect the bill so 
that it may be promptly enacted. It will provide the framework 
and the resources necessary to restore the Salton Sea.
                              ----------                              


      Statement of Tellis Codekas, President, Salton Sea Authority

    On behalf of the Salton Sea Authority, thank you for the 
opportunity to address the Subcommittee and to comment on the 
Sonny Bono Memorial Salton Sea Reclamation Act, H.R. 3267. I am 
Tellis Codekas, President of the Salton Sea Authority.
    The Salton Sea Authority is comprised of the Counties of 
Riverside and Imperial, and the Imperial Irrigation and the 
Coachella Valley Water Districts. The Torres Martinez Desert 
Cahuilla Indians and a host of Federal and state agencies are 
ex-offficio members of the Authority. The Authority is at the 
hub of a wheel which includes dozens of national, state, 
regional, tribal, and local stakeholders. The Authority 
recognizes the vital importance of the Sea as an agricultural 
drain, an environmental resource, a recreational destination, 
and an economic development engine.
    Introduction of this legislation and the companion 
legislation in the Senate represent important steps forward in 
reclaiming and restoring the Salton Sea. Enacting legislation 
to save the Sea is a fitting tribute to the man who was very 
much responsible for the current drive to save and restore the 
Sea. The Salton Sea Authority and its member agencies strongly 
support the central elements of H.R. 3267 and look forward to 
working with the Committee and the Congressional Salton Sea 
Task Force on this proposed legislation.
    The Authority was established in 1993 and has been working 
closely with Federal partners, particularly the Bureau of 
Reclamation and our state partners, particularly the Resources 
Agency and Cal-EPA on developing a consensus to restore this 
important resource. Until a year or so ago, much of our effort 
went unnoticed. The Sea was not viewed as a high national 
priority. Times have changed and we are thankful for the 
change. We need the help of the Federal Government.
    The Secretary of Interior became personally involved in our 
efforts in December. The Secretary acknowledged the interagency 
and multi-interest effort that we had already developed. He 
confirmed the Department's commitment to this effort and 
established a structure to address biological and other 
studies.
    We are committed to the process that the Secretary and the 
Authority agreed upon. The proposed legislation largely builds 
on the existing process and we support areas where it does so 
specifically, particularly:

        Findings acknowledging the Federal interest,Project 
        requirements consistent with those developed by the Authority,
        Commitment to exploring multiple options in the feasibility 
        study, and
        Authorization of appropriations which will allow completion of 
        the feasibility, environmental analysis and permitting work.
    Unfortunately, there are also provisions in the bill which do not 
reflect our process or local needs.
        First of all, the memorandum of understanding referred to on 
        page 6 seems to suggest a new process and a new feasibility 
        study. We think it ought to confirm the roles of the Federal 
        lead agency, the Department of Interior through the Bureau of 
        Reclamation, and the local lead agency, the Salton Sea 
        Authority, in completing our current work program.
        Secondly, limitations of administrative and judicial review 
        under the National Environmental Policy Act may be 
        counterproductive. As the co-lead agency, we still must meet 
        the requirements of the California Environmental Quality Act. 
        Waiving NEPA provisions sends up a red flag to the very 
        interest groups that we are working very hard to include in our 
        restoration efforts, such as the Audubon Society.
        Thirdly, the Secretary of Interior, the Authority, the Torres 
        Martinez and the State currently sit on a Research Management 
        Committee. The Committee was so composed to ensure limited 
        conflict of interest, management oversight of research 
        conducted, and to move expeditiously on research needs. The 
        inclusion of a fifth member from the university community is 
        disconcerting. The universities may well receive some share of 
        research funds and having them make recommendations on fund 
        distribution is an apparent conflict of interest. Additionally, 
        research imperatives and their pace should not jeopardize plans 
        to quickly restore the Sea. We do not support including any 
        representative on the management committee that may create a 
        perception of a conflict of interest.
    There are other provisions in the bill which raise questions. The 
Authority applauds the Members of Congress and specifically the 
Congressional Salton Sea Task Force for recognizing that stabilizing 
and reducing the Sea's salinity is the highest priority. However, the 
Emergency Action specified under Title II of the bill may be 
counterproductive.
    Title II directs the Secretary to expulse water out of the Salton 
Sea by December 1, 1998 to accommodate diversion of, presumably, 
Colorado River water to the Sea. However, given that the mechanics of 
how the water will be pumped out, where the Seawater will be pumped to, 
how the project will be funded, designed and constructed have not been 
worked out, this Title and its deadline are unworkable. Such an 
emergency action is an overwhelming technical, financial and political 
challenge by the deadline imposed. Preferably, the bill should direct 
the Secretary to work with the Authority through our current effort to 
identify and design an emergency plan to stabilize the sea.
    Perhaps the greatest tribute to the late Congressman found in this 
bill is its intent to fix the Sea's problems quickly. The Authority 
thanks Congressmen Hunter, Brown, Calvert and Lewis for their 
commitment to expediting the recovery efforts.
    I am thankful that the Speaker has shown a commitment to this 
effort and that our two California Senators have introduced similar 
legislation to this bill. We hope that the President signs restoration 
legislation within a few months. Still, the clock is ticking for the 
Salton Sea.
    In the interim, the Authority and the Bureau of Reclamation can 
accomplish a great deal under our current five million-dollar work 
program. Federal funds authorized under Public Law 02-575 are being 
matched with state and local funds to carry out this work plan. 
Commitment by the Administration to proceeding on our work plan will 
help all of us to get a jump-start on whatever legislative deadline 
Congress establishes.
    We are thankful for the opportunity to speak before you today. The 
Authority represents the local interest in reclaiming this important 
resource. We stand ready to work with our partners to do so and to do 
so quickly. The Authority's Executive Director, Tom Kirk is here to 
address any questions that you may have. Additionally, Tom Veysey, one 
of our board members and a Supervisor of Imperial County and Paul 
Cunningham, chair of the Authority's Technical Advisory Committee and 
Director of External Affairs for Imperial Irrigation District are here 
to serve as resources to you.
                               __________

  Statement of Richard Bunker, Chairman, Colorado River Commission of 
                                 Nevada

    Chairman Doolittle, Members of the Subcommittee, thank you 
for the invitation to testify on behalf of the State of Nevada 
and its Governor Bob Miller, concerning H. R. 3267 to reclaim 
the Salton Sea. My name is Richard Bunker and I am Chairman of 
the Colorado River Commission of Nevada. It was just one month 
ago that I, along with my colleagues from the Colorado River 
Commission and the Board of the Southern Nevada Water 
Authority, visited the Salton Sea and participated in a 
briefing from members of the Salton Sea Authority concerning 
their environmental restoration efforts.

Southern Nevada and the Colorado River

    This Salton Sea briefing came at the end of a three day 
tour of the Colorado River which started at Lake Mead and 
followed the river visiting its dams, powerplants and aqueducts 
which serve millions of people in the three lower basin states. 
Every elected and appointed official involved in water 
resources decision making was invited to participate on the 
tour. We met with water officials from Arizona and California 
and were hosted for dinners, dam tours, crop inspections and 
briefings. We went on this tour to convey to our Nevada 
policymakers one simple reality, when it comes to Colorado 
River water, Nevada is inextricably connected to the actions 
and activities, problems and solutions of our sister states of 
California and Arizona. During the past five years as a member 
of the Nevada Colorado River Commission, I have learned that 
issues involving the Colorado are like a never ending soap 
opera with intricate, slow moving plots and sub plots. Unless 
you follow the program faithfully, it is very difficult to 
really tell at any given moment, who is romancing whom and for 
what reason. We in Nevada have been romanced by just about 
everybody at one time or another, including the interests 
behind the Salton Sea Authority. Let me say at the outset that 
we in Nevada appreciate the objectives of California Salton Sea 
interests and support their overall plan to prevent the Salton 
Sea from becoming a Dead Sea. We are, however, opposed to H. R. 
3267 in its present form for reasons which I will explain.

Concerns with H. R. 3267

    I want to first issue a disclaimer that these comments on 
H.R. 3267 should not be viewed by anyone as Nevada having 
allied itself with any particular interest in California's 
water wars. That said, we believe that the bill will exacerbate 
California's continued over reliance upon Colorado River water 
to the detriment of Nevada and the rest of the basin states. 
Although California uses about 5.2 million acre feet of 
Colorado River water, its Compact entitlement is for only 4.4 
million acre feet. In the past, the additional water has come 
from Arizona and Nevada's unused entitlement of lower basin 
water. Arizona and Nevada, along with the four upper basin 
states have for years been urging California to implement a 
plan to reduce its uses of the Colorado to the 4.4 million acre 
feet to which it has a permanent legal right. I am pleased that 
California is now working on its 4.4 plan.
    I do not want to suggest that California is breaking the 
law by using the excess entitlement water. They have a contract 
right with the Department of the Interior to use such water 
temporarily until it is fully utilized by Arizona and Nevada. 
Nevada has a similar contract right to temporary use of unused 
entitlement. Within ten years when we exceed our own measly 
Colorado River entitlement of 300,000 acre feet, Nevada plans 
to also divert a smaller amount of the unused entitlement 
system water now being used by California.
    Unlike California, however, we have a plan to develop 
alternate supplies for that day when all the water in the lower 
basin has been put to use. That day is not far off. Just last 
year, Arizona used nearly all of its water for the first time, 
leaving California to depend upon surplus water to meet its 
needs. As the Department of the Interior moves to approve 
regulations which allow for Colorado River water to be diverted 
and stored in groundwater aquifers located principally in 
Arizona, the full lower basin supply of 7.5 million acre feet 
will be gone. Nevada hopes to take advantage of the opportunity 
to participate in Arizona's groundwater banking program to 
provide us with supplies when we need them. Also unlike 
California, Nevada has no significant agricultural water uses 
from which water can be conserved or retired and transferred 
for municipal use.

California Must Move to Conserve Its Agricultural Water

    As far as we can tell, California has a long way to go on 
its plan to live within its 4.4 million acre foot entitlement. 
Several competing plans have been advanced by the various Ag 
and urban interests in California with no consensus developing 
around anything. Now comes H.R. 3267, the Salton Sea bill 
trying to stabilize a Federal National Wildlife Refuge where 
historically no lake ever existed and was created mostly from 
the wasted tailwater from the California Ag districts. The bill 
calls for a study of how to bring more water to the Salton Sea 
and specifically redirects this year's surplus flows to the 
Sea.
    It seems to us that before any further Federal demands for 
water are created, California should first implement a plan to 
live within the permanent supplies to which it is entitled.

Conclusion

    California is now using nearly 1 million acre feet of 
Colorado River water above its entitlement. California's right 
to use this water is temporary. With the prospect of off stream 
groundwater banking, the excess lower basin water will soon be 
gone. California cannot rely year to year upon surplus flows to 
satisfy its needs. California must implement a plan to wean 
itself from this dependency upon other state's water by 
implementing water saving programs at the Imperial, Palo Verde 
and Coachella irrigation districts and diverting that saved 
water to satisfy California's growing urban water demands. We 
are opposed to the creation of a Federal wildlife refuge at the 
Salton Sea. Such a refuge would become dependent upon the very 
wasted Ag water California must save to meet its 4.4 million 
acre foot limitation.
                              ----------                              


  Statement of Rita P. Pearson, Director, Arizona Department of Water 
                               Resources

    I would like to thank the House Subcommittee on Water and 
Power for the opportunity to provide the State of Arizona's 
perspective on H.R. 3267, the ``Sonny Bono Memorial Salton Sea 
Reclamation Act.''
    While Arizona does not object to the State of California's 
desire to develop a plan to address the long-term needs of the 
Salton Sea ecosystem, it is Arizona's position that a well 
thought out and scientifically valid plan, which will not 
negatively impact the other Colorado River Basin States or 
Mexico, has the greatest opportunity of providing a lasting 
legacy of the efforts of the late Congressman Sonny Bono to 
stabilize and restore the Salton Sea.
    With this testimony, it is the State of Arizona's intent to 
provide the Subcommittee with information on several issues to 
consider during the deliberations associated with this 
legislation. These issues are: (1) the identification of 
potential sources of water for Salton Sea reclamation in H.R. 
3267; (2) the difficulty of using Colorado River water for 
Salton Sea reclamation within California's Colorado River 
allocation; and (3) the balance to be achieved between the 
ecological needs of Salton Sea and the larger context of the 
ecological needs in the southwestern United States. Each of 
these issues are described in more detail in the following 
pages.

Introduction and Background

    The Colorado River is one of the most erratic rivers in the 
United States. Over the 90-year period of record there have 
been annual flows at Lees Ferry, Arizona of more than 23 
million acre-feet (maf) and flows as low as 5 maf. 
Approximately 70 percent of the annual natural flow of the 
Colorado River occurs in the months of May, June and July. The 
only way these flood flows can be managed for beneficial use is 
through utilization of a reservoir storage system.
    Because of the erratic and meandering nature of the 
Colorado River, the Salton Sink has been repeatedly filled and 
evaporated over the past few thousand years. Prior to the 
filling of the present Salton Sea, the most recent was 
prehistoric Lake Canhuilla which dried up approximately 300 
years ago. The average annual precipitation in the region is 
about 3 inches, but the annual rate of evaporation is 
approximately 5 feet.
    Settlement of the Imperial Valley in the late-1800s led to 
the first tentative attempts at diverting the Colorado River 
water at the turn of the century for agricultural purposes. 
Shortly after, in 1905, flood flows from the Gila and Colorado 
Rivers breached a dike near the International Boundary and 
poured into the Imperial Valley for 16 months and created the 
Salton Sea.
    Attempts by the agricultural interests along the Lower 
Colorado River and in the Imperial Valley to limit the 
potential for devastating floods, as well as provide a long-
term reliable supply of Colorado River water led to the passage 
of the Boulder Canyon Project Act (BCPA) in 1928 (43 U.S.C. 
617, December 21, 1928). The BCPA authorized the construction 
of Hoover Dam and the All-American Canal to supply water for 
the Imperial and Coachella Valleys. The BCPA listed the primary 
purposes for the construction of Hoover Dam as controlling 
floods, improving navigation, regulating the flow of the 
Colorado River and providing for the storage and delivery of 
water for reclamation of public lands and other beneficial 
public uses within the United States.
    Since the construction of Hoover Dam, numerous large dams 
and reservoirs have been constructed on the Colorado River and 
its tributaries accounting for approximately 60 maf of storage. 
This is approximately four times the average annual yield of 
the Colorado River. This allowed the Basin States and the 
Bureau of Reclamation (Reclamation) to control flood flows and 
regulate the River to provide for the generation of 
hydroelectric power and delivery of water for downstream uses 
in agricultural, municipal and industrial sectors. Creation of 
this infrastructure has resulted in a long-term dependency on 
the water supplies of the Colorado River. Because of this 
dependency, a complex use and accounting system has evolved 
that has permitted the complete allocation of the Lower Basin's 
Colorado River Compact apportionment of 7.5 maf.
    Current demand on the Colorado River by the Lower Basin 
States is at an all-time high. Arizona and Nevada are 
approaching full utilization of their basic apportionments of 
2.8 maf and 300,000 acre-feet, respectively. California's 
present consumptive use of Colorado River water is 
approximately 5.2 maf per year, while its mainstream basic 
apportionment is only 4.4 maf, plus one-half of any available 
surpluses. Additionally, the United States is annually 
obligated, through an international treaty, to provide Mexico 
with 1.5 maf. Consequently, there is currently 9.8 maf of 
annual demand in the Lower Basin. Under the Law of the River, 
the Secretary is not authorized to deliver this amount of water 
unless surplus conditions are declared. In 1998, the Secretary 
did declare surplus conditions, but this condition is not 
sustainable over the long-term, particularly during periods of 
drought. Arizona is concerned that additional demand in the 
Lower Basin will increase the likelihood of shortages to 
municipal and agricultural users.

H.R 3267 Does Not Identify the Source of Water for Salton Sea 
Reclamation

    Title I, Section l0l(b)(l) of H.R. 3267 proposes to reduce 
and stabilize the ``overall salinity of the Salton Sea to a 
level between 35 and 40 parts per thousand.'' In addition, 
Section l0l(b)(2) would ``stabilize the surface elevation of 
the Salton Sea to a level between 240 feet . . . and 230 feet 
below sea level.'' Title II of H.R. 3267 is intended to provide 
``emergency action to stabilize Salton Sea salinity.'' Section 
202(1) requires the expulsion of saline waters from the Sea ``. 
. . by pumping sufficient water out . . . prior to December 1, 
1998 . . .'' in order to accommodate, through Section 202(2), 
``diversion into the Salton Sea of water available as a result 
of high-flow periods in late 1998 and early 1999.''
    Arizona interprets this as pumping a substantial quantity 
of water out of the Sea and then attempting to dilute the 
remaining solution through the introduction of new water 
supplies. Arizona is concerned that the source of this water is 
not identified in the draft legislation. The Secretary of the 
Interior is not planning to make flood control releases during 
the referenced time frames in Water Year 1998, nor are they 
anticipated in early 1999. It is Arizona's position that 
Congress should reconsider the water that is expected to be 
used and the time-frame to accomplish these goals.
    Similarly, Section 101(c)(2)(A)(iii) describes an option to 
be considered which would provide ``augmented flows of water 
into the Salton Sea.'' Again, it is not clear what the source 
of these augmented flows would be. If these flows are the 
result of importation of water from the Pacific Ocean, Gulf of 
California or return flows from the Mexicali Valley, this 
should be specifically referenced.
    Perhaps Arizona's greatest concern is the preservation of 
rights and obligations with respect to the Colorado River. 
Section 101(f)(2) must be strengthened with the incorporation 
of the following language:

        This Act shall not supersede or otherwise affect any treaty, 
        decree, law or agreement governing the use of water from the 
        Colorado River. The Secretary shall implement this Act in a 
        manner fully consistent with and subject to the Colorado River 
        Compact, the Upper Colorado River Basin Compact, the Water 
        Treaty of 1944 with Mexico, the decree of the United States 
        Supreme Court in Arizona v. California, and the provisions of 
        the Boulder Canyon Project Act of 1928, Colorado River Storage 
        Project Act of 1956 and the Colorado River Basin Project Act of 
        1968 which govern the allocation, appropriation, development 
        and exportation of the waters of the Colorado River Basin.
    Finally, the water supply and water quality issues associated with 
reclamation of the Salton Sea as proposed in H.R. 3267 must be 
carefully examined in relation to the overall management of the Lower 
Colorado River. The Colorado River is an interstate river which is 
fully appropriated and managed by nearly a century of intense scrutiny, 
dialogue, negotiation, legislation and litigation. Currently, the seven 
Colorado River Basin States, Native American Tribes, the United States 
and other interested stakeholders are involved in several important 
basin-wide governance processes which are addressing issues such as 
water supply, quantity and allocation, water quality, as well as 
endangered species and habitat management.

Additional Colorado River Water for Salton Sea Reclamation Must Come 
From Within California's Allocation

    With the increased demand upon the Colorado River system and the 
potential risks of shortage to the Colorado River Basin States, the 
Secretary of the Interior requested that California initiate the 
development of a negotiated plan among its Colorado River water-using 
agencies to reduce their annual use from 5.2 maf to the basic 
apportionment of 4.4 maf. The California ``4.4 Plan'' proposes to 
reduce the annual use of Colorado River water in two phases. Phase I 
would step the use down from 5.2 maf to approximately 4.6-4.7 maf over 
a ten to 15 year period (2010-2015). Phase II would further reduce 
California's use of Colorado River water down to the basic 
apportionment of 4.4 maf. The primary 4.4 Plan components include: (1) 
firm ``core transfers'' from agricultural districts to municipal and 
industrial water providers in the South Coast region; (2) recovery of 
seepage from the All-American and Coachella Canals; (3) implementation 
of conjunctive use management of surface and groundwater supplies; and 
(4) Colorado River reservoir operating criteria which continue to make 
surplus water available.
    A critical component of the 4.4 Plan is the firm transfer of 
approximately 400,000 acre-feet per year out of the Imperial Valley to 
the South Coast region during Phase I. Phase II calls for an additional 
50,000 to 100,000 acre-feet per year to be transferred from Imperial 
Irrigation District, if determined feasible. In order to effectuate 
these transfers, intensive water conservation programs will be required 
in the agricultural districts which will ultimately lead to reduced 
drainage flows into the Salton Sea. Even if only the Phase I 400,000 
acre-feet per year of firm transfer water is removed from the Imperial 
and Coachella Valleys, this is roughly equivalent to 40 percent of the 
nearly one million acre-feet per year of current agricultural drainage 
flowing into the Sea.
    The ultimate goal of the California 4.4 Plan is to develop programs 
which return the State to its basic apportionment and continue to allow 
the Colorado River Aqueduct, operated by the Metropolitan Water 
District of Southern California, to run at essentially full capacity 
(approximately 1.2 maf annually) without causing detrimental impacts to 
the agricultural service areas and to the other Basin States. This 
raises a concern in Arizona regarding the relationship between the 
proposed California 4.4 Plan and the role of H.R. 3267 and reclamation 
of the Salton Sea. Arizona believes that the legislation, in its 
present state, is unclear on the role of the Colorado River in the 
restoration and reclamation of the Salton Sea. Programs proposed in 
H.R. 3267 must come within California's lawful apportionment, but not 
jeopardize the overall goal of California's implementation of the 4.4. 
Plan.

Ecological Needs of Salton Sea Reclamation Must Be Viewed in the Larger 
Context of the Ecological Needs of the Southwestern United States

    Arizona generally supports the concept described in Section 
l0l(c)(1) which requires that the Secretary prepare a ``feasibility 
study'' of various options for reclaiming the Sea. Preparation of the 
study is compatible with the recommendations stemming from the Salton 
Sea Needs Assessment Workshop which was held in August 1997 in Palm 
Springs, California. In fact, the Workshop proceedings developed a 
package of 31 research proposals which would require approximately $32 
million and three years to implement.\1\ There are two specific 
recommendations which came out of the Workshop which may be of interest 
to the Committee.
---------------------------------------------------------------------------
    \1\ Saving the Salton Sea: A Needs Assessment Workshop, August 4-8, 
1997, Workshop Proceedings, A Report of the U.S. Fish and Wildlife 
Service; Region 1, Portland, Oregon, 73 pp.
---------------------------------------------------------------------------
    First, according to page 15 of the proceedings, ``foremost in team 
discussions was the overriding need to understand the Salton Sea 
ecosystem, preferably before, but at a minimum, while we attempt to fix 
it through human intervention. Otherwise the technical solution for the 
Salton Sea's problems are liable to be too narrowly focused and a 
unique opportunity to benefit people and wildlife may not be achieved . 
. .''
    Second, an additional recommendation on page 71 suggested that ``. 
. . agencies should make clear to Congress and stakeholders that three 
years of focused science can only reduce some of the major 
uncertainties about the problems of the Salton Sea, and that final 
solutions to the problems are unlikely to emerge from such an effort. 
An adaptive approach to managing the Salton Sea and conducting science 
is more likely to be successful.'' The Needs Assessment teams 
recommended that the concept of adaptive management should involve 
implementing small actions, monitoring the response of the Sea to that 
action, assessing the response mechanisms and using the knowledge 
gained to design and implement subsequent actions and monitoring and 
assessment processes. It should be recognized that a similar adaptive 
management process has been successfully implemented by the Secretary 
of the Interior, the Colorado River Basin States and other stakeholders 
for the management and operation of Glen Canyon Dam.
    Currently, the Lower Basin States, several Native American Tribes, 
the United States, environmental organizations and other stakeholders 
are developing a fifty-year program which will meet the needs of over 
100 species occupying habitats along the Lower Colorado River. This 
Lower Colorado River Multi-Species Conservation Program (MSCP) is a 
significant effort directed at ensuring long-term Federal and non-
Federal compliance with environmental laws and regulations, while 
ensuring the continued utilization and development of the water and 
hydroelectric power resources of the Colorado River.
    The MSCP, much like the CalFed Bay-Delta Program, Upper Colorado 
River and San Juan River Basin Recovery Programs are major undertakings 
requiring significant commitment of Federal and state resources. 
Programs costing several hundred millions of dollars must be carefully 
evaluated from the standpoint of the overall goals and objectives and 
the likelihood of long-term measurable success. These programs, and 
similar ones in the southwestern United States, are all in the position 
of competing for limited resources from the Federal and state 
taxpayers, while attempting to address certain specific and unique 
needs. There is an obligation on the part of Congress and individual 
state legislatures to ensure that the programs with the greatest 
likelihood of success are supported through commitment of these limited 
resources.
    While Arizona recognizes that the needs of the Salton Sea ecosystem 
are significant, the proposed solutions must be evaluated in the 
perspective of the overall management of the water and ecological 
resources of the Lower Colorado River Basin. A Salton Sea solution must 
be considered and integrated with the ongoing California 4.4 Plan, the 
recent proposed rule authorizing the offstream storage of Colorado 
River water and the development of the 50-year Lower Colorado River 
MSCP. Each of these processes are a single component of the evolving 
blueprint which guides the wise use, management and conservation of all 
of the natural resources in the Lower Basin. One process cannot be 
rapidly advanced without carefully evaluating the potential impacts 
upon the others. Management of these valuable resources can only be 
accomplished with broad-based public participation in a thoughtful, 
iterative and scientifically credible environment

Conclusion

    In summary, Arizona urges the Congress to amend H.R. 3267 to 
accomplish the following:

        1. Identify all potential sources of water for the Salton Sea 
        Reclamation Project and consider the impacts of using that 
        water;
        2. Require explicit adherence to the current law of the 
        Colorado River; and
        3. Require that any Colorado River water utilized for the 
        Salton Sea Reclamation Project come from within California's 
        mainstream allocation of Colorado River water.
    In view of the complexity of the current issues facing the 
Secretary of the Interior, individual Colorado River Basin States and 
stakeholders, there are still questions which remain to be answered. 
For example, there may not be sufficient resources in Reclamation's 
Lower Colorado Region to accomplish the goals and objectives required 
in H.R. 3267 and still meet the needs of the California 4.4 Plan 
process, offstream storage of Colorado River water, development of 
surplus criteria for reservoir operations, implementation of the final 
biological opinion for Lower Colorado River operations and the 
continued development of the Lower Colorado River MSCP. Consequently, 
Arizona believes that the time-lines proposed in H.R. 3267 should be 
re-evaluated in the context of these other equally important elements 
of Colorado River management.
    The burdens placed on California, the United States and potentially 
the other Colorado River Basin States for development and 
implementation of the Salton Sea Reclamation Project will require a 
cooperative and effective partnership of the Congress, the States and 
stakeholders within the Basin. Arizona looks forward to working with 
the United States, California and the other Basin States during the 
development of the Salton Sea Reclamation Project.
    Thank you for the opportunity to address the Subcommittee regarding 
H.R. 3267. I would be happy to answer any questions you may have.
                               __________

 Statement of Henry J. Vaux, Jr., Associate Vice President, University 
                             of California

    Mr. Chairman, my name is Henry J. Vaux, Jr. and I am 
Associate Vice President of the University of California System 
for agricultural and natural resource programs. I appear here 
this morning on behalf of California's Federal Water Resources 
Research Institute, where I formerly served as Director. At the 
outset, I want to thank you for the opportunity to appear 
before your Committee in support of efforts to reclaim and 
improve the Salton Sea. I also want to reiterate our profound 
thanks for your long-term support of the Water Resources 
Research Institute Program.
    In my testimony this morning, I wish to make three basic 
points. First, I want to describe and clarify the purposes of 
the Federal Water Resources Research Institutes and briefly 
identify several of the ways in which the Institute in 
California has addressed these purposes. Second, I want to 
elaborate upon the current mission and role of the Institute. 
Third, and finally, I want to describe the capability of 
interests of the California Water Resources Research Institute 
in supporting the activities that would be authorized under the 
provisions of H.R. 3267.
    The Federal Water Resources Research Institutes were first 
authorized by the Water Resources Research Act of 1964 (Public 
Law 88-379). The Institute program has been reauthorized 
approximately every five years since. The most recent 
reauthorization is contained in Public Law 104-147. The program 
maintains Federal Water Resources Research Institutes at the 
Land Grant University in each of the 50 states, in the District 
of Columbia and in the several Trust Territories. The broad 
purpose of the Institutes is to focus the collective research 
expertise of scholars in the nation's institutions of higher 
education on water problems at the local, regional and national 
level. To this end, the authorizing legislation requires that 
the Institutes make their funds available to scholars at all 
institution of higher education in their respective states. 
Thus, one of the hallmarks of the Institute program is that 
competition for the Federal funds that it administers are open 
to faculty in all institutions of higher education and NOT just 
to researchers at the Land-Grant Universities.

Faculty researchers with interests in water resources at ALL of 
California's Colleges and Universities are eligible to compete 
for the Federal funds which the California Water Resources 
Research Institute awards.

    The California Water Resources Research Institute, which is 
also known as the University of California Water Resources 
Center, was initially established by the State at the 
University of California in 1958. With the passage of Public 
Law 88-379, the Center was also designated as the Federal Water 
Resources Research Institute for California. The Institute's 
role is to facilitate, coordinate and support research on water 
resources undertaken by faculty at California's public and 
private Universities. Over the last ten years, nearly all of 
the Federal dollars appropriated to the California Institute 
have been awarded to faculty researchers on campuses other than 
University of California campuses. Thus, for example, since 
1987, these funds have been awarded to faculty researchers at 
San Diego State University, Humboldt State University, 
California State University at Fresno, the California Institute 
of Technology and Stanford University. The Institute is unique 
in that it maintains relationships with virtually all faculty 
with interests in water resources at all of California's 
Colleges and Universities. The most recent addition of our 
California Directory of Water Expertise lists some 986 faculty 
at 33 Colleges and Universities.

The role of the California Water Resources Research Institute 
is to identify the high priority research topics; to ensure, 
through peer review, that research is directed at the highest 
priority topics and is of the highest quality; and to engage in 
programs of research dissemination to inform other researchers, 
water managers and members of the public of the results of the 
research.

    The California Water Resources Research Institute does not 
conduct research. Rather, its role is to facilitate the conduct 
of research by faculty experts located at the state's colleges 
and universities. This facilitation is accomplished in a 
variety of ways. Annually, high priority research topics are 
identified in consultation with water managers, local, state 
and Federal officials with responsibilities for water resources 
and members of the public. Research proposals are evaluated and 
rated by peer groups and only those of the highest quality 
receive research support. The results of water research 
accomplished in California and throughout the world are 
disseminated in a variety of publications, at annual 
conferences and at workshops convened for the purpose. By 
performing its facilitation role the Water Resources Research 
Institute helps to ensure that research on water resources in 
California is well coordinated, focuses on the most pressing 
topics and is of the highest quality. In addition, the 
Institute's activities help to avoid duplication of research 
effort both within California and nationally.

The California Water Resources Research Institute is prepared 
to facilitate the development and conduct of any research or 
programs of research that the ``Salton Sea Research Management 
Committee'' may identify as necessary pursuant to the 
provisions of H.R. 3276.

    I wish to emphasize as clearly as I can that our presence 
here today and our interest in the ``Sonny Bono Memorial Salton 
Sea Reclamation Act'' lies with ensuring that whatever research 
may emerge as a consequence of this Act is accomplished by the 
most qualified investigators and is of the highest possible 
quality. We believe that many important research questions will 
emerge as reclamation and restoration efforts go forward. We 
stand prepared to assist local, state and Federal officials in 
identifying and framing those questions, should that be 
appropriate. We are also prepared to make available our good 
offices to ensure that only the highest quality research 
projects are funded and that all of our college and University 
researchers with an interest in questions related to the 
restoration of the Salton Sea are afforded an opportunity to 
compete for whatever funds may be available.
    In closing, Mr. Chairman, I want to reiterate that the 
California Water Resources Research Institute stands ready to 
help in any way as you move forward with H.R. 3267. Let me 
thank you again for the opportunity to appear before your 
Subcommittee, and for your continuing support of the Water 
Resources Research Institute program.
                              ----------                              


 Statement of Stephen L. Weber, Member, Salton Sea University Research 
         Consortium, and President, San Diego State University

    Mr. Chairman and Members of the Subcommittee, thank you for 
the invitation to appear today on behalf of the Salton Sea 
University Research Consortium. I am proud to represent my 
fellow colleagues, Chancellor Raymond Orbach, University of 
California, Riverside, and President James Appleton, University 
of Redlands. Our Consortium strongly supports the Sonny Bono 
Memorial Salton Sea Restoration Act. We are proud to have 
worked with the members of the Congressional Salton Sea Task 
Force, Congressmen Hunter, Lewis, Calvert and Brown and the 
late Sonny Bono, on this issue of paramount importance to 
California.
    To address the grievous and disastrous environmental 
problems at the Salton Sea in an integrated, timely and 
efficacious manner, the University of Redlands, the University 
of California, Riverside and San Diego State University have 
joined forces to form the Salton Sea University Research 
Consortium.
    The complexity of issues surrounding the Salton Sea 
requires research approaches that consider the biological and 
ecological systems of the sea, the regional hydrology, the 
chemistry of soil and toxic substances, as well as potential 
bioremediation and engineering solutions. We must also take 
into account the economic issues, the agricultural interests 
and the human, cultural and social concerns of the Salton Sea 
region and the Lower Colorado River basin. The role of the 
Salton Sea University Research Consortium will be to help 
provide policy-makers with the best possible research data on 
which to base their management decisions.
    Our consortium offers the full spectrum of expertise 
necessary to grapple with these difficult decisions.
    Experts from each of our universities have long been 
active, not just on water resource issues in California, but 
specifically on issues pertaining to the Salton Sea. 
Approximately 25 faculty members at the University of 
California, Riverside have expertise addressing issues facing 
the Salton Sea. San Diego State University's Center for Inland 
Waters includes more than 20 faculty and researchers who have 
conducted long-term studies at the Salton Sea and its 
surrounding basin. The University of Redlands has just received 
the first half of a $2 million appropriation to establish a 
Salton Sea Bioregional GIS Database, which will consolidate the 
existing research data that is of greatest interest to the 
various stakeholders in the Salton Sea.
    Our combined universities have extensive interests and 
expertise in this area. We believe that timely access to this 
knowledge is vital to the Salton Sea restoration efforts. 
Scientists from California's leading public and private 
universities, including the University of California and the 
California State University systems, are represented in our 
Consortium. Faculty and researchers knowledgeable about the 
Salton Sea and its ecosystem from nearly 40 campuses in 
California are available to address the complex problems 
endangering the Salton Sea. These are university scientists who 
have conducted research on the endangered brown pelican, who 
have developed flow models for water movement within the sea, 
which has important implications for the proposed solutions; 
and who have linkages to such valuable programs as UC Mexus, 
which has important ties to Mexico and is currently conducting 
a comprehensive study of the Lower Colorado River basin.
    Further, we have initiated discussions and plan to 
coordinate closely with the Water Resources Center and Los 
Alamos National Laboratory both in naming a representative for 
the fifth seat to the research management committee and in 
carrying out research. Already our relationship with each of 
these entities is tightly linked. The Water Resources Center 
has funded scientists at both California State University and 
the University of California. The Associate Director of the 
center is a faculty member at UC, Riverside. Likewise, the 
Director of the Los Alamos National Laboratory is being 
appointed as an adjunct professor at UC, Riverside.
    The immediate benefits of our participation are twofold.
    First, the Consortium comprises three universities in close 
proximity to the Salton Sea. Our faculty has been working and 
teaching courses at the Sea and surrounding basin for more than 
20 years. Recent research results include an analysis of the 
dynamics of several kinds of toxic algae we have discovered 
there. We also have gathered the first comprehensive data on 
nutrient levels in the Salton Sea since the 1960s and have 
discovered several new fish parasites, which are implicated in 
the massive fish die-offs. We are collaborating with the Bureau 
of Reclamation on a bioremediation project on the New River. We 
are up to speed and ready to ``get it done.''
    Second, members of the Consortium have considerable 
experience managing large-scale research projects and 
coordinating with state and Federal agencies as well as other 
universities. The salinity/drainage program of the University 
of California, for example, manages extensive research 
activities at the Kesterson Reservoir, a situation very 
comparable to the Salton Sea. San Diego State University's 
extensive work on arid-lands agriculture and salinity problems 
in the Middle East has direct applications to the problems 
faced at the Salton Sea.
    We propose to bring a California Solution to a California 
Problem. We know the Sea, and it is we who will live with the 
success or failure of this effort.
    We are pleased to learn that Section 102 of the proposed 
bill calls for the establishment of the ``Salton Sea Research 
Management Committee.'' The Consortium strongly endorses this 
initiative because it will bring together the diverse areas of 
expertise that are needed to address and solve in real time the 
complex issues facing the Salton Sea. Given our research 
expertise, coupled with our geographical proximity to the 
Salton Sea, the University Research Consortium is in a unique 
position to play a critical role in the research and monitoring 
effort. The success of this restoration effort requires the 
long-term alliance of our Federal, State, and Local 
institutions, the indigenous peoples of the region, and the 
university community.
    The University Research Consortium has identified a number 
of ways that we can be of assistance:

        <bullet> Coordinating research efforts, including the 
        evaluation of existing research to determine what is known and 
        where the gaps are. The purpose is to integrate priorities 
        across disciplines.
        <bullet> Collecting, maintaining, and updating information 
        through a Salton Sea data clearinghouse.
        <bullet> Developing and conducting research in a coordinated 
        manner, including economic impact reports.
        <bullet> Advising and reporting to the Congressional Task Force 
        and the Congress on the progress of the Salton Sea clean up.
        <bullet> Constructing and managing a Salton Sea Research 
        Laboratory and Visitor Center jointly with the California State 
        Parks and providing research facilities at the Coachella Valley 
        Agricultural Station, only four miles from the Salton Sea.
        <bullet> Providing long-term management and monitoring to 
        ensure that biological, hydrological, and economic impacts are 
        positive over the long-term.
    In short, our universities have substantial expertise in scientific 
endeavors related to the Salton Sea; in managing large regional, 
national, and international programs; in forming and implementing 
consortia; and in providing an objective, science-based perspective on 
complex issues. I have additional information about our faculty 
research capabilities and publications that I will submit for the 
record.
    We look forward to working with the Federal Government, the Salton 
Sea Authority, the State of California, and all the stakeholders in 
developing and implementing successful solutions to address the 
critical environmental problems at the Salton Sea.
    Our Consortium is dedicated to bringing the best expertise 
available to preserve this unique resource. Thank you.
                               __________

   Statement of Ted Stewart, Executive Director, Utah Department of 
                           Natural Resources

    Thank you for this opportunity to present written testimony 
for the March 12, 1998 hearing on H.R. 3267 titled ``Sonny Bono 
Memorial Salton Sea Restoration Act.'' I am charged with 
protecting Utah's Upper Basin water allocation from the 
Colorado River. I would like to convey to you a concern Utah 
has with the legislation as circulated in draft form.
California Use of Colorado River Water

    With the advent of the full use of the Lower Basin's 
allotment of 7.5 million acre-feet of water per year under the 
Colorado River Compact of 1922, pressures to improve irrigation 
efficiencies increased. In fact, the state of California passed 
legislation imposing fines on the wasteful use of water. This 
resulted in a lawsuit in the 1980's where the Imperial 
Irrigation District was accused of wasteful use of water and 
ultimately directed by the state of California to improve its 
irrigation efficiency. However, from our point of view the side 
effects of improving agricultural water use efficiency has been 
or will be a decrease in the volume of water flowing into the 
Salton Sea. The result could be a decline in the level of the 
Salton Sea as evaporation may exceed inflow. Also as a terminal 
lake with no outlet besides evaporation this will result in an 
increase in salinity concentration in the Salton Sea. The 
increasing salinity level is threatening the existing fishery, 
wildlife habitat and other associated uses of the sea.

Problem with the Proposed Legislation

    The proposed legislation calls for the stabilizing of both 
salinity and water elevation levels. Unless an outlet is 
provided to flush the salt from the sea, or a desalination 
plant is built to remove salts, the only other way we see to 
accomplish this is by providing relatively large quantities of 
fresh water to the Sea. The problem is, the draft legislation 
does not specify the source of water that might be used to 
accomplish this purpose. The Colorado River appears to be the 
only significant source of water available. But, the Lower 
Colorado River Basin states, particularly California, are 
currently using in excess of their full allocation from the 
river. If the legislation is not carefully crafted it could 
result in Upper Basin water being used to freshen the sea. This 
would not only be unfair but it would disturb the delicate 
balance that currently exists between the Upper and Lower 
Colorado River Basin states.
    Utah has no problem with stabilizing the Salton Sea, 
whether in terms of volume or salinity. We believe, however, 
the water used for this purpose, if it comes from the Colorado 
River, must come from the state of California's compact 
allocation. We think this is consistent with the current 
interpretations of the ``Law of the River.'' Indeed, Utah would 
emphasize that if Colorado River water is needed for Salton Sea 
augmentation, the water should come only from California's 
compact allocation.

Suggested Amendments

    The state of Utah supports the suggested amendments 
recommended by the Upper Colorado River Commission. With those 
amendments, Utah and the other Colorado River Basin states will 
not be put at risk by this legislation. We believe any other 
result would be inequitable, violate the ``Law of the River,'' 
and place at odds with each other the Colorado River Basin 
states.
                              ----------                              


   Statement of Evan M. Hirsche, Director, Wildlife Refuge Campaign, 
                        National Audubon Society

    Thank you for the opportunity to provide you with our views 
on H.R. 3267, the ``Sonny Bono Memorial Salton Sea Reclamation 
Act.'' We appreciate the Committee's interest in honoring the 
late Representative Bono by promoting a solution to the 
ecological crisis occurring at the Salton Sea. The mission of 
the National Audubon Society, representing more than 67,000 
Californians and more than 550,000 Americans nationwide, is to 
conserve and restore natural ecosystems, focusing on birds, 
other wildlife, and their habitats for the benefit of humanity 
and the earth's biological diversity.
    The Salton Sea has become a virtual Mecca for migratory 
birds travelling along the Pacific Flyway. More than 380 
species call this unlikely alcove in the southern California 
desert their home as they travel between points as far south as 
Antarctica and as far north as the Arctic. Indeed, the 
importance of the Sea transcends national interests and must be 
considered in the broader international context.
    Mr. Chairman, how we respond to this crisis will have broad 
ramifications for people and ecosystems far beyond the scope of 
our immediate interests.
    The Salton Sea National Wildlife Refuge was established in 
1930 for the purpose of providing wintering and spring 
migration habitat for birds. At the time it was established the 
refuge contained 46,800 acres above the Salton Sea's waters; 
inundation over the years has left the refuge with just 2,400 
acreage above water level. In spite of the lost acreage, the 
refuge today provides vital wintering habitat for some of the 
large concentrations of migratory waterfowl, shorebirds and 
passerines in the nation, and provides important habitat for 
the endangered Yuma clapper rail.
    Local communities also benefit substantially from the 
refuge's existence and wellbeing. A 1994 study conducted by 
economist Paul Kerlinger concluded that $3.1 million was spent 
by 54,000 bird watchers in local communities surrounding the 
Salton Sea.
    In spite of the area's tremendous ecological value, massive 
die-offs of birds and fish have occurred in recent years. In 
the past five years alone, more than 250,000 birds have died 
from outbreaks of botulism, Newcastle disease and other 
undiagnosed causes. As we speak, an outbreak of fowl cholera is 
ten weeks running, and has already killed an estimated 7,800-
23,000 birds representing 54 species.
    What is happening at Salton Sea is nothing short of an 
ecological disaster.
    The importance of enacting legislation to address the 
problems of the Salton Sea cannot be overstated. H.R. 3267 is a 
bold initiative that makes a good faith effort to reach a 
solution to the crisis. We are concerned, however, that this 
legislation seeks to accomplish a great deal without a full and 
accurate accounting of all expected outcomes. We have four main 
concerns with H.R. 3267:

        <bullet> Timetable for identification and review of 
        alternatives;
        <bullet> The scope of options under consideration;
        <bullet> Exemption of administrative and judicial review;
        <bullet> Pumping water from the Sea without a full accounting 
        of disposal impacts.

Timetable for Review

    H.R. 3267 proposes a 12-month timeline to complete feasibility 
studies for a series of complex options identified as ``cost 
effective'' by the Bureau of Reclamation. Even under the most 
optimistic of circumstances, this timeline is unrealistic. Our major 
concern is that in a rush to comply with this unrealistic timeline, 
costly mistakes will be made or viable options ignored.
    Solving the crisis at the Salton Sea will not be easy. In October 
of last year, Saving the Salton Sea, a research needs assessment, 
prepared by the U.S. Fish and Wildlife Service in cooperation with the 
State of California and other Federal agencies, concluded that at least 
three years and $30 million would be necessary to conduct studies 
alone. While we certainly agree that it's possible to study an issue 
almost without conclusion, we have equal concerns about hastily 
adopting an alternative or series of alternatives without having a 
better sense of the likely outcomes.
    Accordingly, the twelve-month timetable provided in H.R. 3267 seems 
a woefully short time period in which to accumulate the necessary 
environmental and engineering data necessary to adopt a realistic 
alternative. In particular, it is mandatory that the Environmental 
Impact Statement (EIS) process under the National Environmental Policy 
Act (NEPA) follow the engineering/technical studies and the selection 
of a preferred alternative. To accommodate the sequential ordering of 
these studies, Audubon believes that this legislation ought to be 
modified to allow at least an Month timeline.

Scope of Options

    We must all recognize that there is no ``silver bullet'' solution 
to the problems facing the Salton Sea. H.R. 3267, however, limits the 
feasibility study to just four options, excluding a variety of others. 
The options identified in this legislation: Pumping water from the Sea; 
building desalinization impoundments within the Sea; providing 
infusions of fresh water; and a combination of the three, were adopted 
from the 1997 Bureau of Reclamation's option assessment, which reviewed 
54 alternatives. Rather than selecting alternatives with the best 
likelihood for success, the BOR selected their alternatives based on 
fiscal criteria. For the purposes of their selection, the BOR chose 
those options that would require $10 million or less in annual 
operating costs.
    We don't believe that any realistic option should be excluded 
because of a narrow set of criteria. Therefore, we strongly encourage 
the Committee to expand the range of alternatives for consideration to 
include those that may yield longer-term ecological benefits.

Exemption from Administrative and Judicial Review

    National Audubon is strongly opposed to provisions in H.R. 3267 
that seek to limit environmental oversight and public participation. 
Specifically, Section 101(f)(3)(A) would exempt activities associated 
with implementation of a selected alternative from meeting the full 
requirements under NEPA. While we appreciate the authors' interest in 
expediting actions to rectify the crisis in the Salton Sea, we firmly 
believe that full NEPA compliance should be applied to the selection 
and implementation of alternatives. Likewise, we object to Section 
104(c) which exempts river reclamation activities from having to meet 
Section 402 requirements under the Federal Water Pollution Control Act. 
It seems contradictory to exempt inflows from meeting pollution 
standards when our central objective is to clean up the Salton Sea.
    We also have concerns about Section 101(f)(3)(B) which limits 
judicial review of the chosen alternative. Despite the urgency of 
implementing a remedy, we should not sacrifice the legal rights of U.S. 
citizens to accomplish our goals.

Pumping Brine from the Salton Sea

    Title II of H.R. 3267 requires that the Secretary of the Interior 
begin pumping water from the Salton Sea prior to December 1, 1998 to 
accommodate water diversions from unidentified sources. We object to 
this provision for several reasons. First, Title II appears to bypass 
necessary environmental oversight mandated under NEPA. The ecological 
impacts of brine disposal, particularly on the scale addressed by the 
bill, are expected to be enormous. A full review of the disposal plan, 
and an opportunity for the public to comment will be critical. Second, 
it is unclear where diversion water will be drawn from and what the 
expected ecological and economic impacts on the source are likely to 
be. Again, we appreciate the need to expedite remediation, but we 
strongly believe that any such efforts must comply with Federal and 
state environmental regulations.

Conclusion

    National Audubon Society appreciates the efforts of this Committee 
and the sponsors of H.R. 3267 to quickly address the crisis at the 
Salton Sea. Although there are a number of provisions in the bill that 
we object to, we are supportive of the overall intent to find and 
implement a solution in the least amount of time possible. We look 
forward to working with the Committee as we move forward with this 
important legislation.
[GRAPHIC] [TIFF OMITTED] T7727.001

[GRAPHIC] [TIFF OMITTED] T7727.002

[GRAPHIC] [TIFF OMITTED] T7727.003

[GRAPHIC] [TIFF OMITTED] T7727.004

[GRAPHIC] [TIFF OMITTED] T7727.005

[GRAPHIC] [TIFF OMITTED] T7727.006

[GRAPHIC] [TIFF OMITTED] T7727.007

[GRAPHIC] [TIFF OMITTED] T7727.008

[GRAPHIC] [TIFF OMITTED] T7727.009

[GRAPHIC] [TIFF OMITTED] T7727.010

[GRAPHIC] [TIFF OMITTED] T7727.011

[GRAPHIC] [TIFF OMITTED] T7727.012

[GRAPHIC] [TIFF OMITTED] T7727.013

[GRAPHIC] [TIFF OMITTED] T7727.014

[GRAPHIC] [TIFF OMITTED] T7727.015

[GRAPHIC] [TIFF OMITTED] T7727.016

[GRAPHIC] [TIFF OMITTED] T7727.017

[GRAPHIC] [TIFF OMITTED] T7727.018

[GRAPHIC] [TIFF OMITTED] T7727.019

[GRAPHIC] [TIFF OMITTED] T7727.020

[GRAPHIC] [TIFF OMITTED] T7727.021

[GRAPHIC] [TIFF OMITTED] T7727.022

[GRAPHIC] [TIFF OMITTED] T7727.023

[GRAPHIC] [TIFF OMITTED] T7727.024

[GRAPHIC] [TIFF OMITTED] T7727.025

[GRAPHIC] [TIFF OMITTED] T7727.026

[GRAPHIC] [TIFF OMITTED] T7727.027

[GRAPHIC] [TIFF OMITTED] T7727.028

[GRAPHIC] [TIFF OMITTED] T7727.029

[GRAPHIC] [TIFF OMITTED] T7727.030

[GRAPHIC] [TIFF OMITTED] T7727.031

[GRAPHIC] [TIFF OMITTED] T7727.032

[GRAPHIC] [TIFF OMITTED] T7727.033

[GRAPHIC] [TIFF OMITTED] T7727.034

[GRAPHIC] [TIFF OMITTED] T7727.035

[GRAPHIC] [TIFF OMITTED] T7727.036

[GRAPHIC] [TIFF OMITTED] T7727.037

[GRAPHIC] [TIFF OMITTED] T7727.038

[GRAPHIC] [TIFF OMITTED] T7727.039

[GRAPHIC] [TIFF OMITTED] T7727.040

[GRAPHIC] [TIFF OMITTED] T7727.041

[GRAPHIC] [TIFF OMITTED] T7727.042

[GRAPHIC] [TIFF OMITTED] T7727.043

[GRAPHIC] [TIFF OMITTED] T7727.044

[GRAPHIC] [TIFF OMITTED] T7727.045

[GRAPHIC] [TIFF OMITTED] T7727.046

[GRAPHIC] [TIFF OMITTED] T7727.047

[GRAPHIC] [TIFF OMITTED] T7727.048

[GRAPHIC] [TIFF OMITTED] T7727.049

[GRAPHIC] [TIFF OMITTED] T7727.050

[GRAPHIC] [TIFF OMITTED] T7727.051

[GRAPHIC] [TIFF OMITTED] T7727.052

[GRAPHIC] [TIFF OMITTED] T7727.053

[GRAPHIC] [TIFF OMITTED] T7727.054

[GRAPHIC] [TIFF OMITTED] T7727.055

[GRAPHIC] [TIFF OMITTED] T7727.056

[GRAPHIC] [TIFF OMITTED] T7727.057

[GRAPHIC] [TIFF OMITTED] T7727.058

[GRAPHIC] [TIFF OMITTED] T7727.059

[GRAPHIC] [TIFF OMITTED] T7727.060

[GRAPHIC] [TIFF OMITTED] T7727.061

[GRAPHIC] [TIFF OMITTED] T7727.062

[GRAPHIC] [TIFF OMITTED] T7727.063

[GRAPHIC] [TIFF OMITTED] T7727.064

[GRAPHIC] [TIFF OMITTED] T7727.065

[GRAPHIC] [TIFF OMITTED] T7727.066

[GRAPHIC] [TIFF OMITTED] T7727.067

[GRAPHIC] [TIFF OMITTED] T7727.068

[GRAPHIC] [TIFF OMITTED] T7727.069

[GRAPHIC] [TIFF OMITTED] T7727.070

[GRAPHIC] [TIFF OMITTED] T7727.071

[GRAPHIC] [TIFF OMITTED] T7727.072

[GRAPHIC] [TIFF OMITTED] T7727.073

[GRAPHIC] [TIFF OMITTED] T7727.074

                                  <all>
</pre></body></html>
